Department of Homeland Security
   Ofﬁce of Inspector General

                Information Technology 

            Management Letter for the FY 2009 

                  DHS Integrated Audit 


                                           (Redacted)





 Notice: The Department of Homeland Security, Office of Inspector General has redacted the report for public
 release. A review under the Federal of Information Act will be conducted upon request.




OIG-10-110                                                                                    August 2010
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                                            Homeland
                                                            Security

                                           AUG 172010
                                             Preface

The Department of Romeland Security (DRS) Office of Inspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2009 DRS
financial statement audit as of September 30, 2009. It contains observations and
recommendations related to information technology internal control that were summarized
within the Independent Auditors' Report, dated November 13, 2009 and represents the separate
restricted distribution report mentioned in that report. The independent accounting firm KPMG
LLP (KPMG) performed the audit of the DRS' FY 2009 financial statements and prepared this
IT management letter. KPMG is responsible for the attached IT management letter dated
December 9,2009; and the conclusions expressed in it. We do not express opinions on DRS'
financial statements or internal control or provide conclusion on compliance with laws and
regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                          4r.1ttl/
                                             Assistant Inspector General
                                             Information Technology Audits
                                   KPMG LLP
                                   2001 M Street, NW
                                   Washington, DC 20036



December 9, 2009

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
U.S. Department of Homeland Security

Chief Financial Officer
U.S. Department of Homeland Security


We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2009, and the related statements of custodial activity for the years then
ended (referred to herein as “financial statements”). We were also engaged to examine the Department’s
internal control over financial reporting (ICOFR) of the balance sheet as of September 30, 2009, and
statement of custodial activity for the year then ended. We were not engaged to audit the statements of
net cost, changes in net position, and budgetary resources, for the year ended September 30, 2009
(referred to herein as “other fiscal year [FY] 2009 financial statements”), or to examine internal control
over financial reporting over the other FY 2009 financial statements. Because of matters discussed in
our Independent Auditors’ Report, dated November 13, 2009, the scope of our work was not sufficient to
enable us to express, and we did not express, an opinion on the financial statements. In addition, we
were unable to perform procedures necessary to form an opinion on DHS’ ICOFR of the FY 2009
balance sheet and statement of custodial activity.

In connection with our FY 2009 engagement, we examined DHS’ internal control over financial
reporting by obtaining an understanding of DHS’ internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls. As noted above,
the scope of our work was not sufficient to enable us to express, and we did not express, an opinion on
the effectiveness of ICOFR. Further, other matters involving ICOFR may have been identified and
reported had we been able to perform all procedures necessary to express an opinion on the DHS
balance sheet as of September 30, 2009, and the related statement of custodial activity for the year then
ended, and had we been engaged to audit the other FY 2009 financial statements.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control over financial reporting that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control over financial reporting, such that there
is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis.

During our audit engagement, we noted certain matters in the areas of access controls, configuration
management, and system security with respect to DHS’ financial systems Information Technology (IT)
general controls which we believe contribute to a DHS-level significant deficiency that is considered a
material weakness in IT controls and financial system functionality. These matters are described in the IT
General Control and Financial System Functionality Findings by Audit Area section of this letter.



                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 13, 2009. This letter represents the separate restricted distribution report mentioned in that
report.
Although not considered to be a material weakness, we also noted certain other items during our audit
engagement which we would like to bring to your attention. These matters are also described in the IT
General Control and Financial System Functionality Findings by Audit Area section of this letter.
The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and are intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to you. We
have not considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. In addition, we have
provided: a description of key DHS’ financial systems and IT infrastructure within the scope of the FY
2009 DHS financial statement audit engagement in Appendix A; a description of each IT finding and
recommendation in Appendix B; the current status of the prior year NFRs in Appendix C, and
managements comment in Appendix D. Our comments related to financial management and reporting
internal controls have been presented in a separate letter to the Office of Inspector General and the DHS
Chief Financial Officer dated December 9, 2009.

This report is intended solely for the information and use of DHS management, DHS Office of Inspector
General, U.S. Office of Management and Budget, U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.


Very truly yours,
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2009



                  INFORMATION TECHNOLOGY MANAGEMENT LETTER 


                                        TABLE OF CONTENTS 

                                                                                                Page
Objective, Scope and Approach                                                                     1


Summary of Findings and Recommendations                                                          2


IT General and Application Control Findings by Audit Area                                        4


       Access Controls                                                                           4


       Configuration Management                                                                  5


       Security Management                                                                       6


       Service Continuity                                                                        7


       Segregation of Duties                                                                     8


Application Controls                                                                             8


Financial System Functionality                                                                   8


Other Findings in IT General Controls                                                            8


Management’s Comments and OIG Response                                                           12 


                                             APPENDICES


    Appendix                                          Subject                                   Page

                       Description of Key DHS Financial Systems and IT Infrastructure within

        A                                                                                        13
                       the Scope of the FY 2009 DHS Financial Statement Audit Engagement


        B              FY 2009 Notice of IT Findings and Recommendations at DHS                  23 


                       Status of Prior Year Notices of Findings and Recommendations and

        C              Comparison to Current Year Notices of Findings and Recommendations       125 

                       at DHS


        D              Management’s Comment                                                     131 



        E              Report Distribution                                                      133 

                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009


                        OBJECTIVE, SCOPE AND APPROACH

During our engagement to perform an integrated audit of Department of Homeland Security (DHS), we
evaluated the effectiveness of IT general controls of DHS’ financial processing environment and related IT
infrastructure as necessary to support the engagement. The Federal Information System Controls Audit
Manual (FISCAM), issued by the Government Accountability Office (GAO), formed the basis of our audit
as it relates to IT general controls assessments at DHS. The scope of the DHS IT general controls
assessment is described in Appendix A.
FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
statement audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of
review that generally should be performed when evaluating general controls and the IT environment of a
federal agency. FISCAM defines the following six control functions to be essential to the effective
operation of the general IT controls environment.
•	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy of
   computer-related security controls.
•	 Access Control (AC) – Controls that limit and/or monitor access to computer resources (data, programs,
   equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
•	 Configuration Management (CM) – Controls that help to prevent the implementation of unauthorized
   programs or modifications to existing programs.
•	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
•	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.
To complement our IT general controls audit, we also performed technical security testing for key network
and system devices. The technical security testing was performed from within select DHS facilities and
focused on test, development, and production devices that directly support DHS’ financial processing and
key general support systems.
In addition to testing DHS’ general controls environment, we performed application controls tests on a
limited number of DHS financial systems and applications. The application control testing was performed
to assess the controls that support the financial systems’ internal controls over the input, processing, and
output of financial data and transactions.
•	 Application Controls - Application controls are the structure, policies, and procedures that apply to
   separate, individual application systems, such as accounts payable, inventory, payroll, grants, or loans.
During FY 2009, we also considered the effects of financial system functionality while testing IT general
and application controls and other internal controls over financial reporting. Many of the financial systems
in use at DHS components were inherited from the legacy agencies and have not been substantially updated
since the Department’s inception. Additionally, DHS has had limited Department-wide financial system
development or improvement activities. Consequently, ongoing financial system functionality limitations



                                                    1
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2009

are contributing to the Department’s challenges of addressing systemic internal control weaknesses and
strengthening the over-all control environment.


            SUMMARY OF FINDINGS AND RECOMMENDATIONS
During FY 2009, DHS components took steps to improve their financial system security and address prior
year IT control weaknesses, which resulted in the closure of more than 60% of our prior year IT control
findings. However, new IT findings were identified during the year. The two primary reasons for the new
findings included:
•	 New applications were included within the scope of the FY 2009 IT Audit and
•	 The lack of operating effectiveness of key IT general controls
As a result, we identified over one hundred (100) new IT general control deficiencies, which was over a
100% increase from last year. The most significant weaknesses from a financial statement audit perspective
include: 1) excessive unauthorized access to key DHS financial applications; 2) configuration management
controls that are not fully defined, followed, or effective; and 3) security management deficiencies in the
area of background investigations, the certification and accreditation process and system acquisition and
development impacting DHS’ ability to ensure that DHS financial data is available when needed.
Collectively, the IT control deficiencies limited DHS’ ability to ensure that critical financial and operational
data were maintained in such a manner to ensure confidentiality, integrity, and availability. In addition,
these deficiencies negatively impacted the internal controls over DHS’ financial reporting and its operation
and we consider them to collectively represent a material weakness for DHS under standards established by
the American Institute of Certified Public Accountants (AICPA). The IT findings were combined into one
material weakness regarding IT Controls and Financial Systems Functionality for the FY 2009 audit of the
DHS consolidated financial statements.
Conditions: Our findings related to IT controls and financial systems functionality follow:
Related to IT controls:
The IT general control areas that continue to present risks to DHS financial data confidentiality, integrity,
and availability include:
    •	 Access controls – Key DHS financial systems and applications have access control weaknesses,
       including: weaknesses in security documentation and approvals; lack of recertification for user
       accounts on an annual basis; inconsistent disabling of user account accesses upon termination;
       inadequate or weak system passwords; workstations, servers, or network devices without necessary
       software patches; lack of sufficient workstation inactivity time-outs; out of date anti-virus software;
       and insufficient audit logging. In addition we identified the following instances where DHS policy
       was not adhered to:
        -   While performing after-hours physical access testing, we identified the following unsecured
            items: Government credit cards; financial system user IDs and passwords; computer laptops;
            and issued badges.
        -   While performing social engineering testing, we identified instances where DHS employees
            provided their system user names and passwords to an auditor posing as a help desk employee.
    •	 Configuration management – We identified configuration management processes that are not fully
       defined, followed, or effective, including:


                                                     2
        Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009

        -   Instances where changes made to financial systems were not always properly approved, tested,
            or documented in accordance with the required System Change Request (SCR) process; and
        -   Instances where policies and procedures regarding change controls were not in place to prevent
            users from having concurrent access to financial system development, test, and production
            environments, or for restricting access to application system software and system support files.
    •	 Security management – We identified security management practices that do not fully and
       effectively ensure that financial systems are certified, accredited, and authorized for operation prior
       to implementation; and that all operational financial systems are accounted for in DHS’ system
       inventory and monitored for compliance with security requirements in DHS’ Trusted Agent FISMA
       system. Not following DHS standards in the area of background investigations and security and
       technical requirements for financial systems have not been considered and planned for in an
       integrated fashion during systems development and acquisition initiatives.
Related to financial system functionality:
We noted that financial system functionality limitations are contributing to control deficiencies which are
inhibiting progress on corrective actions at several DHS components. Systemic conditions related to
financial system functionality include:
    •	 Segregation of key accounting functions needs to be manually maintained;
    •	 Financial system audit logs are not readily generated and reviewed;
    •	 DHS-required system passwords are not being followed due to financial systems that cannot support
       the policy;
    •	 Financial systems do not provide flexible, user-friendly functionality; and
    •	 Production versions of operational financial systems are outdated, no longer supported by the
       vendor, and do not provide the necessary core functional capabilities (e.g., general ledger
       capabilities).
While the recommendations made by us should be considered by DHS, it is the ultimate responsibility of
DHS management to determine the most appropriate method(s) for addressing the weaknesses identified
based on their system capabilities and available resources.
The individual weaknesses and findings that compose this deficiency are detailed in the following section.




                                                    3
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                    Department of Homeland Security
                                Information Technology Management Letter
                                           September 30, 2009


IT GENERAL AND APPLICATION CONTROL FINDINGS BY AUDIT AREA
 Conditions: In FY 2009, the following IT and financial system functionality deficiencies were identified at
 DHS. Forty percent of the deficiencies identified during our FY 2009 engagement were repeat issues
 identified during FY 2008. In addition, over 100 new IT deficiencies were identified this fiscal year, which
 is a 100% increase over the previous year. The following IT and financial system functionality deficiencies
 result in IT being reported as contributing to a material weakness for financial system security as part of the
 FY2009 DHS Integrated Audit.
 1. Access Controls - At the following DHS components: United States Coast Guard (USCG), Customs and
 Border Protection (CBP), Federal Law Enforcement Training Center (FLETC), Federal Emergency
 Management Agency (FEMA), Immigration and Customs Enforcement (ICE), DHS Headquarters,
 Transportation Security Administration (TSA), and United States Citizenship and Immigration Services
 (USCIS) we noted:
     •	 Initial and modified user access, roles, and privileges to financial applications, databases, and
        networks, including remote access were not documented and/or appropriately authorized;
     •	 Policies and procedures that require periodic recertifications of user accounts were not in place;
     •	 Periodic recertifications of user access and privileges to financial application, database, network,
        and/or remote user access were not formally performed in accordance with DHS policy;
     •	 Financial application, database, network, and/or remote user accounts were not disabled or timely
        removed in accordance with DHS policy;
     •	 Passwords were not configured to meet DHS requirements;
     •	 Comprehensive and/or adequate policies and procedure that provide formal guidance for
        configuring and reviewing audit logs in accordance with DHS policy were lacking;
     •	 Audit logs were not configured, reviewed, and/or monitored in accordance with existing
        requirements;
     •	 An approved DHS Waiver and Exceptions Request Form associated with a financial database audit
        logging weaknesses was granted based on inconsistently or inaccurately described mitigating and
        compensating security controls. In addition, the controls required as a condition of DHS approval
        were not implemented;
     •	 The use of generic or default user accounts was identified;
     •	 Root access to financial systems is granted and not appropriately restricted and monitored;
     •	 Physical access to sensitive facilities and resources was ineffective;
     •	 Processes in place for sanitization of equipment and media were lacking;
     •	 The process for authorizing and managing remote virtual private network (VPN) access to external
        agencies and contractors did not comply with the component and DHS requirements. Specifically,
        existing documentation did not define the requirements for administering VPN access for external
        organizations or identifying component roles and responsibilities for managing VPN access granted
        to external individuals using non-DHS equipment to access the network;
     •	 Emergency and temporary access to financial applications and databases was not properly
        authorized and/or granted;


                                                      4
        Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2009


   •	 A formalized process did not exist to guide staff in the modification of sensitive system accounts to
      ensure that appropriate privileges are created, documented, and approved for a specific security
      function. Additionally, the use of function modification privileges was not monitored;
   •	 End-user workstations were not properly configured to activate a password-protected screensaver
      after five minutes of inactivity, as required by policy;
   •	 Weaknesses in processes for recertifying data center access were present;
   •	 Invalid login attempt settings did not comply with DHS requirements; and
   •	 Accounts were not configured to be disabled after 45 days of inactivity within a full fiscal year, as
      required by component and DHS policy.
2.	 Configuration Management - At the following DHS components: USCG, CBP, FLETC, FEMA, ICE,
    DHS Headquarters, TSA, and USCIS, we noted:
   •	 Password, security patch management, and configuration weaknesses were identified during our
      vulnerability assessments on hosts supporting the key financial applications and general support
      systems;
   •	 System Engineering Life Cycle (SELC) documentation was not finalized;
   •	 The Standard Operating Procedure (SOP) for monitoring sensitive access to operating system
      software was not implemented and did not include all operating system servers that are within
      scope. Additionally, there was no application or tool in place to support the audit logging function
      on the servers;
   •	 Emergency and non-emergency changes to financial application system software were not 

      consistently documented, tested, approved, controlled, tracked, and retained on file; 

   •	 Contracted developers/programmers were granted unrestricted access to the production 

      environment; 

   •	 A finalized patch management policy for installing system patches was not implemented;
   •	 Formal procedures were not implemented to require monitoring of developers’ changes to a
      system’s directories and sub-directories to review and validate implemented changes and informal
      reviews of developer activities were not routinely performed and documented;
   •	 The configuration management plans did not comprehensively provide guidance to address all
      configuration management control elements required by component and DHS policy;
   •	 System changes were not appropriately approved and tracked prior to implementation into

      production; 

   •	 Monitoring process of their service provider’s configuration management process and activities was
      not fully developed nor operating effectively;
   •	 Procedures for approving, testing, and ensuring timely installation of operating system patches
      were not developed and implemented;
   •	 Formal procedures for conducting internal scans were not developed, remediation of vulnerabilities
      identified during internal scans were not tracked and monitored, and select workstations were
      excluded from the scope; and


                                                   5
      Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2009


   •	 DHS is in the process of becoming fully compliant with the Federal Desktop Core Configuration
      (FDCC) security configurations. Each DHS component agency has begun testing or implementing
      the FDCC security configurations; however, full compliance with FDCC security configurations for
      all DHS components is not planned to be completed until the end of FY 2011.
3.	 Security Management – At the following DHS components: USCG, CBP, FEMA, ICE, DHS
    Headquarters, and TSA we noted:
   •	 Procedures for transferred/terminated personnel exit processing are not finalized;
   •	 Computer access agreements and exit clearance procedures have not been consistently

      implemented; 

   •	 Policies and procedures requiring completion of a training program by personnel in IT security
      positions were not finalized;
   •	 IT Security training is not mandatory nor is compliance monitored;
   •	 Background investigations as well as reinvestigations for all civilian and contractor employees have
      not been completed per DHS guidance;
   •	 Procedures for the program managers on how to set the correct and consistent risk levels and
      position sensitivity designations for contract employees were not finalized;
   •	 Four systems were not properly certified and accredited in accordance with DHS guidance;
   •	 Information System Security Officers (ISSO) and Designated Authorizing Authorities (DAA) were
      not formally designated;
   •	 Vulnerabilities identified during periodic internal scans and related corrective actions were not
      reported and tracked in accordance with DHS policy;
   •	 Two systems were not included in the system inventory and neither system was being tracked via
      the Trusted Agent Federal Information Security Management Act repository;
   •	 The revised system security plan for one system did not fully document the systems boundaries,
      define all subsystems and major applications, nor establish security responsibilities for all system
      components;
   •	 For the majority of FY 2009, a finalized and executed Memorandum of Understanding and an
      Interconnection Sharing was not in place between a DHS component and the Department of the
      Treasury;
   •	 Information Security Agreements for all identified participating government agencies have not been
      documented as required by the DHS component and DHS policies;
   •	 Procedures for managing IT security incidents were not developed, approved, and implemented and
      the audit’s unannounced vulnerability assessment scanning activity was not detected and
      appropriately reported by the DHS component, and in accordance with DHS and the DHS
      component’s incident response policy;
   •	 Financial systems development and acquisition projects were undertaken and progressed without (1)
      proper oversight of and direction to contractors, (2) development and approval of required project
      documentation, (3) the continual involvement of the Office of the Chief Information Officer (OCIO)



                                                   6
      Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009

        to ensure appropriate consideration and integration of IT security, and (4) the joint communication
        and decision-making of the DHS component and DHS management;
    •	 A process is lacking for tracking the status of contractors or an effective and formal process for
       notifying the OCIO of changes in contractor status so that user accounts could be appropriately
       disabled, removed, or modified in a timely manner;
    •	 Data from all component organizations to ensure a complete and accurate listing of all contractors
       was not properly captured. Additionally, through inspection of data on current contractors, it was
       noted that there were data validity issues in the component’s contractor tracking system, including
       inaccurate start dates, as well as duplicate hash IDs;
    •	 A complete and up-to-date listing of all workstations is not maintained, specifically, workstations
       maintained within Active Directory (AD) can not be accounted for in a reasonable manner;
    •	 Twenty-four out of 60,750 Active Directory (AD) workstations did not have virus protection
       installed, which is a negligible amount. However, it could not be determined what percentage of
       non-AD workstations have virus protection installed, as non-AD workstations do not communicate
       with the ePolicy Orchestrator system that is used to maintain and update virus protection across the
       component’s workstations and networks;
    •	 Non-disclosure agreements (NDA) for eight out of 45 selected contractors were signed several
       months after their hire date. Additionally, one NDA did not have a witness signature, indicating
       that the NDA was not appropriately completed; and
    •	 Ten out of 40 selected individuals with systems access across the country did not have a signed
       rules of behavior on record. Additionally, 11 individuals signed the rules of behavior months after
       the component’s requirement to sign the rules of behavior. These individuals have had access
       during fiscal year 2009.
4.	 Service Continuity – at the FEMA we noted:
    •	 An alternate processing site was not established and implemented. Additionally, the approved DHS
       waiver was expired and documented controls for restoring the system servers from back up tapes to
       compensate for the lack of an alternate processing site were ineffective;
    •	 A system’s backup tapes were not regularly tested in accordance with policy at one DHS 

       component; 

    •	 A full scale testing of a system’s contingency plan was not conducted and the plan did not
       adequately and comprehensively include information for fully restoring the system in accordance
       with requirements for a high impact availability system. Additionally, the waiver approved by DHS
       that identified table-top testing as a compensating control for the component’s inability to fully test
       the system was expired; and
    •	 An existing systems contingency plan and the disaster recovery and continuity of operations plan
       were not current or tested for systems recovery and failover capability at the alternate processing
       site. Additionally, the systems alternate processing facility and critical data files were not
       documented in the existing disaster recovery and continuity of operations plan.
5.	 Segregation of Duties – At the following DHS components: CBP, FEMA, ICE, and USCIS we noted:
    •   Segregation of duties controls were not enforced through access authorizations in one system;



                                                    7
        Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                       Department of Homeland Security
                                   Information Technology Management Letter
                                              September 30, 2009


        •	 Incompatible duties that must remain segregated when granting and maintaining user access and
           processes for segregating incompatible duties within a system are not formally documented in
           existing policies and procedures;
        •	 One system is not currently configured to restrict access to least privilege for performing job
           functionality as required by component policy; and
        •	 For one system, six users had Originator, Funds Certification Official, and Approving Official
           profiles that were in violation of the component’s segregation of duties policies.
Application Controls
        •	 At CBP, a weakness in the drawback controls existed within a system. Specifically, the system does
           not support the tracking of drawback items to the line item level. Rather, it only tracks drawbacks
           on a summary level. This control weakness was also identified in FYs 2003 through 2008.
           Additionally, we noted the certification of drawbacks is required before a drawback can be
           processed. However, the system currently automatically certifies drawbacks that have not been
           certified by a supervisor, circumventing this control.
Financial System Functionality
We noted that financial system functionality limitations are contributing to control deficiencies which are
inhibiting progress on corrective actions in several DHS components. Systemic conditions related to financial
system functionality include:
    •	 Segregation of key accounting functions needs to be manually maintained because financial systems
       cannot enforce automated segregation of duties.
    •	 Financial system audit logs are not readily generated and reviewed because financial systems cannot
       offer the necessary functionality.
    •	 DHS-required system passwords are not being used because some financial systems cannot support the
       policy.
    •	 Financial systems do not provide flexible, user-friendly, functionality to completely and accurately
       report financial data or track property, plant, and equipment information.
    •	 Production versions of operational financial systems are outdated, no longer supported by the vendor,
       and do not provide the necessary core functional capabilities (e.g., general ledger capabilities).
Other Findings in IT General Controls
After-Hours Physical Security Testing
    We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
    security. These non-technical IT security aspects include physical access to equipment that houses financial
    data and information residing on a DHS component employee’s desk, which could be used by others to
    inappropriately access financial information. The testing was performed at various DHS component
    locations that process and / or maintain financial data. After gaining access to the facilities via a DHS
    employee who was designated to assist with and monitor our test work, we inspected a random selection of
    desks or offices, looking for items such as improper protection of system passwords, unsecured information
    system hardware, documentation marked “For Official Use Only” (FOUO), and unlocked network sessions.
    Our selection of desks and offices was not statistically derived, and therefore we are unable to project results
    to the component or department as a whole.


                                                         8
           Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2009



The after hours testing at each DHS component was performed separately over a three month period.
During the initial phase of our testing it came to our attention that DHS component management became
aware of our testing efforts and notified their employees to be aware of auditors conducting random security
testing. As a result, there is the belief that the future testing results of the later DHS components during the
testing phase were compromised and fewer exceptions were identified as a result.
For each DHS component tested, we noted the type of unsecured information or property we identified and
included the total exceptions noted by location, as well as by type of information or property identified. See
table below for specific details of the result of our testing at each of the components included in the scope of
this audit work:

                                               DHS Components                                     Total
                                                                                                Exceptions
                                                                                                 by Type
   Exceptions -      CBP        Coast         FEMA          FLETC           ICE        TSA
Items Unsecured                 Guard
Passwords             10         11             42             84            26          4          177

For Official Use      26           0             2             4              4          0           36
Only (FOUO)
Keys/Badges            7           0             2             7              2          0           18

Personally            23           0             2             83            15          0          123
Identifiable
Information (PII)
Data
Server Names/IP        2           0             1             0              2          0           5
Addresses
Laptops                3           2             1             6              3          0           15

External Drives        4           0             4              2             6          0           16
Credit Cards           2           2             0             12             1          0           17

Common Access          0           4             0             0              0          0           4
Cards (CAC)
Other –                0           0             0             4              2          0           6
Workstation
logged on without
screen saver
activated
Other –U.S.            1           0             0             0              0          0           1
Government
passport
Total Exceptions      78           19           54            202            61          4          418
by Component


Social Engineering Testing



                                                     9
        Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2009

Social engineering is defined as the act of attempting to manipulate or deceive people into taking action that
is inconsistent with DHS policies, such as divulging sensitive information or allowing / enabling computer
system access. The term typically applies to deception for the purpose of information gathering, or
computer system access.
During the course of our social engineering test work, the objective was primarily focused on attempting to
identify user passwords. Posing as DHS technical support employees, attempts were made to obtain this
type of account information by contacting randomly selected employees by telephone. A script was used to
ask for assistance from the user in resolving a network issue in the component. For each person we
attempted to call, we noted whether the individual was reached and whether we obtained any information
from them that should not have been shared with us according to DHS policy.
The social engineering testing at each DHS component was performed separately over a two month period.
During the initial phase of our testing it came to our attention that DHS component management became
aware of our testing efforts and notified their employees to be aware of auditors conducting random security
testing. As a result, there is the belief that the testing results of the DHS components later in the testing
phase were compromised and fewer exceptions were identified as a result.
Our selection of individuals was not statistically derived, and therefore we are unable to project results to
the component or department as a whole.
For each DHS component tested, we noted the number of calls made, the number of DHS employees who
answered our calls and the number of DHS employees that in appropriately provided their password to the
KPMG auditors. See table below for specific details of the result of our testing at each of the components
included in the scope of this audit work:

  DHS Component        Total Called     Total Answered            Number of people who provided a
                                                                             password
  CBP                        30                 10                     2 passwords provided
  Coast Guard                 38                14                     1 password provided
  FEMA                        50                15                    No passwords provided
  FLETC                       44                20                    No passwords provided
  ICE                        65                 20                     5 passwords provided
  TSA                         20                 5                    No passwords provided
        Totals               247                84                     8 passwords provided


Recommendations: We recommend that the DHS Office of Chief Information Officer (OCIO), in
coordination with the OCFO, the DHS component OCIOs, OCFOs, and other appropriate component
management review each individual IT NFR appropriately to ensure that the DHS components enter the
recommendations as Plan of Action and Milestones in Trusted Agent FISMA, and work with the respective
components to develop corrective action plans to address the root cause and condition of each NFR.
Financial System Functionality Recommendation: We recommend that the DHS Office of Chief
Information Officer (OCIO), in coordination with the OCFO, the DHS component OCIOs, OCFOs, and
other appropriate component management address the IT system aspects associated with the financial
system functionality issues listed above, or develop compensating/mitigating controls in order to eliminate
or reduce the associated risk.
Cause/Effect: A contributing cause to repeated findings is that DHS lacks an effective component-wide
prioritization of financial system weaknesses, including the development of a stable centralized financial


                                                     10
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009

system platform for the Department. The time and resources needed to implement corrective actions
necessary to mitigate these weaknesses are significant.
The conditions supporting our findings collectively limit DHS’ ability to ensure that critical financial and
operational data is kept secure and is maintained in a manner to ensure confidentiality, integrity, and
availability. Many of these weaknesses, especially those in the area of access and configuration
management controls, may result in material errors in DHS’ financial data that are not detected in a timely
manner and in the normal course of business. In addition, as a result of the presence of IT control
weaknesses and financial system functionality weaknesses, there is added pressure on other mitigating
manual controls to be operating effectively at all times. Because mitigating controls often require more
manually performed procedures, there is an increased risk of human error that could materially affect the
financial statements.
Criteria: The Federal Information Security Management Act (FISMA) passed as part of the E-Government
Act of 2002, mandates that Federal entities maintain IT security programs in accordance with the OMB
guidance and other applicable requirements. In addition, OMB Circular No. A-130, Management of
Federal Information Resources, describes specific essential criteria for maintaining effective general IT
controls. Further, the Federal Financial Management Improvement Act (FFMIA) sets forth legislation
prescribing policies and standards for Executive departments and agencies to follow in developing,
operating, evaluating, and reporting on financial management systems. The purpose of FFMIA is to: (1)
provide for consistency of accounting by an agency from one fiscal year to the next, and uniform accounting
standards throughout the Federal Government; (2) require Federal financial management systems to support
full disclosure of Federal financial data, including the full costs of Federal programs and activities; (3)
increase the accountability and credibility of federal financial management; (4) improve performance,
productivity and efficiency of Federal Government financial management; and (5) establish financial
management systems to support controlling the cost of Federal Government. FFMIA requirements are
complemented by Financial Systems Integration Office (FSIO) requirements, which set forth core financial
management functionality required by Federal financial systems. Finally, DHS’ Sensitive Systems Policy,
4300A, documents policies and procedures adopted by DHS intended to improve the security and operation
of all DHS IT systems.




                                                   11
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2009



              MANAGEMENT’S COMMENTS AND OIG RESPONSE
We obtained written comments on a draft of this report from the DHS CIO, DHS Acting CFO, and DHS
CISO. Generally, the DHS management agreed with all of our findings and recommendations. The DHS
management has developed a remediation plan to address these findings and recommendations. We have
incorporated these comments where appropriate and included a copy of the comments at Appendix D.
OIG Response
We agree with the steps that DHS management is taking to satisfy these recommendations.




                                                12
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                 Appendix A
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2009




                                     Appendix A

Description of Key Financial Systems and IT Infrastructure within the Scope of
                the FY 2009 DHS Integrated Audit Engagement




                                           13
      Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                Appendix A
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009



Below is a description of significant financial management systems and supporting Information Technology
(IT) infrastructure included in the scope of the engagement to perform the financial statement audit.

Coast Guard (USCG)

Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial statements for
the Coast Guard. CAS is hosted at the Coast Guard’s Finance Center (FINCEN), in Chesapeake, Virginia
(VA). The FINCEN is the Coast Guard’s primary data center. CAS interfaces with two other systems
located at the FINCEN, the Workflow Imaging Network System (WINS) and the Financial and Procurement
Desktop (FPD).
    • CAS Version 4.1
    • CAS Oracle Database 9.2.0.8.0 – 47 GB 16x750mhz RISC Processor; cgofprod.world
    • CAS Operating System – HP Unix 11.11; ARGUS Server

Financial Procurement Desktop (FPD)
The FPD application is used to create and post obligations to the core accounting system. It allows users to
enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the CAS
system and is located at the FINCEN in Chesapeake, VA.
    • FPD Oracle 9.2.0.8.0 Database – 28 GB 12x750mhz RISC Processor; LUFS.world
    • FPD Operating System – HP UNIX 11.11; Dart Server

WINS
WINS is the document image processing system, which is integrated with an Oracle Developer/2000
relational database. WINS allows electronic data and scanned paper documents to be imaged and processed
for data verification, reconciliation and payment. WINS utilizes MarkView software to scan documents and
to view the images of scanned documents and to render images of electronic data received. WINS is
interconnected with the CAS and FPD systems and is located at the FINCEN in Chesapeake, VA.
    • WINS Oracle 10.2.0.3 Database - 48 GB 12x750mhz RISC Processor; PROD1.world
    • WINS Operating System – HP Unix 11.11; Vigilant Server

Checkfree
Checkfree is a commercial product used to reconcile payment information retrieved from the United States
Department of the Treasury (Treasury). It reconciles items that Treasury has paid with items CAS has sent
to that Department. This system is hosted on a Windows server and resides at the FINCEN.
     •    Oracle Database 9.2.0.8.0 – 48 GB
     •    12x750mhz RISC Processor; fundx.world
     •    Checkfree Operating System - HP Unix; 11.11; ARGUS Server

Joint Uniform Military Pay System (JUMPS)
JUMPS is a mainframe application used for paying USCG active and reserve payroll. JUMPS is located at
the Pay and Personnel Center (PPC) in Topeka, Kansas.
    • IBM Mainframe - z890
    • JUMPS Operating System z/OS 1.8 Base



                                                   14
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                               Appendix A
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2009

Direct Access
Direct Access is the system of record and all functionality, data entry, and processing of payroll events is
conducted exclusively in Direct Access. Direct Access is maintained by IBM Application On Demand (IBM
AOD) in the iStructure data center facility at Tempe, AZ with a hotsite located in a Qwest data center in
Sterling, VA.
    •	 Hardware - 2 Sunfire 4800, 3 Sunfire 880, 1 Sunfire 4500, and 1 Sunfire v240 server
    •	 Operating System - Sun Solaris 2.8
    •	 Database - Oracle 9.2.0.6
    •	 Software - Peoplesoft HCM 8.0
    •	 Security Software – Tivoli

Global Pay (Direct Access II)
Global Pay provides retiree and annuitant support services. Global Pay is maintained by IBM Application
On Demand (IBM AOD) in the iStructure data center facility at Tempe, AZ with a hotsite located in a
Qwest data center in Sterling, VA.
   •	 Oracle RDMS v 10.x
   •	 IBM x Series 336

Shore Asset Management (SAM)
SAM is hosted at the Coast Guard’s Operation System Center (OSC), in Martinsburg, WV. SAM provides
core information about the USCG shore facility assets and facility engineering. The application tracks
activities and assist in the management of the Civil Engineering (CE) Program and the Facility Engineering
(FE) Program. SAM data contributes to the shore facility assets full life cycle Program management, facility
engineering full life cycle Program management and rationale to adjust the USCG mission needs through
planning, budgeting, and project funding. SAM also provides real property inventory and management of all
shore facilities, in addition to the ability to manage and track the facilities engineering equipment and
maintenance of that equipment.
    •	 Hardware platform:-Intel MP BladeServer SBXD132, 2x Xeon Dual Core 2.66Ghz, EMT64, 4GB
         Ram (8GB DB Servers), Mirrored 72GB SAS, 2x 1GB Network Interface
    •	 Operating - Software: Windows 2003 Server Standard 5.2.3790 Service Pack 2 build 3790
    •	 Security Software - McAfee Virus Scan Enterprise 8.0.0 

         Database - Oracle 9i, 32 bit


Customs and Border Protection

SAP R/3
SAP is a client/server-based financial management system that was implemented beginning in FY 2004 to
ultimately replace the AIMS mainframe-based financial system using a phased approach. The SAP
Materials Management module was implemented and utilized in FY 2004. Since FY 2005, the Funds
Management, Budget Control System, General Ledger, Internal Orders, Sales and Distribution, Special
Purpose Ledger, and Accounts Payable modules have been implemented. Therefore, the entire SAP R/3
financial management system was included in the FY 2008 financial statement audit and is under a full
scope ITGC review. The SAP R/3 system is located in


Automated Commercial System (ACS)



                                                  15
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                 Appendix A
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009

ACS is a collection of mainframe-based applications used to track, control, and process all commercial
goods, conveyances and private aircraft entering the United States territory, for the purpose of collecting
import duties, fees, and taxes owed the Federal government. The ACS system is included in full scope in
the FY 2008 financial statement audit. The ACS system is located in

Automated Commercial Environment (ACE)
ACE is the commercial trade processing system being developed by CBP to facilitate trade while
strengthening border security. ACE is being deployed in phases, with a final full deployment scheduled for
FY 2010. As ACE is partially implemented now and processes a significant amount of revenue for CBP,
ACE was included in a full scope for this year’s financial statement audit. The ACE system is located in
               .

Federal Law Enforcement and Training Center (FLETC)

Financial Accounting and Budgeting System (FABS)
   • Processing Location: FLETC Headquarters in Glynco, GA
   • General System Description:

The FLETC FABS application is an all-in-one financial processing system. It functions as the computerized
accounting and budgeting system for FLETC. The FABS system exists to provide all of the financial and
budgeting transactions in which FLETC is involved. The FABS environment primarily consists of the latest
version of the Momentum version 6.1.6 COTS software, an Oracle 10g database and its companion Oracle
10.2 Database Management System (DBMS). An application called “Tuxedo,” also resides on a separate
server. The Tuxedo middleware holds 67 executable files. These files are scripts that process daily
information and are not directly accessible by users. The FABS application and servers reside on the
FLETC LAN in a Hybrid physical network topology and are accessible from four sites: Glynco, GA,
Washington D.C., Artesia, New Mexico, and Cheltenham, MD.

    −   Hardware: Hewlett Packard ProLiant BL465c Blade Servers (web and application) and Hewlett
        Packard ProLiant BL685c Blade Servers (database)
    −   Operating System: Microsoft Windows 2003 Server running on virtual machines on top of VMware
        Infrastructure 3.5 Enterprise hypervisor on the web and application servers
    −   Database: Red Hat Enterprise Linux
    −   Security Software: FABS system does not currently have a firewall scheme and resides on FLETC
        LAN that has a firewall in place

Interfaces:
    − National Finance Center (NFC) Payroll System
    − Student Information System (SIS)
    − Treasury Information Executive Repository (TIER)
    − US Coast Guard Interface
    − Kansas City Financial Center (KFC)

Glynco Administrative Network
   • Processing Location: FLETC Headquarters in Glynco, GA
   • General System Description:



                                                   16
        Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                 Appendix A
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009

The purpose of the Glynco Administrative Network (GLYADLAN) is to provide access to Information
Technology (IT) network applications and services to include voice to authorized FLETC personnel,
contractors and partner organizations located at the Glynco, Georgia facility. It provides authorized users
access to email, internet services, required applications such as Finical Management Systems (FMS),
Procurement systems, Property management systems, Video conference, and other network services and
shared resources.

    −   Hardware: Cisco ACS TACAS Server, Avaya 8700 Media Servers, Dell Poweredge servers 1750,
        1850, 1950, 2650, 2850, 2950, and 6650.
    −   Operating System: Windows XP SP2 (Desktop)
    −   Database: Redhat Linux 4 Enterprise edition
    −   Security Software: ASA 5500 series firewall and static IP addresses

Interfaces:
    − FMS
    − DHS

Student Information System (SIS)
    • Processing Location: FLETC Headquarters in Glynco, GA
    • General System Description:

The purpose of the SIS is to capture and facilitate the FLETC student registration process and billing. SIS
stores, processes, and transmits Sensitive But Unclassified (SBU) information, which includes individual
student personal information. Additional data types include specific course information (e.g., course
numbers, dates, associated agencies, locations, and billing costs). All users of SIS are internal to the FLETC
network. Students do not directly enter data into SIS.
    − Hardware: HP Server.
    − Operating System: HP-UX 11.0
    − Database: Informix
    − Security Software: DHS Firewall

Interfaces:

No direct interconnection 


Federal Emergency Management Agency

Core Integrated Financial Management Information System (IFMIS)
   • Processing Location: Mount Weather Emergency Operations Center (MWEOC) in Bluemont, VA

General System Description:

Core IFMIS is the key financial reporting system, and has several feeder subsystems (budget, procurement,
accounting, and other administrative processes and reporting). It was developed and is currently maintained
by the Digital Systems Group Incorporated (DSG).
    − Hardware: Two (2) HP-N4000 servers
    − Operating System: HPUX (Unix) version 11.11
    − Database: Oracle 9i Enterprise Edition
    − Security Software: Servers are protected by a CISCO PIX Firewall

                                                   17
        Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                           Appendix A
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2009

Interfaces:

    −   NEMIS

    −   Credit Card Transaction Management System (CCTMS)

    −   Fire Grants

    −   Mitigation Grants

    −   eGrants

    −   ProTrac

    −   Payroll

    −   Department of Treasury

    −   Smartlink

    −   Treasury Information Executive Repository (TIER) 


Grants and Training (G&T) IFMIS 

Processing Location: Mount Weather Emergency Operations Center (MWEOC) in Bluemont, VA 


General System Description: 

G&T IFMIS was moved from the Department of Justice into the FEMA environment in FY 2007. The 

system stores former G&T financial information. 


    − Hardware: HP-N4000 server

    − Operating System: HPUX (Unix) version 11.11 

    − Database: Oracle 9i Enterprise Edition 

    − Security Software: Servers are protected by a CISCO PIX Firewall

Interfaces:
    − PARS

Payment and Reporting System (PARS) 

Processing Location: Mount Weather Emergency Operations Center (MWEOC) in Bluemont, VA


General System Description: 

PARS is a standalone web-based application that resides on the G&T IFMIS UNIX server. Through its web 

interface, PARS collects and stores SF269 information from grantees. Chron jobs are run daily to update 

the grant information from PARS into G&T IFMIS. Additionally, through these chron jobs, PARS is also 

updated with the obligation information from G&T IFMIS to provide updated information to its users. 

    − Hardware: HP-N4000 server 

    − Operating System: HPUX (Unix) version 11.11 

    − Database: Oracle 9i Enterprise Edition 

    − Security Software: Servers are protected by a CISCO PIX Firewall

Interfaces:
    − G&T IFMIS

National Emergency Management Information System (NEMIS) 

Processing Location: Mount Weather Emergency Operations Center (MWEOC) in Bluemont, VA


General System Description: 





                                                18
        Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                Appendix A
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009

NEMIS is an integrated system to provide FEMA, the states, and certain other federal agencies with
automation to perform disaster related operations. NEMIS supports all phases of emergency management
and provides financial related data to IFMIS via an automated interface.
    − Hardware: HP Servers
    − Operating System: Linux, Microsoft NT and Microsoft 2000
    − Database: Replicated Oracle 10g, 9i, and 8i database
    − Security Software: Servers are protected by a PIX Firewall Symantec Anti-Virus corporate edition
        version 10.1.4.4000
Interfaces:
    − IFMIS
    − US Coast Guard Credit Card System
    − Small Business Administration

Traverse
Processing Location: Lanham, MD

General System Description:
Traverse is the general ledger application currently used by the NFIP Bureau and Statistical Agent to
generate the NFIP financial statements. Traverse is a client-server application that runs on the NFIP Local
Area Network (LAN) Windows server in Lanham, MD. The Traverse client is installed on the desktop
computers of the NFIP Bureau of Financial Statistical Control group members.
    − Hardware - Hewlett Packard ML530, Dual Xeon 2.8 Processors, 2 GB RAM, Redundant Array of
        Independent Disks (RAID) Storage 

    − Operating System - Microsoft Windows Server 2003 

    − Database - Microsoft Structured Query Language (SQL) 

Interfaces: 

No known system interfaces


Transaction Recording and Reporting Processing (TRRP)
Processing Location: Norwich, CT

General System Description: 

The TRRP application acts as a central repository of all data submitted by the Write Your Own (WYO) 

companies for the NFIP. TRRP also supports the WYO program, primarily by ensuring the quality of

financial data submitted by the WYO companies to TRRP. TRRP is a mainframe-based application that

runs on the NFIP mainframe logical partition in Norwich, CT. 

    − Hardware - IBM 2086-220 Mainframe with two central processing units 

    − Operating System – z/OS 1.4 

    − Database - FOOCUS 

Interfaces: 

No known system interfaces





                                                   19
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                              Appendix A
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2009



Immigration and Customs Enforcement (ICE)

Federal Financial Management System (FFMS)
The FFMS is a CFO designated financial system and certified software application that conforms to OMB
Circular A-127 and implements the use of a Standard General Ledger for the accounting of agency financial
transactions. It is used to create and maintain a record of each allocation, commitment, obligation, travel
advance and accounts receivable issued. It is the system of record for the agency and supports all internal
and external reporting requirements. FFMS is a commercial off-the-shelf financial reporting system and is
built on Oracle 9i Relational Database Management System running off an IBM 9170 Mainframe with ZOS
1.9 platform. The FFMS operating system operates off an IBM ZOS, Version 1.9 Mainframe Server and
Microsoft Windows 2000 report servers protected by firewalls. It includes the core system used by
accountants, FFMS Desktop that is used by average users, and a National Finance Center payroll interface.
The FFMS mainframe component and two network servers are hosted at the Department of Commerce
(DOC) Office of Computer Services (OCS) facility located in Springfield, Virginia. FFMS currently
interfaces with the following systems:
    •	 Direct Connect for transmission of DHS payments to Treasury
    •	 The Travel Manager System (TMS)
    •	 The Biweekly Examination Analysis Reporting (BEAR) and Controlling Accounting Data Inquiry
         (CADI), for the purpose of processing National Finance Center (NFC) user account and payroll
         information.
    •	 The Debt Collection System (DCOS)
    •	 Bond Management Information System (BMIS) Web (starting October 31, 2008 and will replace
         DCOS)

ICE Network
The ICE Network, also know as the Active Directory/Exchange (ADEX) E-mail System, is a major
application for ICE and other DHS components, such as the USCIS. The ADEX servers and infrastructure
for the headquarters and National Capital Area are located on the third floor of the Potomac Center North
Tower in Washington, DC. The ICE Network utilizes a hybrid mesh/hub and mesh network design to
maximize redundancy throughout the network. ICE operates off of Dell PowerEdge 2950, HP ProLiant DL
385 Server, HP ProLiant BL4p Server Blade, HP BL 25P Blade Server, and EMC Symmetrix DM. ADEX
has implemented Microsoft Windows 2003 Enterprise Server operating system to provide directory, domain
control, and network services to clients. For security purposes, ADEX has implemented firewalls and a
logical Layer-3 encrypted overlay network through the use of Generic Routing Encapsulation (GRE) and
IPSec tunneling. ADEX currently interfaces with the following systems:
     •	 Diplomatic Telecommunications Service Program Office (DTSPO) ICENet Infrastructure

Office of Financial Management (OFM)/Consolidated Component

DHS Treasury Information Executive Repository (DHSTIER)
DHSTIER is the system of record for the DHS consolidated financial statements and is used to track,
process, and perform validation and edit checks against monthly financial data uploaded from each of the
DHS bureaus’ core financial management systems. DHSTIER is administered jointly by the OCFO
Resource Management Transformation Office (RMTO) and the OCFO Office of Financial Management
(OFM) and is hosted on the DHS OneNet at the Stennis Data Center in Mississippi.
    •	 Database: Oracle DB 10g v10.3


                                                  20
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                Appendix A
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2009


    •	 Operating System: Microsoft Windows 2003
    •	 Hardware: HP ProLiant BL460c G1 server

Chief Financial Office VISION (CFO Vision)
CFO Vision is a subsystem of DHSTIER used for the consolidation of the financial data and the preparation
of the DHS financial statements. CFO Vision is also administered by RMTO and OFM and is hosted on the
DHS OneNet at the Stennis Data Center in Mississippi.
     •	 Commercial Off the Shelf (COTS) Software - SAS Financial Management Solutions version 4.3
        (FM 4.3) with its own internal SAS database
     •	 Operating System: Microsoft Windows 2003 Hardware: HP ProLiant BL460c G1 server

Transportation Security Administration (TSA)

Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial statements for
the Coast Guard. CAS is hosted at the Coast Guard’s Finance Center (FINCEN), in Chesapeake, Virginia
(VA). The FINCEN is the Coast Guard’s primary data center. CAS interfaces with two other systems
located at the FINCEN, the Workflow Imaging Network System (WINS) and the Financial and Procurement
Desktop (FPD).
    •	 CAS Version 4.1
    •	 CAS Oracle Database 9.2.0.8.0 – 47 GB 16x750mhz RISC Processor; cgofprod.world
    •	 CAS Operating System – HP Unix 11.11; ARGUS Server

Financial Procurement Desktop (FPD)
The FPD application is used to create and post obligations to the core accounting system. It allows users to
enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the CAS
system and is located at the FINCEN in Chesapeake, VA.
    •	 FPD Oracle 9.2.0.8.0 Database – 28 GB 12x750mhz RISC Processor; LUFS.world
    •	 FPD Operating System – HP UNIX 11.11; Dart Server

Sunflower
Sunflower is a customized third party commercial off the shelf (COTS) product used for TSA and Federal
Air Marshals (FAMS) property management. Sunflower interacts directly with the OF FA module in CAS.
Additionally, Sunflower is interconnected to the FPD system.
    •	 Sunflower Database – 10.2.0.3 - 2 x 3.06 GB Xeon Processor – 72 GB
    •	 Sunflower Operating System – Red Hat Linux 4.0AS
    •	 Sunflower Third Party Software – IBMJava 2.-131RC2




                                                   21
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                               Appendix A
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2009



United States Citizenship and Immigration Services (USCIS)

Claims 3 Local Area Network (LAN)
Claims 3 LAN provides USCIS with a decentralized LAN based system that supports the requirements of
the Direct Mail Phase I and II, Immigration Act of 1990 (IMMACT 90) and USCIS forms improvement
projects. The Claims 3 LAN is located at each of the service centers (Nebraska, California, Texas,
Vermont, and the National Benefits Center). Claims 3 executes on Dell 220 S (EMC), RAID Controller,
Disk Storage servers protected by firewalls, and Windows 2003, MS Sp2 as the operating system and
Pervasive database software and is used to enter and track immigration applications. Claims 3 interfaces
with the following systems:
    • CLAIMS 3 Mainframe
    • Integrated Card Production System (ICPS)
    • Receipt and Alien-File Accountability and Control System (RAFACS)
    • CLAIMS 4
    • FD-258 EE
    • E-filing
    • Benefits Biometric Support System (BBSS)
    • IBIS
    • CHAMPS

Claims 4
The purpose of Claims 4 is to track and manage naturalization applications. Claims 4 is a client/server
application. Claims 4 runs off of Sunfire 890, 490, Solaris 9, and Oracle 9iR2 servers with Oracle 9i,
Windows NT, and Windows 2000 Server operating systems and are protected by firewalls. The central
Oracle Database that runs off of Oracle Enterprise 9i is located in Washington, DC while application servers
and client components are located throughout USCIS service centers and district offices. Claims 4
interfaces with the following systems:
    • Central Index System (CIS)
    • Reengineered Naturalization Automated Casework System (RNACS)
    • Computer-Linked Application Information Management System 3 (CLAIMS 3)
    • Refugee, Asylum, and Parole System (RAPS)
    • Performance Analysis System (PAS)
    • National File Tracking System (NFTS)
    • Receipt and Alien-File Accountability and Control System (RAFACS)
    • Interactive Voice Response System (IVRS)




                                                  22
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                            Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2009




                               Appendix B 


  FY2009 Notice of IT Findings and Recommendations at DHS 





                                     23 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                 Appendix B
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2009



Notice of Findings and Recommendations – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the DHS
Consolidated Independent Auditors Report.

      1 – Not substantial 

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity for
consolidated reporting purposes.

These rating are provided only to assist DHS in the development of its corrective action plans for
remediation of the deficiency.




                                                   24
       Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                            Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2009




          Department of Homeland Security 

FY2009 Information Technology - Notice of Findings and 

             Recommendations – Detail 


                   United States Coast Guard





                                     25 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                              Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2009

                                 Notification of Findings and Recommendations – Detail




                                                                                                   

                                                  United States Coast Guard




                                                                                  

                                                                                                                      New     Repeat   Severity
NFR #                         Condition                                         Recommendation
                                                                                                                      Issue    Issue    Rating
         The current Coast Guard Instruction does not include     Update the policies and procedures currently                   X        2
         specific guidance for the Program Managers on how        in place to include clear guidance for Program
         to set the correct and consistent risk levels and        Managers and Contracting Officers to assign
CG-IT-   position sensitivity designations that correspond to     contractor risk level(s) and position sensitivity
09-10    CLINs and labor categories. Therefore, there is          designation requirements in order to verify
         insufficient guidance over the level of clearance        that all contracts issued by the Coast Guard
         required which may result in inconsistent risk levels    include the appropriate investigation level
         and position sensitivity designations.                   requirements.
         The Role-Based Industry Standards for Coast Guard        • Update the Role-Based Industry Standards                    X          1
         Information Assurance (IA) Professionals                     for Coast Guard IA Professionals
         Commandant Instruction remains in draft form.                Commandant Instruction to include the
                                                                      procedures by which Direct Access will
                                                                      be used to monitor and verify that training
                                                                      has been completed by all Coast Guard
                                                                      Government personnel with significant
                                                                      information security responsibilities. In
CG-IT-                                                                addition, the instruction should include the
09-14                                                                 procedures by which Coast Guard
                                                                      contractor compliance will be monitored
                                                                      and verified.
                                                                  • Finalize, communicate, and implement the
                                                                      Role-Based Industry Standards for Coast
                                                                      Guard IA Professionals Commandant
                                                                      Instruction.
                                                                  • Continue with efforts to implement Direct
                                                                      Access as the centralized method for

                                                                 26
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                            Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                                    New     Repeat   Severity
NFR #                         Condition                                         Recommendation
                                                                                                                    Issue    Issue    Rating
                                                                      monitoring and verifying Coast Guard
                                                                      personnel compliance with the specialized
                                                                      role-based training requirements.

         Although the Operation Systems Center (OSC) has          Develop and document comprehensive                          X          1
         begun reviewing Shore Asset Management (SAM)             policies and procedures over the SAM audit
         audit logs on a regular basis, detailed policies and     log review process. These policies and
CG-IT-   procedures have not been created over the process and    procedures should establish the independence
09-23    sufficient evidence is not maintained.                   of the reviewer, the audit logs under review,
                                                                  and the supporting documentation
                                                                  requirements including results and
                                                                  remediation efforts.
         Procedures do not include an annual review of all        Modify procedures to require an annual                      X          1
         Workflow Imaging Network System (WINS) user              review of one hundred percent (100%) of
         accounts, as required by the DHS 4300A Sensitive         WINS user accounts and their associated
         Systems Handbook and required by the DHS Chief           privileges that are greater than read-only. The
CG-IT-   Information Officer.                                     updated procedures should include steps to
09-25                                                             verify that: a) all terminated individuals no
                                                                  longer have active accounts, b) inactive
                                                                  accounts are locked, and c) privileges
                                                                  associated with each individual/role are still
                                                                  authorized and necessary for that job function.
         Weaknesses continued to exist over the script            Continue making improvements to implement                   X          3
         configuration management process. Specifically,          and better document an integrated script
         weaknesses were noted in the areas of approvals,         configuration management process that
CG-IT-   testing, monitoring, maintaining documentation, and      includes enforced responsibilities of all
09-31    audit logging.                                           participants in the process, and the continued
                                                                  development of documentation requirements.
            •   Coast Guard lacks a formal process to             We recommend that the Coast Guard should:
                distinguish between the module lead



                                                                 27
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                             Appendix B
                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                                     New     Repeat   Severity
NFR #                      Condition                                             Recommendation
                                                                                                                     Issue    Issue    Rating
            approvers for script approval requests.                •   Continue to design, document, implement,
                                                                       and enforce the effectiveness of internal
        •   Coast Guard Finance Center (FINCEN)
                                                                       controls associated with the active
            analysts may run scripts without seeking
                                                                       (current and future) scripts.
            further approval from the Functional
            Supervisors for approved recurring scripts.
                                                                   With respect to procedures already in place,
        •   Testing requirements are inconsistently                Coast Guard should:
            followed for the testing of the Recurring
            Approval scripts and retaining evidence of             •   Update / Develop procedures and
            testing.                                                   implement technical controls in the Core
                                                                       Accounting System (CAS) and Financial
        •   No reconciliation between the scripts run and
                                                                       Procurement Desktop (FPD) databases to
            the changes made to the database tables is
                                                                       ensure that the appropriate monitoring and
            being performed to monitor the script
                                                                       review of script activities is performed
            activities using this report as it is too difficult
                                                                       and documented.
            to accurately and effectively reconcile the
            scripts to the audit log table changes.
                                                                   •   Continue to update script policies and
        •   The Script Tracking System does not                        procedures to include clear requirements
            consistently include all testing, approval, and            and more detailed guidance over
            implementation documentation for all scripts.              requesting recurring scripts, testing and
                                                                       documentation requirements,
        •   Variations in the way the Production Review                monitoring/audit log reviews, and blanket
            Process (PRP) Approval Forms are populated                 approval requirements. Additionally,
            and completed exist for fields such as                     ensure that the policies and procedures
            financial impact, test strategy and baseline               include detailed guidance over the
            determinations.                                            requirements for the testing of scripts and
        •   Proper approval is not consistently obtained               associated test plans to ensure that the
            and documented prior to the running of each                appropriate financial impact of the script
            script.                                                    is evaluated, reviewed by the appropriate
                                                                       personnel, tested in an appropriate test


                                                                  28
                Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                                 Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                         New     Repeat   Severity
NFR #                          Condition                                           Recommendation
                                                                                                                         Issue    Issue    Rating
                                                                         environment prior to being put into
                                                                         production, and documented prior to
                                                                         execution.

                                                                     •   Further develop and implement policies
                                                                         and procedures governing the script
                                                                         change control process to ensure that all
                                                                         script records within the Change
                                                                         Management Script System are accurate
                                                                         and complete.

         Coast Guard has not created specific procedures to          Develop and finalize specific procedures over                 X          2
         address how monthly contractor reports will be              the review of the Contractor Verification
CG-IT-   analyzed and does not maintain supporting evidence          System reports and reconciliation of
09-32    associated with this review.                                contractor accounts to ensure that contractor
                                                                     data within the system remains current and
                                                                     accurate.
         During our FY 2009 follow-up test work, we                  • Develop and document an enterprise-wide                     X          2
         determined that Coast Guard is currently finalizing the         process that will notify all impacted
         business process that will be used to remediate the             system owners of terminated, transferred,
         conditions identified in the prior year NFR. Once a             or retired contractor, military, and civilian
         business process has been finalized, a technical                personnel; and
         implementation will occur. Currently, Coast Guard           • Develop and finalize entity management
CG-IT-
         HQ plans to use the Direct Access Human Resources               policies and procedures for verifying that
09-33
         (HR) system to notify system owners of HR status                terminated user accounts have been
         changes for all individuals within the system. This             successfully removed.
         would include terminations. Direct Access is
         currently undergoing a phased upgrade from
         PeopleSoft 8.0 to PeopleSoft 9.0. Coast Guard
         informed us that while the functionality required is not


                                                                    29
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                            Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                    New     Repeat   Severity
NFR #                          Condition                                          Recommendation
                                                                                                                    Issue    Issue    Rating
         included in the 8.0 version, it should be included in
         the 9.0 version. At this time, where this functionality
         fits into that upgrade schedule, has not yet been
         determined.

         In addition, Coast Guard has created a service request
         to track its remediation efforts and has identified the
         termination process currently conducted at Coast
         Guard’s Personnel and Pay Center (PPC) as a
         potential solution. At PPC, a report is run within
         Direct Access whenever an individual separates,
         retires, or transfers which automatically removes
         system permissions. However, this process currently
         excludes contractors and civilians whose information
         is not currently in Direct Access.

         Not all WINS change requests were appropriately            •   Consistently enforce the newly                        X          1
         reviewed and approved by management prior to                   implemented PRP process to ensure that
         development and/or prior to implementation. In                 all change requests are properly reviewed
         addition, one of the 25 WINS changes selected was              and approved prior to development and
         identified as having a financial impact consideration          again prior to implementation.
         to the Coast Guard Financial Statements and, as such,
         the appropriate Financial Representative approval was      •   Periodically verify FINCEN compliance
CG-IT-
         not obtained prior to implementation. We further               with its PRP and related approval and CM
09-34
         noted that the criterion set forth in the Coast Guard          processes.
         Finance Center Financial Statement Impact
         Consideration Memo does not provide sufficient detail      •   Formally document detailed decision
         to assist in making a determination regarding the              criteria to be used when determining if a
         financial impact of a proposed change.                         change has a financial impact.



                                                                   30
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                           Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                   New     Repeat   Severity
NFR #                          Condition                                          Recommendation
                                                                                                                   Issue    Issue    Rating
         During our FY 2009 follow up, we determined that           • Perform the initial background                          X        2
         Coast Guard actively monitors all civilians to verify          investigations for civilian employees in
         whether they have a valid background investigation on          accordance with the DHS directives over
         record. We received documentation from Coast                   position sensitivity designations; and
         Guard that identified 94 individuals with an
         outstanding investigation. This number has been            •   Conduct civilian background re-
         reduced significantly from the approximately 350               investigations as required by DHS
         individuals identified in FY 2008.                             directives, to ensure that each civilian
                                                                        employee has a favorably adjudicated,
         Coast Guard continues vetting individuals based on             valid, and required background
         the Office of Personnel Management (OPM)                       investigation.
         requirements which require a National Agency Check
         and Inquiries (NACI) investigation for those position
         designations with the lowest risk. A NACI consists of
         written inquiries and searches of records covering
CG-IT-
         specific areas of a person's background during the past
09-40
         five years including current and past employers,
         schools attended, references, and local law
         enforcement authorities.

         However, all DHS government positions that use,
         develop, operate, or maintain IT systems are
         considered at least moderate risk (not low), and per
         DHS, 4300A requirements, an Minimum Background
         Investigation (MBI) is the minimum standard of
         investigation. The MBI consists of the NACI as well
         as a credit record search, face-to-face personal
         interview between the investigator and the subject,
         and telephone inquiries to selected employers.
         Therefore, Coast Guard is not in compliance with
         these DHS requirements.

                                                                   31
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                         Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                 New     Repeat   Severity
NFR #                         Condition                                        Recommendation
                                                                                                                 Issue    Issue    Rating

         In addition, Coast Guard does not complete
         background re-investigations due to the lack of the
         requirement under current OPM guidance for low risk
         positions even though re-investigations must be
         completed every 10 years for moderate risk positions
         per DHS Management Directive (MD) 11050.2,
         Personnel Security and Suitability Program.


         As a result of our audit test work and supported by     •   Continue to implement and improve                     X          3
         all the IT NFRs issued during the current year, we          upon the monitoring of compliance with
         determined that Coast Guard is non-compliant with           DHS, Coast Guard, and Federal security
         the Federal Financial Management Improvement                policies and procedures in the areas of
         Act (FFMIA) and we believe that Coast Guard has             the script configuration management
         not fully addressed the recommendations in NFR              controls.
         CG-IT-08-42.
                                                                 •   Develop and implement corrective
                                                                     action plans to address and remediate
CG-IT-                                                               the NFRs issued during the FY 2009
09-42                                                                audit. These corrective action plans
                                                                     should be developed from the
                                                                     perspective of the identified root cause
                                                                     of the weakness both within the
                                                                     individual NFR and across related
                                                                     NFRs. The IT NFRs should not be
                                                                     assessed as individual issues to fix, but
                                                                     instead, should be assessed collectively
                                                                     based upon the control area where the
                                                                     weakness was identified. This approach


                                                                32
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                               Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                       New     Repeat   Severity
NFR #                           Condition                                          Recommendation
                                                                                                                       Issue    Issue    Rating
                                                                         enables corrective action that is more
                                                                         holistic in nature, thereby leading to a
                                                                         more efficient and effective processes of
                                                                         addressing/fixing the controls that are
                                                                         not operating effectively.

         Coast Guard procedures do not include a review of all       Modify procedures to require an annual                      X          2
         UMS user accounts, as required by DHS 4300A                 review of one hundred percent (100%) of
         Sensitive Systems Handbook and required by the              UMS user accounts and their associated
         DHS-CIO. A full 100% review of accounts that                privileges that are greater than read-only. The
CG-IT-   exceed ‘read-only’ access would ensure that all             updated procedures should include steps to
09-43    terminated individuals no longer have active accounts,      verify that all terminated individuals no
         that inactive accounts are locked, and that privileges      longer have active accounts, that inactive
         associated with all UMS users are authorized and            accounts are locked and that privileges
         necessary.                                                  associated with each individuals are still
                                                                     authorized and necessary.
         Access was not authorized for two of the 15                 Include the badge software database during         X                   1
         individuals we tested who possessed badges allowing         the data center access review process to
CG-IT-
         FINCEN data center access.                                  ensure that no unauthorized individuals have
09-45
                                                                     badges that would allow them access to the
                                                                     FINCEN data center.
         During our testing, we determined that all previous         Implement the corrective actions for the           X                   1
         year conditions listed in NFRs CG-IT-08-36 and CG-          recommendations listed within the NFR.
         IT-08-37 were properly remediated by USCG. As
CG-IT-   part of this year’s testing, we identified nine security
09-46    configuration management weaknesses (i.e., missing
         security patches and/or incorrect configuration
         settings) on hosts supporting CAS and FPD.

CG-IT-   Direct Access passwords do not require a special       Through our test work, we determined that the           X                   1
09-47    character, which is a requirement set forth within DHS control weakness was remediated prior to the

                                                                    33
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                              Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                      New     Repeat   Severity
NFR #                           Condition                                         Recommendation
                                                                                                                      Issue    Issue    Rating
         4300A Sensitive Systems Policy Directive.                  fiscal year-end; therefore, no recommendation
                                                                    is required for this NFR.
         Global Pay accounts are configured to expire after         Through our test work, we determined that the      X                   1
         five (5) invalid login attempts, rather than three (3),    control weaknesses were remediated prior to
CG-IT-
         which is a requirement set forth within DHS 4300A          the fiscal year-end, therefore, no
09-48
         Sensitive Systems Policy.                                  recommendation is required for this NFR.

         The quarterly JUMPS audit log review addresses             Review audit logs containing unusual activity      X                   1
         unusual activity or unexplained access attempts which      and unexplained access attempts on an at least
         DHS 4300A Sensitive Systems Policy Directive               monthly basis to meet the requirements set
         requires to be done on a monthly basis.                    forth in DHS 4300A, perform the necessary
CG-IT-                                                              follow up on any incidents identified and
09-49                                                               maintain sufficient evidence of the audit log
                                                                    reviews, and include copies of audit logs in
                                                                    hard copy or electronic form and evidence
                                                                    that the review of the audit logs was
                                                                    conducted.
         Not all Direct Access failed logon attempts are logged     • Identify the Direct Access application           X                   1
         or reviewed; and account management audit logs for             security-oriented audit logs that should be
         the Direct Access application are not reviewed on a            reviewed and then have the application
         monthly basis, which is a requirement set forth within         system administrators review those Direct
         the DHS Sensitive Systems Policy Directive.                    Access application security logs on at
                                                                        least a monthly basis, in accordance with
CG-IT-                                                                  DHS Policy.
09-50
                                                                    •   Additionally, we recommend that the
                                                                        Coast Guard upgrade to a more current
                                                                        version of PeopleSoft and Oracle so that it
                                                                        uses a vendor supported product with
                                                                        more robust security controls and so that
                                                                        accountability may be established to

                                                                   34
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                                                 Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                         New     Repeat   Severity
NFR #                          Condition                                            Recommendation
                                                                                                                         Issue    Issue    Rating
                                                                          document changes to security settings and
                                                                          user profiles.
         Only the last modification to the user account is            Review role change logs on at least a monthly       X                   1
         documented by the COTS PeopleSoft application                basis, in compliance with DHS Policy.
         software, making it difficult to establish accountability
         for role changes within the Global Pay application.
CG-IT-
09-51
         Additionally, role changes for the Global Pay
         Application are not reviewed on a monthly basis,
         which is a requirement set forth within DHS Policy.

         100% of Direct Access user accounts with greater             Modify procedures to require an annual              X                   2
         than read-only access are not reviewed annually to           review of one hundred percent (100%) of
         verify that access remains appropriate, per the DHS          Direct Access user accounts and their
         4300A Sensitive Systems Handbook and required by             associated privileges that are greater than
CG-IT-   the DHS-CIO.                                                 read-only. The updated procedures should
09-52                                                                 include steps to verify that all terminated
                                                                      individuals no longer have active accounts,
                                                                      that inactive accounts are locked and that
                                                                      privileges associated with each individual are
                                                                      still authorized and necessary.
         During our after hours physical testing, we identified       • Review its policies and procedures                X                   1
         11 passwords, two unsecured laptops, two credit                   regarding Protection of Sensitive
         cards, and four Common Access Cards (CAC).                        Information and update where required in
                                                                           order to address DHS and other Federal
CG-IT-   During our social engineering testing, we were                    requirements, with emphasis being placed
09-53    provided with one password.                                       on the potential impacts of not
                                                                           consistently and adequately protecting this
                                                                           sensitive information.
                                                                      • Review, and update as required, its
                                                                           security awareness/training content to

                                                                     35
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                                                        Appendix B
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2009

                                                                                                New     Repeat   Severity
NFR #           Condition                                     Recommendation
                                                                                                Issue    Issue    Rating
                                                    address the updated Protection of
                                                    Sensitive Information policies and
                                                    procedures.
                                                •   Validate the effectiveness of the updated
                                                    policies and procedures and associated
                                                    training through mechanisms such as
                                                    scheduled and unscheduled desk/floor
                                                    reviews, awareness training testing, etc.
                                                    and take appropriate corrective action to
                                                    address any issued identified during this
                                                    validation.




                                              36
        Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                                            Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2009




            Department of Homeland Security 

             FY2009 Information Technology 

 Notification of Findings and Recommendations – Detail 



                        Customs and Border Patrol




                                     37 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                             Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                Notification of Findings and Recommendations – Detail

                                           U.S. Customs and Border Protection

                                                                                                              New     Repeat     Risk
  NFR #                       Condition                                  +Recommendation
                                                                                                              Issue    Issue    Rating
             During testing, we were informed that all       We recommend that CBP implement                             X        2
             data had not been completely captured from      procedures to have              data regularly
             all organizations within CBP to ensure a        reviewed and updated by             to ensure
             complete and accurate listing                   the most accurate data is in the       for use
CBP-IT-09-               . Additionally, through             by all of CBP.
   03        inspection of data on current contractors,
             we noted that there were data validity issues
             in the system,
                                                 .

             We noted that                    is installed   We recommend that CBP research, identify                   X          2
             on a significant majority of workstations at    and implement a method to consistently
             CBP. These workstations are on the              account for all CBP workstations and
                               system. However, we           perform regular reviews to ensure that all
             noted that there are a significant number of    CBP workstations have           or some
CBP-IT-09-
             non-     workstations that do not appear on     future solution, appropriately applied.
   12
             the        listing of workstations, as
             maintained by the          administrators.
             We noted that these workstations do not
             have                   installed as required.




                                                               38
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                           Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                            New     Repeat     Risk
  NFR #                       Condition                                  +Recommendation
                                                                                                            Issue    Issue    Rating
             We noted that while progress has been           We recommend that CBP work with                           X        2
             made in accounting for all CBP                  administrators across the country to ensure
             workstations, a complete and up-to-date         that new and existing workstations are
             listing of all CBP workstations is not          added to a centralized accounting structure
             maintained. Specifically, We noted that         such as AD or some other more appropriate
             workstations maintained within Active           solution, if identified, to allow for all
             Directory (AD) can be accounted for in a        workstations to be accounted for in an
CBP-IT-09-
             reasonable manner. However, workstations        appropriate fashion.
   13
             that are not in AD are difficult to account
             for, as they are not part of the Active
             Directory structure and can only be
             identified when connecting to the network,
             which may not occur regularly (i.e., laptops,
             unused equipment, etc).

             We noted that when changes to a user’s          We recommend that the review of these                    X          2
             ACS access profile are performed, the log       logs is implemented on a periodic basis by
CBP-IT-09-   of these events is not regularly reviewed by    an independent reviewer and that CBP
   21        personnel independent from those                formalize these procedures in detail for the
             individuals that made the changes.              review of ACS security profile change logs.

             We noted that authorizations are still not      We recommend that CBP implement                          X          2
             being maintained for personnel that have        procedures that have been developed to
             administrator access to           .             restrict access to mainframe administrative
CBP-IT-09-   Procedures have been implemented to             capabilities and require documented
   27        require documented authorization however        authorization requests and approval for each
             evidence could not be provided that these       person requiring access to the mainframe
             procedures are being implemented                administrative capabilities.
             appropriately.




                                                               39
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security                                        Appendix B
                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                        New     Repeat     Risk
  NFR #                      Condition                                +Recommendation
                                                                                                        Issue    Issue    Rating
             We selected 45 individuals that had          We recommend that CBP develop a                          X        2
             separated in FY 2009 and noted that 19 of    standardized method of maintaining the
             these individuals did not have a completed   CBP-241 forms to ensure that all forms for
CBP-IT-09-   CBP-241 form on file. Additionally, We       all separating employees are completed in a
   29        noted that two forms provided for two        timely manner and are easily accessible.
             different individuals were incomplete and
             lacked a supervisor’s signature.

             We noted that 24 out of 60,750 Active        We recommend that CBP research, identify                X          2
             Directory (AD) workstations, or 0.04         and implement a method to consistently
             percent, did not have antivirus installed,   account for all CBP workstations and
             which is a negligible amount. However,       perform regular reviews to ensure that all
             We could not determine what percentage of    CBP workstations have virus protection
CBP-IT-09-   non-AD workstations have virus protection    installed and that it is regularly updated.
   34        installed, as non-AD workstations do not
             communicate with the ePolicy Orchestrator
             system that is used to maintain and update
             virus protection across CBP workstations
             and networks.




                                                            40
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                             Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                              New     Repeat     Risk
  NFR #                       Condition                                   +Recommendation
                                                                                                              Issue    Issue    Rating
             We noted that a Customs Directive was            We recommend that CBP review the current                   X        2
             provided as separation procedures for            Customs Directive and update it to reflect
             contractors and that this directive was dated    the current operating environment.
             September 2001. The directive references         Additionally, We recommend that CBP
             Treasury policies as source documentation.       require the consistent and accurate
             This directive is out of date, as CBP is no      completion of the CBP-242 forms for all
             longer a part of the Department of Treasury.     separating contractors.
             A new directive was issued requiring the
             use of the Contractor Tracking System;
CBP-IT-09-   however, the new directive still refers to the
   41        old directive, which has not been updated.

             Additionally, We noted that CBP-242
             contractor separation forms are not
             completed consistently for separating CBP
             contractors. Specifically, we noted that
             three separated contractors out of 45
             selected had their forms completed over one
             month after they separated from CBP.

             We noted that non-disclosure agreements          We recommend that CBP implement a more                    X          2
             are still not consistently being signed by       consistent method of ensuring that
             contractors at CBP. Specifically, we noted       contractors sign an NDA. We also
             that NDAs for eight out of 45 selected           recommend that COTRs regularly review
CBP-IT-09-   contractors were signed many months after        their contractors and ensure that there is an
   44        their hire date. Additionally, we noted that     NDA for each contract under their
             one NDA did not have a witness signature,        supervision.
             indicating the NDA was not appropriately
             completed.




                                                                41
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                          Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                           New     Repeat     Risk
  NFR #                       Condition                                 +Recommendation
                                                                                                           Issue    Issue    Rating
             Parameters for all mainframe audit and         We recommend that CBP properly                            X        2
                                                            configure mainframe audit and system
                                                            utility logs to capture appropriate data for
                                                 are not    the NDC Mainframe system.
             configured to collect appropriate data.
CBP-IT-09-
             Specifically, We noted that one out of the
   45
             six mainframe audit and system utility logs,
                            , did not produce any data
             during the time of testing due to an
             inaccurate filtering configuration.

             We noted the following weaknesses related      We recommend that CBP create detailed                    X          2
             to the ACS Security Audit Logs                 procedures that document the review
             procedures:                                    process for ACS profile change logs that
                                                            includes the documented evidence of
             •   Procedures do not define how often the     review.
                 ACS security profile change audit logs
                 are reviewed.
CBP-IT-09-   •   Procedures do not describe the
   48            documented how evidence of the
                 review process is created by the ACS
                 Information System Security Officer
                 (ISSO)/Independent Reviewer.
             •   Procedures do not define the sampling
                 methodology that is used to select ACS
                 profile change security logs for review.




                                                              42
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                        Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                            New     Repeat    Risk
  NFR #                       Condition                                  +Recommendation
                                                                                                            Issue    Issue   Rating
             We noted that ACE audit logs are not being      We recommend that CBP implement the              X                2
             reviewed on a regular basis. We noted that      procedures that have been established for
             procedures have been established, which         reviewing ACE audit logs on a weekly basis
CBP-IT-09-   requires that audit logs and events be          to be in compliance with DHS guidelines.
   56        reviewed on a weekly basis. However, at
             this time, procedures have not been
             implemented effectively.

             We noted that five out of the 25 sampled        We recommend that CBP conduct a more            X                 2
             audit logs did not contain any audit log        thorough review of audit logs to ensure that
             information, such as login attempts,            logs are capturing all necessary information
             intruder detected, login failed, Access         and that no blank logs exist. Further, CBP
             Control List (ACL) changed, object              should ensure that audit logs are configured
             activity, etc. We did not receive audit log     properly to capture all information and
CBP-IT-09-   information for the following five selected     activity on the system.
   57        dates:
             • February 16, 2009
             • April 1, 2009
             • April 7, 2009
             • April 19, 2009
             • May 4, 2009

             We noted that          passwords were not       As this condition was addressed during the      X                 2
             required to be case sensitive for a period of   course of the audit fieldwork, therefore we
             time during our testing and therefore did       have no further recommendation to CBP.
CBP-IT-09-   not meet CBP and DHS requirements.
   58        Further testing has shown that passwords
             currently are required to be case sensitive
             and that issue has now been resolved.




                                                               43
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security                                       Appendix B
                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                          New     Repeat    Risk
  NFR #                      Condition                                 +Recommendation
                                                                                                          Issue    Issue   Rating
             We noted that formal procedures do not         We recommend that CBP create and                X                2
             exist that describe the mainframe audit        implement formal procedures to document
CBP-IT-09-   process and how to generate the system         the generation of mainframe audit and
   59        utility log reports for the mainframe ISSO’s   system utility logs.
             review.

             We noted that one user was allowed 1,476       We recommend an adjustment to the Access       X                 2
             failed attempts to access a dataset to which   Response control option to result in the
             they were not authorized before their access   immediate suspension of any user who
             was suspended in the              . We         exceeds the specified number of violations,
CBP-IT-09-   determined that the control option in the      which should be set a reasonably low
   60        security software, which results in            number.
             immediate suspension of any user who
             exceeds the specified number of violations,
             was not configured properly.




                                                              44
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security                                        Appendix B
                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                           New     Repeat    Risk
  NFR #                      Condition                                 +Recommendation
                                                                                                           Issue    Issue   Rating
             We noted that there are six individuals       We recommend that CBP devote adequate             X                2
             within OIT that are in critical sensitive     resources to the completion of periodic
             positions and have not had their periodic     reinvestigations and initial investigations
             reinvestigations completed within the five    that are due for all CBP personnel.
             year time frame. Specifically, of these six   Additionally, we recommend that CBP
             individuals, We noted the following:          devote special attention to those individuals
             • Two individuals in critical positions had   in critical sensitive positions requiring
                 their reinvestigations completed a year   initial or periodic reinvestigations.
CBP-IT-09-
                 or longer later than they should have
   61
                 been.
             • Four individuals in critical positions
                 should have had their reinvestigations
                 completed and are several months late.
                 Of these four individuals, one has not
                 had their investigation status updated
                 since August 2002.

             We noted that the requirement to sign a       We recommend that CBP implement a more           X                 2
             rules of behavior is not implemented          consistent method of ensuring that all
             consistently. Out of 40 individuals with      individuals with CBP systems access sign a
             systems access across the country, ten        rules of behavior form. We also
             individuals did not have a signed rules of    recommend that methods be developed to
             behavior form on record. Additionally, 11     ensure that individuals with access to any
CBP-IT-09-
             individuals signed the rules of behavior      and all CBP systems have a rules of
   62
             form months after the CBP Chief               behavior form signed.
             Information Officer (CIO’s) requirement to
             sign the rules of behavior. These
             individuals have had access during fiscal
             year 2009.




                                                             45
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                        Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                            New     Repeat    Risk
  NFR #                       Condition                                 +Recommendation
                                                                                                            Issue    Issue   Rating
             We noted that         is not configured to     We recommend that CBP ensure that the             X                2
             disable accounts after 45 days of inactivity   Change Request to implement this control is
             for the full fiscal year, as required by CBP   completed, appropriately approved and
CBP-IT-09-
             and DHS policy.                                implemented to disable accounts after 45
   63
                                                            days of inactive as required by CBP and
                                                            DHS policy.

             We determined that ISAs for all identified     We recommend that CBP develop a                  X                 2
             participating government agencies have not     consistent and uniform naming scheme for
             been documented as required by CBP and         all current and future ACS connections to
             DHS policies.                                  facilitate the identification of all existing
CBP-IT-09-                                                  ACS connections as well as to facilitate in
   64                                                       the reconciliation of existing ISAs. Finally,
                                                            we recommend that once all ACS mission
                                                            connections have been identified, that the
                                                            appropriate ISAs are produced.

             We inspected access request documentation      We recommend that CBP implement                  X                 2
             for 45 individuals who were granted ACE        procedures to consistently document the
             access during FY 2009. Initial access          access requests and approvals for any and
             requests and approvals for 30 of these         all access creations and changes to ACE
             individuals could not be provided.             users.
CBP-IT-09-
             Although confirmation that access is
   65
             appropriate was provided for these 30
             individuals, access approvals prior to the
             creation of the account were not
             maintained.




                                                              46
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                        Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                            New     Repeat    Risk
  NFR #                       Condition                                  +Recommendation
                                                                                                            Issue    Issue   Rating
             We noted that CBP portal accounts for           We recommend that CBP investigate and            X                2
             separated employees are removed on a bi-        implement a method to disable CBP
             weekly basis and are not removed on the         accounts for separated employees and
             day of the individual’s separation as           contractors upon their separation or before,
CBP-IT-09-   required by CBP and DHS policy.                 as determined appropriate by        security
   66        Additionally, We noted that one contractor      management and Human Resources.
             who had        access had separated from
             CBP but the account was not disabled until
             some time after they had separated.

             We inspected access request documentation       We recommend that CBP implement                 X                 2
             for 45 individuals who had their                procedures to consistently document the
             access profiles modified during FY 2009.        access requests and approvals for any and
             Access change requests and approvals for        all access creations and changes to
             14 of these individuals could not be            user profiles.
CBP-IT-09-
             provided. Although confirmation that the
   67
             access is appropriate was provided for these
             14 individuals, access approvals prior to the
             modification of the account were not
             maintained.

             During our technical testing, patch and         During our technical testing, patch and         X                 2
             configuration management exceptions were        configuration management exceptions were
CBP-IT-09-   identified on the                               identified on the
   68                           . These conditions can                          . The recommendations
             be found in the table within the actual NFR.    to address these conditions can be found in
                                                             the table within the actual NFR.




                                                               47
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                         Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                             New     Repeat    Risk
  NFR #                       Condition                                  +Recommendation
                                                                                                             Issue    Issue   Rating
             We inspected profile change reviews             We recommend that the review of these             X                2
             performed by CBP management for                 access change logs is implemented on a
             changes to SAP access profiles and noted        periodic basis by an independent reviewer
             that the profile review was ineffective.        and that CBP modify their procedures to
             Specifically, We noted that only access         ensure that all types of access changes
             deletes were tested in the review. These        (adds, deletes and modifications) are
             deletes remove an individual’s access and       reviewed to ensure that appropriate requests
CBP-IT-09-   do not increase an individual’s access.         and approvals were documented.
   69        Additions of new users and modification to
             user ID’s (change/addition of profiles) were
             not part of the selected access changes that
             were reviewed. The review only consisted
             of deleted accounts and did not review any
             new accounts that had been added during
             the review period.

             We noted that a memo was issued by the          We recommend that procedures be                  X                 2
             Component Chief Information Security            formalized around the process for granting
             Officer (CISO) to limit                         temporary and emergency access to
             temporary/emergency access to          to no    developers to ensure that access to these
             more than four times per month. We noted        sensitive roles is restricted appropriately.
             that the policy was adjusted to restrict        Specifically, we recommend that CBP
CBP-IT-09-
             access to 25 times per user, per role, over a   ensure controls are in place to confirm a
   70
             six month period. Taking into account this      user is authorized to be granted the role and
             new control, We noted that during FY            that the individual had not been granted that
             2009, there was one individual who was          role more than authorized by the
             granted access to a temporary/emergency         Component CISO over a certain period of
             role 43 times over a six month period.          time.




                                                               48
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                        Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                            New     Repeat    Risk
  NFR #                       Condition                                  +Recommendation
                                                                                                            Issue    Issue   Rating
             We noted that out of a selected 25 instances    We recommend that CBP continue to                X                2
             in which emergency access was granted to        implement processes to appropriately
                  users, four individuals did not have       restrict and authorize access to temporary
             Chief Information Security Officer (CISO)       and emergency roles within         .
             approval for their emergency access.
CBP-IT-09-   Additionally, we noted that there was one
   71        instance in which the emergency access was
             granted in error without authorization and
             three instances where the improper form
             was used to request emergency/temporary
             access.

             We noted that        is not currently           We recommend that the         Security          X                 2
             configured to restrict access to least          Team continue to work with the Office of
             privilege for performing job functionality as   Finance to identify incompatible roles and
CBP-IT-09-   required by CBP policy.                         that procedures are developed as part of the
   72                                                        access control process to ensure that these
                                                             role combinations are not granted to
                                                             users.




                                                               49
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                         Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                             New     Repeat    Risk
  NFR #                       Condition                                 +Recommendation
                                                                                                             Issue    Issue   Rating
             We inspected access documentation for          We recommend that CBP develop and                  X                2
             three National SCOs created in FY 2009         implement procedures to restrict access to
             and 37 Field SCOs created in FY 2009 and       the Field and National SCO roles and
             noted the following exceptions:                require documented authorization requests
                                                            and approval for each person requiring
             •   Two of the three National SCOs were        access to the      administrative
                 not authorized and their roles were        capabilities.
                 added by mistake.
             •   One National SCO was approved
CBP-IT-09-       through a manual recertification and
   73            initial authorization request and/or
                 approval could not be provided.
             •   36 of the 37 Field SCO’s initial
                 authorization and approval could not
                 provided. Instead, a recertification was
                 provided, though the recertification did
                 not note who performed the
                 recertification and what authorization
                 they had to perform the recertification.

             Multiple incidents of unprotected CBP          We recommend that CBP review their                X                 2
             information systems and data were found as     information system security awareness
             a result of physical security walkthroughs.    programs to ensure that individuals are
             Additionally, passwords were obtained          adequately instructed and reminded of their
             from two CBP employees through social          roles in the protection of both electronic and
CBP-IT-09-   engineering techniques.                        physical CBP data and hardware.
   74                                                       Additionally, CBP employees and
                                                            contractors should be made especially
                                                            aware of the need to protect personally
                                                            identifiable information as well as
                                                            information marked “For Official Use
                                                            Only.”

                                                              50
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                      Department of Homeland Security                      Appendix B
                   Information Technology Management Letter
                              September 30, 2009




          Department of Homeland Security 

FY2009 Information Technology - Notice of Findings and 

             Recommendations – Detail 


          Federal Emergency Management Agency 





                                     51 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                    Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                            Department of Homeland Security




                                                                                    
 

                                             FY2009 Information Technology
                                 Notification of Findings and Recommendations – Detail




                                                                                                 

                                         Federal Emergency Management Agency




                                                                                          

                                                                                                            New     Repeat        Risk
NFR #                       Condition                                      Recommendation
                                                                                                            Issue    Issue       Rating
FEMA-    Password, patch management, and configuration       Implement the specific corrective actions                 X           3
IT-09-   management weaknesses were identified during        listed in the NFR for each technical control
  02     vulnerability assessment technical testing.         weakness identified.
         Note: Due to the nature of this finding, see the
         tables in associated NFR for the specific details
         of the conditions.




                                                               52
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                      Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                              New     Repeat        Risk
NFR #                       Condition                                      Recommendation
                                                                                                              Issue    Issue       Rating
FEMA-    The process outlined for the Core Integrated        •    Revise applicable FEMA policies and                    X           3
IT-09-   Financial Management Information System                  procedures to require that any accounts
  03     (FMIS) recertification that initiated on January         which are not positively verified during
         12, 2009, required that a new FEMA Form 20-24            the periodic review of IFMIS accounts for
         be approved and submitted to the Financial               recertification are revoked until a new
         Systems Section (FSS) for all current IFMIS              approved FEMA Form 20-24 is received
         users, and also required revocation of any               by FSS personnel.
         accounts that could not be validated. However,
         we noted that the requirement to revoke access is   •    Dedicate resources to ensure that
         not documented in the Office of the Chief                consistent application of FEMA
         Financial Officer (OCFO) Procedures for                  policies/procedures and DHS policy is
         Granting Access to IFMIS or FEMA Instruction             performed by revoking access for all
         2200.7, IFMIS User Access Policy and                     IFMIS application accounts not validated
         Procedures.                                              through submission of a new FEMA Form
                                                                  20-24 as part of the periodic account
         We reviewed access authorization documentation           review.
         for a selection of 40 active Core IFMIS user
         accounts, noted that two accounts did not have a
         FEMA Form 20-24 completed after January 12,
         2009, and concluded that the accounts were not
         appropriately recertified and validated as
         belonging to current users. Additionally, access
         for the two accounts was not revoked, per the
         process described in the memorandum.




                                                                 53
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security
                                                                                                                        Appendix B
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                        Condition                                       Recommendation
                                                                                                                Issue    Issue       Rating
FEMA-    During the FY 2009 follow-up testwork, we              Develop and implement policies and                         X           2
IT-09-   noted that FEMA has obtained and distributed a         procedures documenting the process of
  06     reference guide that documents the purpose of          adding, deleting, and modifying Core IFMIS
         Core IFMIS system security functions and their         system security functions to ensure that the
         associated permissions and configuration options.      proper controls are in place for modifying
         However, the guide does not include policies and       user account privileges. Additionally, these
         procedures addressing process requirements for         policies and procedures should include
         adding, deleting, and modifying Core IFMIS             requirements over the monitoring of the usage
         system security functions. We also determined          of function modification privileges,
         that no additional policies and procedures have        configuration changes implemented for Core
         been developed by FEMA or the IT developer of          IFMIS system security functions, and
         IFMIS that establish a process for implementing        requirements over updating system
         change controls for the maintenance of system          documentation for changes in the system
         security functions and their associated privileges.    security functions.
         FEMA management represented to us that access
         to the security menu is limited, individuals with
         access to the menu do not use their privileges to
         delete, create, or modify functions, and changes
         are made to Core IFMIS system security
         functions through the standard change control
         process. However, we noted there are no
         controls in place to restrict and/or monitor the use
         of these privileges to ensure that system security
         functions are not modified, created, or deleted.
         Based on our testwork, we concluded that a
         formalized process for modifying specific Core
         IFMIS system security functions to ensure that
         appropriate privileges are created, documented,
         approved, and monitored does not exist.




                                                                  54
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                      Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                              New     Repeat        Risk
NFR #                       Condition                                       Recommendation
                                                                                                              Issue    Issue       Rating
FEMA-    The standard operating procedure (SOP) for          •    Dedicate resources to complete the on-                 X           3
IT-09-   recertification of NEMIS positions has not been          going review of NEMIS user access for
  12     finalized and implemented to require a semi-             FY 2009 and perform subsequent reviews,
         annual review of all user roles within the NEMIS         as required by DHS policy.
         Access Control System (NACS), including
         privileges related to access to specific NEMIS      •    Finalize and fully implement formal
         applications and modules.                                procedures for conducting the NEMIS
                                                                  recertification process and retaining
         Furthermore, we determined that FEMA                     auditable records, in accordance with
         Enterprise Operations staff completed                    DHS policy.
         development of the technical infrastructure
         within NACS to support the recertification effort
         at the end of FY 2008. However, we determined
         that the FY 2008 recertification of
         NEMIS/NACS roles was not completed and
         FEMA initiated but did not complete the FY
         2009 recertification that was scheduled for
         completion by April 30, 2009.
FEMA-    During FY 2009, we performed test work over         •    Evaluate and, if appropriate, revise                  X            3
IT-09-   security controls in place for Core IFMIS,               existing procedures over removal of
  13     NEMIS, and the FEMA iPass/virtual private                separated user access to IT systems to
         network (VPN) remote access system, including            identify weaknesses that contribute to
         follow-up testing on the prior year finding.             untimely removal of separated individuals
                                                                  from the information systems.
         Through comparison of active Core IFMIS,
         NEMIS, and iPass/VPN remote access accounts         •    Ensure that procedures and processes are
         against a list of FEMA employees that had                implemented consistently to remove
         separated from employment since October 1,               system and application accounts for all
         2008 and determined that 1 Core IFMIS account,           separated users immediately upon
         62 NEMIS accounts, and 28 iPass/VPN accounts             notification of separation, in accordance
         remained active and unlocked after the account           with FEMA, DHS, and NIST guidance.
         holder’s separation from FEMA. Additionally,


                                                                 55
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                      Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                              New     Repeat        Risk
NFR #                       Condition                                       Recommendation
                                                                                                              Issue    Issue       Rating
         of the 28 active iPass/VPN accounts, we
         determined that 11 also had at least one active
         NACS role, indicating active remote access
         privileges to both the FEMA network and
         NEMIS.

FEMA-    During the FY 2009 follow-up testwork, we           Implement compensating controls to address                 X            2
IT-09-   noted that FEMA has a SOP that outlines the         the risk associated with the segregation of
  17     controls intended to address the risk associated    duties weakness related to developers making
         with the Core IFMIS developers having the           changes to the production environment.
         ability to migrate changes to the Core IFMIS        Specifically, FEMA should develop and
         production environment. The SOP, in particular,     implement policies and procedures for
         requires the locking and unlocking of the ifmiscm   conducting periodic reviews to verify that
         account during the implementation of software       only authorized changes are made to the Core
         changes into production by system                   IFMIS production directories and
         administrators. However, we determined that no      subdirectories by developers using the
         formal procedures or processes are documented       ifmiscm account. Additionally, the policies
         for performing reviews to verify that only          and procedures should include requirements
         authorized changes to the ifmiscm directory and     for retention of auditable evidence of the
         sub-directories are implemented into production     reviews that are performed.
         by the developers. Additionally, we determined
         that although informal reviews of the directories
         were performed during the fiscal year, they were
         not routinely completed, and documented
         evidence of the reviews performed was not
         retained.

FEMA-    FEMA Enterprise Operations personnel informed       •    Revise the SOP, Monitoring Sensitive                  X            3
IT-09-   us that the SOP, Monitoring Sensitive Access to          Access to NEMIS, to ensure that it states
  19     NEMIS, was developed to outline the process for          that the scope of the procedures includes
         monitoring sensitive access to the NEMIS                 all servers defined in up-to-date system
         operating system. Based upon our review of the           documentation as supporting NEMIS

                                                                 56
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                          Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                  New     Repeat        Risk
NFR #                       Condition                                         Recommendation
                                                                                                                  Issue    Issue       Rating
        SOP, we noted that a list of NEMIS servers that             system software within system boundaries
        are considered to be within the scope of the SOP            for the financial applications and modules.
        are listed, but that specific hosts and server
                                                               •    Acquire and deploy appropriate tools on
        designations are not clearly defined. In
                                                                    system software and operating systems
        particular, approximately 30 separate IT
                                                                    supporting the NEMIS financial
        components are described and certain servers
                                                                    applications to generate audit trails and
        supporting web-facing applications for
                                                                    records in accordance with FEMA and
        registration, applicant inquiry, and assistance
                                                                    DHS policy.
        processing are listed. However, based on
        additional testwork and corroborative inquiry of       •    Implement the SOP, Monitoring Sensitive
        NEMIS personnel, we determined that at least                Access to NEMIS, by reviewing and
        170 operating system servers for NEMIS are not              retaining audit trails and records in
        comprehensively included in the scope of the                accordance with FEMA and DHS policy.
        SOP.
        Additionally, FEMA informed us that outlined
        procedures for conducting the required reviews
        of audit trails every three days and retaining
        evidence for at least a year have not been
        implemented and the NEMIS operating system
        activity is not currently being logged or
        monitored. Additionally, we noted that no
        application or tool is currently in place to support
        the audit logging function on the NEMIS Linux
        server.
        Consequently, we concluded that FEMA has
        partially addressed the prior year
        recommendation by including review and
        retention requirements in the SOP for monitoring
        NEMIS activity. However, the SOP has not been
        implemented on the operating system software
        supporting NEMIS and does not include all


                                                                   57
                   Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                            Department of Homeland Security
                                                                                                                     Appendix B
                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                             New     Repeat        Risk
NFR #                       Condition                                     Recommendation
                                                                                                             Issue    Issue       Rating
         NEMIS operating system servers within its
         scope.


FEMA-    During our FY2009 follow-up testwork, we noted •        Continue and complete efforts required to             X            3
IT-09-   that FEMA was unable to take corrective action          establish and implement an alternate
  22     to establish and implement an alternate                 processing site for NEMIS according to
         processing site for the NEMIS application.              DHS 4300A.
         Additionally, a current waiver over the lack of an
         alternate processing site did not exist.           •    Until an alternate processing site is
                                                                 established, develop and submit a waiver
         FEMA security personnel described                       for approval in accordance with DHS
         compensating controls surrounding the                   policy regarding waivers, and ensure that
         contingency planning process. Specifically,             compensating controls over the alternate
         FEMA management informed us that in FY 2009             processing site are effective and
         the NEMIS Contingency Plan was partially tested         documentation of their effectiveness is
         through an annual table-top exercise to restore         maintained as auditable records.
         five of the NEMIS servers from backup tapes at
         the Mt. Weather Emergency Operations Center
         (MWEOC). Furthermore, FEMA management
         informed us that compensating controls were also
         provided through performance of full backups of
         critical NEMIS data on a regular basis and the
         transfer of these tapes to an offsite backup
         storage facility. However, during further
         testwork and analysis, we determined that there
         were weaknesses in the compensating controls
         described by FEMA management. In particular,
         we noted that while the contingency plan was
         tested, a full restore of all the of the NEMIS
         servers was not performed. Additionally, backup
         tapes for NEMIS are not fully tested on a
         periodic basis. (Please refer to NFRs FEMA-IT-


                                                                58
                   Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                         Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                 New     Repeat        Risk
NFR #                        Condition                                       Recommendation
                                                                                                                 Issue    Issue       Rating
         09-24 and FEMA-IT-09-25 for further
         information.)


FEMA-    In FY 2009, we conducted follow up procedures         Periodically test NEMIS backup tapes at a                   X            2
IT-09-   to determine if FEMA had implemented                  frequency that is in compliance with FEMA
  24     corrective action for the prior year finding and      and DHS policy.
         determined that NEMIS backup tapes were not
         regularly tested during FY 2009.

FEMA-    During our FY 2009 audit, we conducted follow         •    Update the NEMIS Contingency Plan so                   X            2
IT-09-   up procedures and determined that full-scale               that it meets the requirements of DHS
  25     testing of the NEMIS Contingency Plan, in                  policy for high impact availability
         accordance with DHS requirements for high                  systems. Additionally, ensure that the
         impact availability systems, has not been                  plan comprehensively addresses the
         conducted. FEMA provided us with the testing               numerous sub-systems within NEMIS so
         results of limited table top testing that was              that detailed information exists over the
         performed to test the local restoration for four of        current system architecture, critical
         approximately 170 servers that comprise NEMIS.             processing priorities, detailed SOPs for
         However, the DHS-approved waiver obtained in               systems recovery and other required
         FY 2008 that listed table-top testing as a                 components in accordance with DHS
         compensating control for FEMA’s inability to               guidance.
         fully test NEMIS, was expired.
                                                               •    Conduct documented annual tests of the
         In FY 2009 we also determined that the existing            NEMIS Contingency Plan that address all
         NEMIS Contingency Plan does not adequately                 critical phases of the plan and update the
         and comprehensively include information                    plan with lessons learned, as necessary
         required by DHS policy for systems with high               and in accordance with DHS and NIST
         impact availability. For example, we noted the             requirements.
         following weaknesses:
         •   Detailed information over NEMIS system            •    If the NEMIS contingency plan cannot be
             architecture such, as the database and server          tested in accordance with DHS guidance


                                                                   59
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                 Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                         New     Repeat        Risk
NFR #                       Condition                                     Recommendation
                                                                                                         Issue    Issue       Rating
             names and information over the various             for high impact availability systems,
             modules of NEMIS, was not appropriately            FEMA should develop, implement, and
             documented to reflect the current operating        document effective compensating and
             environment.                                       mitigating controls.
         • The contingency plan did not include detailed
             procedures necessary to fully restore the
             NEMIS application in the event of an
             emergency.
         • System/Application Recovery Priority
             Classification have not been defined.
         • Service Level Agreements and Memorandum
             of Understandings (MOU) were not included
             in the plan.
         • The Business Impact Analysis included in the
             contingency plan was completed in 2004 and
             not adequately documented.
FEMA-    In FY 2009, we performed follow-up testwork         We recommend that FEMA, in accordance                 X            3
IT-09-   over NEMIS non-emergency system changes that        with DHS and FEMA policy, ensure that
  28     occurred under the process established during the   when implementing the new NEMIS non-
         time frame of October 1, 2008 to February 28,       emergency change control process that all
         2009 prior to the change in the NEMIS               required approvals are obtained prior to
         development contractors. Specifically, of the 25    development and implementation of
         NEMIS non-emergency application level System        changes into production. Additionally,
         Change Requests (SCR) tested, we noted the          FEMA should ensure that the appropriate
         following exceptions:                               testing is conducted and that the testing
                                                             documentation is appropriately retained
         •   Seven of 25 SCRs did not obtain documented
                                                             according to FEMA and DHS policy.
             SCR approval prior to development;
         •   21 of 25 SCRs did not obtain documented
             Technical Development Laboratory (TDL)
             approval prior to implementation in the test
             environment;


                                                               60
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                     Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                             New     Repeat        Risk
NFR #                       Condition                                      Recommendation
                                                                                                             Issue    Issue       Rating
         •   Two of 25 SCRs did not obtain documented
             Technical Review Committee (TRC)
             approval prior to implementation into
             production; and
         •   Eight of 25 SCRs did not have testing
             documentation to demonstrate that testing
             occurred.

FEMA-    We tested a selection of three NEMIS emergency       We recommend that FEMA, in accordance                    X            3
IT-09-   application level SCRs that occurred in the time     with DHS and FEMA policy, ensure that
  29     frame of October 1, 2008 to February 28, 2009        when implementing the new NEMIS
         before NEMIS configuration management                emergency change management process that
         responsibility was transitioned to the new           all required approvals are obtained prior to
         contractor. Of the three SCRs tested, we noted       development and implementation of
         that one was missing the required initial approval   changes into production. Additionally,
         prior to moving the change into the TDL              FEMA should ensure that the appropriate
         environment for testing.                             testing is conducted and that the testing
                                                              documentation is appropriately retained
                                                              according to FEMA and DHS policy.

FEMA-     In FY 2009, we performed follow-up test work         Continuing with our prior year                          X            1
IT-09-   and determined that the NFIP contractor had          recommendation, NFIP should document
  38     documented system roles and had implemented          Traverse duties that are incompatible and
         capabilities for enforcing segregation of duties     develop and implement policies and
         for users within the Traverse application            procedures for properly segregating
         currently. Also, as a mitigating control, the NFIP   incompatible duties within the system when
         contractor reviews a User Log report generated       granting and maintaining access.
         by Traverse for each financial user’s system
         access, which is reviewed and signed off on
         every month to ensure that the appropriate
         privileges are assigned. However, incompatible
         duties that must remain segregated when granting

                                                                61
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security
                                                                                                                           Appendix B
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                   New     Repeat        Risk
NFR #                        Condition                                        Recommendation
                                                                                                                   Issue    Issue       Rating
         and maintaining user access to the Traverse
         application have not been documented.
         We were also reviewed the Traverse Standard
         Operating Procedure (SOP) for Financial
         Processes and noted that it states that a Traverse
         user log is produced to show appropriate user
         access to perform accounting duties and usage of
         the Traverse accounting system. However, the
         SOP does not include policies and procedures
         regarding segregating incompatible duties within
         Traverse.
FEMA-    The Traverse and TRRP Contingency Plan has            •    Complete the documentation and testing                   X            2
IT-09-   not been tested, and a test of the system fail-over        of the TRRP and Traverse Contingency
  39     capability at the alternate processing site has not        Plan, to include all critical phases of the
         been conducted. Also, we did not receive the               plan in accordance with DHS policy
         requested NFIP Certification & Accreditation               requirements for high impact systems. In
         (C&A) package that includes the Traverse and               addition, NFIP should conduct a test of
         TRRP Contingency Plan and the test results. As             the system fail-over capability at the
         a result, we determined that a current                     alternate processing site and ensure that
         contingency plan for the TRRP and Traverse                 TRRP and Traverse processing is tested in
         applications does not exist.                               accordance with DHS guidance.
         At the time of our audit testwork, we were            •    Revise the NFIP Bureau and Statistical
         informed that due to delays in implementation of           Agent Disaster Recovery and Continuity
         the new system of record, NFIP and the NFIP IT             of Operations Plan to incorporate the
         contractor had initiated efforts FEMA’s Chief              Traverse and TRRP alternate processing
         Information Security Officer (CISO) to recertify           facility and the TRRP critical data files in
         and accredit the NFIP legacy system and update             accordance with DHS guidance for high
         and test the Traverse and TRRP Contingency                 impact systems. Additionally, the revised
         Plan and NFIP Bureau and Statistical Agent                 plan should be tested and updated with
         Disaster Recovery and Continuity of Operations             lessons learned from the testing.
         Plan.


                                                                   62
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                          Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                  New     Repeat        Risk
NFR #                        Condition                                        Recommendation
                                                                                                                  Issue    Issue       Rating
         Furthermore, the NFIP Bureau and Statistical
         Agent Disaster Recovery and Continuity of
         Operations Plan provided for auditor review does
         not incorporate the Traverse and TRRP alternate
         processing facility or TRRP critical data files.

FEMA-    We determined that access for Core IFMIS              Review and revise the Office of the Chief                    X            3
IT-09-   Oracle database users was appropriately               Financial Officer’s existing Procedures for
  45     documented and authorized. Thus, this portion of      Granting Access to IFMIS to require
         the prior year recommendation, as it relates to the   authorization of new and modified Core
         Core IFMIS database, is closed.                       IFMIS user accounts by supervisors, program
                                                               managers, and contracting officers’ technical
         Additionally, we reviewed a selection of 40 Core
                                                               representatives (COTRs) in accordance with
         IFMIS Forms 20-24 (access request forms) for
                                                               DHS guidance. The requirements should also
         users who were either new IFMIS users during
                                                               include the retention of Core IFMIS access
         the fiscal year or whose access profile changed
                                                               authorization documentation.
         during the fiscal year outside of the
         recertification process. We determined that of        •    Develop and implement of policies and
         the 40 active application users tested:                    procedures over periodic recertification of
                                                                    all user access to the Core IFMIS Oracle
         •   Two users did not have a completed Form
                                                                    database, and retain auditable records in
             20-24 on file;
                                                                    accordance with DHS policies and
         •   FEMA was unable to provide evidence that
                                                                    procedures as evidence that
             the initial account creation of ten accounts
                                                                    recertifications are conducted and
             during FY 2009 were authorized; and
                                                                    completed periodically. Additionally, if
         •   FEMA was unable to provide evidence that               the Core IFMIS/G&T IFMIS merger is
             modifications to account privileges for ten            performed in FY 2010, ensure that a
             accounts were authorized.                              recertification of IFMIS Oracle accounts
         FEMA management additionally informed us that              is performed prior to the merger.
         recertification of IFMIS Oracle database accounts
         had not been performed during FY 2009.
         Consequently, we concluded that while certain


                                                                   63
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                         Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                 New     Repeat        Risk
NFR #                       Condition                                        Recommendation
                                                                                                                 Issue    Issue       Rating
         corrective actions to address weaknesses over
         Core IFMIS account management have been
         implemented, FEMA has not consistently
         maintained documentation for initial account
         creation or subsequent account modification for
         the application, and FEMA has not developed or
         implemented a process to recertify accounts on
         the IFMIS Oracle database.
FEMA-    We determined that a MOU and Interconnection          No recommendation is required for this                      X            1
IT-09-   Sharing Agreement (ISA) was documented,              weakness that existed for the majority of FY
  46     accepted, and signed by FEMA and the                 2009 because it was remedied on April 22,
         Department of Treasury on April 22, 2009.            2009 when the MOU and ISA were signed by
         Consequently, while the prior-year                   FEMA and Treasury management.
         recommendation was addressed, the
         interconnection was operating without authority
         for a majority of the fiscal year and the NFR is
         re-issued.
FEMA-    During the FY 2009 audit, we were informed that      Complete planned corrective actions to                       X            3
IT-09-   internal vulnerability scans are conducted every     develop and implement an SOP that outlines
  48     month on the NEMIS systems. However, FEMA            the process for formally reporting and
         personnel informed us that identified                tracking resolution of weaknesses identified
         vulnerabilities and related corrective actions are   during internal NEMIS vulnerability scans in
         reported and tracked via emails and not              accordance with DHS guidance.
         documented in POA&Ms.

FEMA-    During FY 2009 follow-up testwork, we obtained       •    Revise and implement policies and                       X            3
IT-09-   evidence that “superuser” activity reports for            procedures that document requirements
  50     CORE IFMIS were appropriately reviewed by                 for configuring, retaining, and reviewing
         FSS personnel in accordance with FEMA and                 audit trails for the Core IFMIS application
         DHS policy. Consequently, this portion of our             and database, in accordance with DHS
         recommendation for prior year NFR FEMA-IT-                policy. Additionally, ensure that all DHS


                                                                  64
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                            Department of Homeland Security
                                                                                                                        Appendix B
                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                       Condition                                      Recommendation
                                                                                                                Issue    Issue       Rating
         08-50 is closed.                                        requirements are met through this process,
                                                                 including appropriate supervisory review
         However, FSS personnel informed us that failed
                                                                 and retention.
         database login attempts and activity performed
         by application users with the “superuser” role     •    Implement configurations on the Core
         remain the only forms of activity logged and            IFMIS application and database in
         monitored for Core IFMIS. Other activity on the         accordance with DHS policy to ensure
         application and database required to be logged by       that audit logs sufficiently record required
         DHS policy, including successful logins, access         auditable events and activities.
         modifications, and changes to user profile, are
         not enabled within Core IFMIS. Additionally,
         we noted that a procedure does not exist to
         establish the process for reviewing and retaining
         evidence of these logs once the configurations are
         implemented.
         FEMA reported in the FY 2008 audit remediation
         plan that internal instructions describing the
         review process for these two reports were
         documented. We reviewed the SOP, Monitoring
         of IFMIS Database Audit Logs, and determined it
         addresses the process for reviewing the daily
         Oracle failed login report. However, documented
         instructions concerning the review of weekly
         “superuser” reports were not provided to us
         during the audit.
FEMA-    During our FY 2009 integrated test work, IT         Revise and enforce the SOP for Handling of                   X            3
IT-09-   Enterprise Operations personnel informed us that   Oracle Audit Logs to ensure that the
  51     the SOP for Handling of Oracle Audit Logs was      procedures are developed and implemented in
         implemented for the databases specified in the     accordance with DHS guidance, to include:
         SOP and that evidence of audit log reviews are
                                                                 •   All databases within the defined
         retained. However, we noted that weaknesses in
                                                                     system boundaries that support
         NEMIS database audit controls still exist, as

                                                                65
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                            Department of Homeland Security
                                                                                                                      Appendix B
                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                              New     Repeat        Risk
NFR #                      Condition                                       Recommendation
                                                                                                              Issue    Issue       Rating
        follows:                                                     NEMIS financial applications and
        •   During our inspection of the SOP, we noted               modules within the scope of the SOP;
            that it requires the procedures to be               •    Requirements for audit logging and
            performed for two specific NEMIS                         retention of audit trails;
            databases, the National Processing Service          •    Periodic reviews of audit trails for
            Center (NPSC) database and the                           NEMIS databases; and
            Consolidated Master database. However,               •   Appropriate segregation of duties
            through additional testwork, we noted that               principles.
            NEMIS has at least 23 databases.                 Implement configurations on NEMIS
            Consequently, not all of the databases that      databases in accordance with DHS policy
            comprise NEMIS are included within the           over required auditable events and activities.
            scope of the SOP, and we were informed by
            IT Enterprise Operations personnel that no
            additional SOPs exist that address auditing
            logging for the remaining 21 databases.
        •   The SOP has not been updated to require that
            successful logins, access modifications,
            highly privileged user account activity, and
            changes to user profiles are logged and
            reviewed.
        •   On four of the NEMIS databases related to
            financial processing that we selected for
            testing, we determined that configurations are
            not fully enabled so that a review of audit
            trails and activity defined by DHS policy
            requirements can be completed.
        •   Based on our review of audit log
            documentation, we noted that reviews of
            audit logs for NEMIS databases are
            performed by the database administrators
            (DBAs) who have been assigned

                                                               66
                   Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                      Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                              New     Repeat        Risk
NFR #                        Condition                                      Recommendation
                                                                                                              Issue    Issue       Rating
             administrator privileges to administer the
             databases. Thus, we determined that
             database audit log review duties are not
             appropriately segregated from DBA duties.

FEMA-    In FY 2009, we performed follow-up testwork           We recommend that FEMA dedicate the                      X            3
IT-09-   and were informed that FEMA is currently in the       appropriate resources to complete efforts to
  52     process of updating the NEMIS patch                   document, finalize, and implement
         management policy and that the finalized policy       comprehensive patch management policies
         had not been implemented. However, FEMA               and procedures for NEMIS, in accordance
         could not provide us with a copy of the requested     with DHS policy. Additionally, FEMA
         draft policy that was reported as under               should ensure that these procedures include
         development for our review. Based on additional       requirements for responding to DHS Security
         inquiry, we also determined that the timeframe        Operations Center (SOC) and DHS Computer
         for implementing patches on FEMA systems has          Security Incident Response Center (CSIRC)
         not been established, in accordance with DHS          notifications to ensure compliance with the
         guidance.                                             timely implementation of required patches.

FEMA-    During our FY 2009 audit, we reviewed FEMA’s          Ensure that NEMIS SSP is updated in                      X            2
IT-09-   Remediation Plan and we noted that FEMA               accordance with DHS policy so that the
  53     management had reported that corrective action        system’s boundaries, components, and
         to update the NEMIS SSP had been fully                responsibilities surrounding the various
         implemented. We obtained the NEMIS SSP                subsystems and major applications of NEMIS
         dated February 16, 2009 for our review and noted      are accurately and comprehensively
         that the plan had been revised since our prior year   documented in the plan.
         audit. However, upon further inspection, we
         determined that the current plan does not fully
         document the system’s boundaries, define all of
         the NEMIS subsystems and major applications,
         nor establish security responsibilities for the
         various system components.



                                                                 67
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                    Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                            New     Repeat        Risk
NFR #                       Condition                                    Recommendation
                                                                                                            Issue    Issue       Rating




FEMA-    In FY 2009, KPMG performed testwork over           We recommend that NFIP management                         X            2
IT-09-   Traverse configuration management. Upon            ensure the implementation of an updated
  54     inspection of the System Change Control            version of the current Traverse configuration
         Procedures, that address Traverse configuration    management procedures that comprehensively
         management, we noted that the procedures           addresses FEMA and DHS requirements.
         outline steps for controlling changes during the
         change control process for Traverse. However,
         the procedures do not include comprehensive
         configuration management guidance that
         addresses the following elements required by
         FEMA and DHS policy:
         •   configuration identification
         •   configuration control
         •   version control
         •   configuration status accounting
         •   configuration audits
         •   Establishing a Change Control Board (CCB)
             or TRC for evaluating changes prior to
             production.




                                                              68
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                        Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                       Condition                                       Recommendation
                                                                                                                Issue    Issue       Rating
FEMA-    Based on observations conducted with FSS and         •    Revise the formal process for reviewing        X                    3
IT-09-   G&T IFMIS database personnel, we identified               and disabling inactive G&T IFMIS Oracle
  56     the following weaknesses in database security             database user accounts to adhere to DHS
         controls:                                                 policy over disabling inactive accounts on
                                                                   high impact systems.
         •    A manual review of inactive G&T IFMIS
              database accounts is performed on a monthly     •    Configure all G&T IFMIS Oracle
              basis to disable accounts which have not             database user accounts to adhere to DHS
              been used in the past 90 days. However,              policy for passwords and authenticator
              since IFMIS is categorized as a high impact          controls.
              system, reviews are required to identify
              accounts that have been inactive for 45 days.   •    Establish a formal process for granting
                                                                   emergency and temporary IFMIS G&T
         • Emergency and temporary access to the G&T
                                                                   database access that includes segregation
              IFMIS database, including access for
                                                                   of duties considerations and appropriate
              contractor development personnel, is
                                                                   approval from FEMA management in
              approved by the FSS Chief and/or their staff,
                                                                   accordance with DHS policy.
              not by the FEMA CISO/Information System
              Security Manager (ISSM) or a designee, as
              required by DHS policy.
FEMA-    Based on observations conducted with FSS and         •    Configure the G&T IFMIS databases to                                3
IT-09-   G&T IFMIS database personnel, we determined               log events and retain audit records in
  57     that Oracle database audit trails are not                 accordance with DHS policy; and
         configured to capture any activity, including
         failed login attempts or administrator-level         •    Develop and implement policies and
         actions.                                                  procedures surrounding the requirements
                                                                   for G&T IFMIS database audit logging to
                                                                   include the periodic review of database
                                                                   audit logs in accordance with DHS policy.
FEMA-    Based on collaborative inquiry with FSS and          •    Establish a formalized process for the        X                     3
IT-09-   application and database administrators, we               recertification of the G&T IFMIS
  58     concluded that a management review to validate            application and database accounts or
         the appropriateness of G&T application and                include G&T IFMIS in the scope of the


                                                                  69
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                            Department of Homeland Security
                                                                                                                      Appendix B
                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                              New     Repeat        Risk
NFR #                      Condition                                      Recommendation
                                                                                                              Issue    Issue       Rating
         Oracle database user accounts has not been              formalized processes for the
         formally implemented or performed by FSS this           recertification of Core IFMIS application
         fiscal year. Additionally, FSS management               and database accounts. Additionally,
         further informed us that no recertification of          ensure that the established processes are
         accounts was conducted when the application             developed and implemented in accordance
         was acquired and brought online at FEMA in FY           with DHS guidance.
         2007 and has not been conducted since.
                                                            •    Conduct an immediate recertification of
                                                                 user account access on the G&T IFMIS
                                                                 application and Oracle database to
                                                                 validate the continued appropriateness of
                                                                 access as being commensurate with job
                                                                 responsibilities.
FEMA-    In FY 2009, we performed test work over the        •    Limit the contracted developers’ access to    X                     3
IT-09-   G&T “ifmiscm” account, to determine the                 the G&T IFMIS production environment
  59     controls in place for the migration of changes          to “read only” and segregate the
         into production. The “ifmiscm” account is used          responsibility for deploying application
         by the FEMA development contractor to deploy            code changes into production from the
         changes into the UNIX production environment.           contractor to an independent control
         Per our review, we noted that the G&T IFMIS             group.
         application programmers responsible for
         maintaining and developing changes for the G&T     •    If business need requires that the
         IFMIS application are also responsible for              segregation of duties cannot be
         migrating application code changes into the             immediately implemented, FEMA should
         production environment using the “ifmiscm”              document policies and procedures to
         account. Additionally, when we inspected the            mitigate the risk associated with the
         account, the G&T “ifmiscm” account was not              segregation of duties weakness noted in
         locked on May 15, 2009, which allowed the               accordance with DHS guidance.
         contractor unrestricted access to the production
         environment. We were further informed by
         FEMA personnel that access to that account is
         not limited or monitored on a periodic basis.


                                                                70
                   Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                           Department of Homeland Security
                                                                                                                    Appendix B
                                        Information Technology Management Letter
                                                   September 30, 2009

                                                                                                            New     Repeat        Risk
NFR #                      Condition                                     Recommendation
                                                                                                            Issue    Issue       Rating
FEMA-    During our testwork, we concluded that the       We recommend that NFIP immediately work             X                    2
IT-09-   “Legacy NFIP IT System” C&A pertaining to the    with FEMA’s CISO to complete the
  60     Traverse application, TRRP application, and      recertification and accreditation of the NFIP
         NFIP LAN expired on October 4, 2008.             legacy system in accordance with applicable
         Consequently, the legacy system has since been   DHS policies and Federal guidance.
         operating without a current Authorization to
         Operate (ATO). Furthermore, we were not
         provided the requested NFIP C&A package
         consisting of the following artifacts:
         •   FIPS 199 Categorization
         •   Privacy Impact Assessment
         •   E-Authentication
         •   Risk Assessment
         •   SSP
         •   Contingency Plan
         •   Security Test and Evaluation
         •   Contingency Plan Testing
         •   Security Assessment Report
         •   ATO
         •   Annual NIST SP 800-53-based Self-
             Assessments

FEMA-    The G&T instance of IFMIS was brought online     •    Formally designate an ISSO and DAA for        X                     3
IT-09-   at FEMA in FY 2007 after acquisition from the         G&T IFMIS.
  61     Department of Justice. However, we determined
         that a C&A of the system had not been            •    Immediately work with FEMA’s
         performed, and the system has not received an         Information Security Office to certify and
         ATO. Specifically, the following C&A elements         accredit the G&T IFMIS instance in
         have not been completed, documented, or               accordance with applicable DHS policies
         approved for G&T IFMIS and will not be for the        and Federal guidance. If FEMA


                                                              71
                   Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                         Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                                 New     Repeat        Risk
NFR #                        Condition                                       Recommendation
                                                                                                                 Issue    Issue       Rating
         remainder of the fiscal year:                             management makes a business decision to
                                                                   conduct a C&A of IFMIS after the merger
         •   FIPS 199 categorization
                                                                   and not over the existing G&T IFMIS
         •   Privacy Impact Assessment                             instance, as a mitigating control, FEMA
         •   E-Authentication                                      should immediately conduct an
         •   Risk Assessment                                       assessment of key controls to identify
         •   SSP                                                   security weaknesses and determine the
         •   Contingency Plan                                      operational risks related to IFMIS G&T.
         •   Security Test and Evaluation                          The weaknesses identified should be
         •   Contingency Plan Testing                              documented with plans for accelerated
         •   Security Assessment Report                            remediation efforts or related risks should
         •   ATO                                                   be formally accepted by FEMA in
         •   Annual NIST SP 800-53-based Self-                     accordance with DHS guidance.
             Assessments
         In addition, we determined that at the time of our
         test procedures, neither an ISSO nor a DAA had
         been formally designated for the G&T instance of
         IFMIS by FEMA management.

FEMA-    We reviewed the VPN Rules of Behavior for            •    Revise and implement policies and              X                     3
IT-09-   Users Behind Corporate Firewalls, dated                   procedures for documenting, reviewing,
  62     December 5, 2002, and noted that individual               and approving individual VPN user
         VPN access request forms are required to be               accounts for employees of external
         completed, approved by managers, and submitted            entities requiring access to the FEMA
         to the National Help Desk, Enterprise Service             network via VPN access and ensure that
         Desk (ESD). However, we noted that the                    sufficient resources are dedicated to
         requirements do not include approval by the               appropriately authorizing accounts on
         system owner or a designated representative, as           behalf of the system owner or a designee,
         required by DHS policy.                                   according to FEMA and DHS policy.
         We reviewed a blank VPN Access Request Form          •    Develop and implement policies and
         and noted that an approval block titled “For              procedures in accordance with DHS

                                                                  72
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                    Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                            New     Repeat        Risk
NFR #                       Condition                                    Recommendation
                                                                                                            Issue    Issue       Rating
        FEMA Office of Cyber Security (OCS) Use                policy to perform a periodic
        Only” is included and that the form states that all    recertification of all VPN user access and
        VPN requests must be approved by the FEMA              retain auditable records as evidence that
        OCS. We reviewed a selection of 25 completed           recertifications are conducted and
        forms for active VPN user accounts and                 completed periodically.
        determined that, while the forms were approved
        by the requestor’s manager or supervisor, none of
        the forms had an approval noted by OCS or an
        appropriate designated representative of the
        system owner. Additionally, we were informed
        by FEMA IT security personnel that OCS, as
        referred to in the Rules of Behavior and the
        request form, does not currently exist as a FEMA
        Division due to FEMA’s reorganization.
        Consequently, existing policies and procedures
        do not reflect the current security management
        structure at FEMA nor do they assign
        responsibility to a current entity within the
        agency.
        Additionally, we were informed that a periodic
        recertification of FEMA VPN access accounts is
        not currently performed to ensure that remote
        access is still necessary and appropriate for each
        individual. VPN accounts are managed within
        the FEMA LAN, specifically the Active
        Directory environment, and subsequently added
        to the Cisco Access Control Server (ACS) that
        permits VPN access. However, through test
        work conducted over the FEMA LAN, we
        determined that a recertification of network user
        accounts is not performed.


                                                              73
                   Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                         Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                 New     Repeat        Risk
NFR #                       Condition                                        Recommendation
                                                                                                                 Issue    Issue       Rating
FEMA-    We noted the following weaknesses in the             •    Revise and implement policies and               X                    3
IT-09-   process for authorizing remote VPN access to              procedures for documenting, reviewing,
  63     external organizations, including state emergency         and approving the security controls in
         management agencies and FEMA contractors:                 place over non-DHS equipment
                                                                   connecting to the FEMA network via
         •   The existing documentation that defines the           VPN access. Specifically, FEMA should
             process for granting and maintaining VPN              clearly define and document a formalized
             access to the FEMA network does not include           process for the authorization, review, and
             requirements for administering the site survey        maintenance of VPN access agreements
             process, including requirements for the               between FEMA and external entities.
             authorization of the sites surveys,                   Additionally, ensure that within the
             recertification of site surveys, and the              policies and procedures, appropriate roles
             security requirements associated with the             and responsibilities over the process are
             various aspects of the process.                       defined to include authorizations by the
         •   FEMA has not formally identified and                  Component CISO/ISSM to connect to
             documented the roles and responsibilities             non-DHS equipment.
             necessary within FEMA to properly authorize
             and administer VPN access to individuals         •    Draft and formalize ISAs, MOUs, and
             using non-DHS equipment to access the                 MOAs delineating security
             FEMA network.                                         responsibilities by FEMA and external
                                                                   organizations when connecting through
         Additionally, we noted that the current process in        non-DHS equipment to the FEMA
         place for granting remote access to the FEMA              network via VPN access. Such
         network through VPN is not in compliance with             agreements should include evidence of
         FEMA, DHS, and NIST guidance. Specifically,               validation by FEMA management that
         we noted the following weaknesses:                        security controls in place on external
         •   Access for state emergency management                 entity networks are appropriate and satisfy
             agencies and FEMA contractors to load the             requirements for minimum security
             VPN client onto state or contractor owned             controls on DHS and FEMA systems
             equipment to connect to the FEMA LAN is               prior to connection.
             approved by the SOC. However, DHS policy         •    Ensure that agreements related to VPN
             requires that any non-DHS equipment                   access are reviewed and recertified on a


                                                                  74
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                         Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                                 New     Repeat        Risk
NFR #                       Condition                                        Recommendation
                                                                                                                 Issue    Issue       Rating
            connecting to a DHS network must be                    periodic basis, specifically, when a major
            authorized by the Component CISO/ISSM.                 system change occurs or every three
        •   Two-factor authentication is not used for              years, in accordance with DHS policy.
            VPN access, as required by DHS policy.
                                                              •    Implement and require two-factor
        •   FEMA’s VPN Rules of Behavior for Users                 authentication for all remote access to the
            Behind Corporate Firewalls, dated December             FEMA network, including VPN and all
            5, 2002, requires an Inter-Agency VPN                  other tools used for remote access, in
            Agreement between FEMA and external                    accordance with DHS policy and FIPS
            organizations before permitting VPN access             140-2.
            to the FEMA network through non-
            Government issued equipment such as
            contractor or state agency workstations.
            However, we determined that the Inter-
            Agency VPN Agreements have not been
            documented and that this requirement is
            inconsistent with DHS policy, which requires
            ISAs or Memoranda of
            Understanding/Memoranda of Agreement
            (MOUs/MOAs) prior to establishing a VPN
            connection from equipment operating on an
            external network.
        •   FEMA’s approval of requests for network
            connections to external organizations through
            VPN access for remote users is based on
            security control information submitted by the
            external entities via site surveys. Based upon
            our review of existing site surveys and the
            site survey process, we noted that site surveys
            were outdated, did not contain the level of
            technical granularity describing the external
            network security controls required to
            appropriately approve a connection to the

                                                                  75
                   Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                        Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                       Condition                                       Recommendation
                                                                                                                Issue    Issue       Rating
            FEMA LAN, and were not independently
            verified for accuracy by FEMA.
            Additionally, we determined that DHS
            guidance indicates that a single ISA may be
            used for multiple connections provided that
            the security accreditation is the same for all
            connections covered by that ISA. However,
            we determined that the security accreditation
            of multiple connecting networks listed in
            single ISAs with external entities is not being
            evaluated by the FEMA SOC to ensure the
            security requirements are appropriately
            implemented.

FEMA-    The Core IFMIS database is not configured to         •    Configure the Core IFMIS Oracle               X                     2
IT-09-   retain a history of account passwords in order to         database to enforce DHS policy
  64     prevent reuse. However, DHS guidance requires             requirements regarding the reuse of user
         passwords to be configured so that users cannot           passwords.
         reuse the last eight passwords.
                                                              •    Develop and implement procedures to
                                                                   ensure that those with systems
                                                                   administration and security
                                                                   responsibilities over the Core IFMIS
                                                                   database environment are made aware of
                                                                   DHS, FEMA and Federal system security
                                                                   requirements and guidance and are
                                                                   properly trained in those requirements and
                                                                   guidance.
FEMA-    We determined that of 40 access request forms        We recommend that FEMA review and revise           X                     3
IT-09-   (Form 20-24) for active G&T IFMIS application        the Office of the Chief Financial Officer’s
  65     users selected:                                      existing Procedures for Granting Access to
                                                              IFMIS to specifically require the authorization

                                                                  76
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                       Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                               New     Repeat        Risk
NFR #                       Condition                                      Recommendation
                                                                                                               Issue    Issue       Rating
         •   FEMA was unable to provide documented           of new and modified G&T IFMIS user
             evidence that the initial account creation of   accounts by supervisors, program managers,
             11 accounts in FY2009 were authorized; and      and/or contracting officers’ technical
         •   FEMA was unable to provide documented           representatives for the G&T IFMIS
             evidence that modifications to account          application and database in accordance with
             privileges for 11 accounts were authorized.     DHS guidance. The requirements should also
                                                             include retention guidance for G&T IFMIS
         Additionally, we requested for review a selection   access authorization documentation.
         of eight G&T IFMIS Oracle Database User
         Access Control Forms for G&T IFMIS Oracle
         database users whose accounts were created
         during the fiscal year. We determined that of the
         eight users selected, two did not have
         documented evidence that the accounts were
         authorized or appropriately approved prior to
         creation.
FEMA-    Based on observations conducted with IT             •    Configure all NEMIS Oracle databases to       X                     3
IT-09-   Enterprise Operations database personnel over            enforce the DHS policy for passwords and
  66     the four databases selected for test work that           authenticator control requirements,
         process NEMIS financial data, we determined              including expiration, reuse, and length
         that DBA account passwords are not required to           and complexity.
         be “strong passwords.” Specifically:
                                                             •    Develop and implement procedures to
         •   No minimum password length is enforced.              ensure that those with systems
         •   Password complexity is not required so that          administration and security
             passwords include a combination of                   responsibilities over the NEMIS database
             upper/lowercase letters, numbers, and special        environment are made aware of DHS,
             characters.                                          FEMA and Federal requirements and
         •   Reuse of previous passwords is not                   guidance and are properly trained in those
             prohibited.                                          requirements and guidance.
         •   Passwords are not configured to expire and
             forced to be changed after a predetermined


                                                                 77
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                        Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                         Condition                                      Recommendation
                                                                                                                Issue    Issue       Rating
            length of time.


FEMA-    Based on observations conducted over the FEMA        Implement the plan to configure the FEMA           X                     2
IT-09-   domain policy and an end-user workstation, we        LAN domain security policy to automatically
  67     determined that workstations are configured to       activate a password-protected screensaver on
         activate a password-protected screensaver after      end-user workstations after five minutes of
         15 minutes of inactivity, rather than the five       inactivity, consistent with DHS policy.
         minute inactivity threshold required by DHS
         policy.
FEMA-    We determined that a C&A of PARS was not             •    Formally designate an ISSO and DAA for        X                     3
IT-09-   performed and the system had not received an              PARS.
  68     ATO. Specifically, no evidence exists to support
         that the required C&A elements have been             •    Immediately work with FEMA’s Chief
         completed, documented, or approved for PARS.              Information Security Office to certify and
                                                                   accredit PARS in accordance with
         In addition, we determined that at the time of our        applicable DHS policies and Federal
         test procedures, neither an ISSO nor a DAA had            guidance.
         been formally designated by FEMA management
         for PARS.
FEMA-    Upon inspection of the NFIP Technical Services       Ensure implementation of an updated version        X                     2
IT-09-   Department Production Systems Control Unit           of the current TRRP configuration
  69     Procedures, that addresses TRRP configuration        management procedures that comprehensively
         management, we noted that the procedures             addresses FEMA and DHS requirements. The
         outline steps for controlling changes during the     updated procedures should require initial
         change control process for TRRP. However, the        approvals of OSRs and establish a process for
         procedures do not include a comprehensive            obtaining CCB and TRC approvals prior to
         configuration management guidance that               implementing changes into production, in
         addresses the required elements for a                accordance with DHS policies and
         comprehensive configuration management plan          procedures.
         in accordance with FEMA and DHS policy.


                                                                  78
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                      Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                              New     Repeat        Risk
NFR #                        Condition                                      Recommendation
                                                                                                              Issue    Issue       Rating
         Furthermore, we performed testwork over initial
         approval, testing, and implementation of a
         selection of 25 TRRP changes made in FY 2009
         and noted the following exceptions:
         •   16 out of the 25 changes did not obtain initial
             OSR approvals prior to developing the
             change.
          All 25 changes did not obtain TRC or CCB
             approval for production implementation
             approval.
FEMA-    We were informed by the NFIP contractors, that        Document, finalize, and implement               X                     2
IT-09-   no patch management policy and procedures             comprehensive patch management policies
  70     exist for the Windows operating system which          and procedures for the NFIP LAN and the
         supports the Traverse application and the NFIP        Traverse operating system, in accordance
         LAN.                                                  with DHS policy. Additionally, NFIP should
                                                               ensure that this procedure includes
         Additionally, we determined that while NFIP has
                                                               requirements for authorizing, testing, and
         documented the Traverse System Software
                                                               approving patches to be implemented into
         Procedures which outline the process to initiate,
                                                               production and responding to DHS SOC and
         approve, test, and implement operating system
                                                               DHS CSIRC notifications to ensure
         upgrades into production, the procedures do not
                                                               compliance with the timely implementation of
         specifically address patch management.
                                                               required patches.
         Furthermore, the procedures do not provide
         robust guidance for approving, installing, and
         testing patches, according to DHS requirements.




                                                                 79
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                       Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                               New     Repeat        Risk
NFR #                       Condition                                        Recommendation
                                                                                                               Issue    Issue       Rating
FEMA-    During our after-hours physical testing, we          We recommend that appropriate FEMA                 X                    2
IT-09-   identified 42 written unprotected passwords, four    management review the effectiveness of
  71     external memory drives, two documents labeled        existing security awareness programs
         as ‘For Official Use Only (FOUO)’, two badges,       designed to protect electronic and physical
         two instances of unsecured Personally                data and ensure that individuals are
         Identifiable Information (PII), one instance of a    adequately instructed and reminded of their
         written server name with an Internet Protocol (IP)   roles in the protection of both electronic and
         address, and one unsecured laptop.                   physical FEMA data and hardware.
                                                              Additionally, FEMA employees and
                                                              contractors should be made aware of the need
                                                              to protect PII, as well as information marked
                                                              “FOUO.”
FEMA-    Through discussions with FSS personnel, we           •    Submit a revised DHS Waivers and             X                     3
IT-09-   determined that the description of mitigating and         Exceptions Request Form that accurately
  72     compensating controls noted in the approved               reflects the mitigating and compensating
         DHS Waivers and Exceptions Request for Core               controls in place on the Core IFMIS
         IFMIS does not accurately reflect the operating           environment to justify exception from
         environment for the Core IFMIS application and            DHS policy concerning audit logging on
         database. Specifically:                                   the Core IFMIS database.
         •   Successful database connections are not          •    Ensure that future waiver and exception
             logged, as described.                                 requests involve the input, review, and
         •   Superuser activity is monitored at the                approval of system owners and
             application level. However, no other audit            administrators to provide adequate
             logs or records described in the request are          assurance that the documented risk
             reviewed.                                             mitigation strategies accurately reflect
         •   The exception request states that “direct             security controls in place.
             access to the IFMIS database is restricted to
                                                              •    Ensure that FEMA establishes a more
             approximately 70 users, and is read-only in
                                                                   formal communication process for
             nature for the purposes of running
                                                                   providing approved waivers back to
             ClearAccess report functions”, however
                                                                   system owners so that any requirements
             direct access to the database includes DBAs

                                                                  80
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                             Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                     New     Repeat        Risk
NFR #                      Condition                                   Recommendation
                                                                                                     Issue    Issue       Rating
            with read/write privileges in addition to         for the implementation of additional
            ClearAccess read-only users.                      controls are reviewed and executed
        •   Approval was granted by the DHS CISO with         appropriately and timely.
            an added condition that FEMA periodically
            capture the audit records at a database level
            and compare them to the application logs to
            ensure that data is correct at the application
            level. However, the requirement had not
            been implemented at the time of our FY 2009
            audit procedures.
        Consequently, we concluded that the request for
        an exception to DHS policy requirements related
        to audit logging for the Core IFMIS Oracle
        database was approved by the DHS CISO based
        on inconsistent or inaccurate information about
        the system environment and current controls in
        place to mitigate the risk of not implementing
        DHS policy. Additionally, the DHS CISO’s
        condition for granting approval has not been met
        by FEMA.




                                                             81
                   Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                         Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                 New     Repeat        Risk
NFR #                       Condition                                        Recommendation
                                                                                                                 Issue    Issue       Rating
FEMA-    Based on observations conducted with FEMA IT         •    FEMA should develop and implement               X                    3
IT-09-   security personnel and IFMIS UNIX system                  policies and procedures over the
  73     administrators, we determined that the “root”             monitoring of system administrator and
         account access is not properly restricted and             highly-privileged account activity in the
         system administrator activities are not                   Core and G&T IFMIS UNIX
         appropriately logged. Specifically, the password          environments, in accordance with FEMA
         to access the UNIX “root” administrator account           and DHS policy.
         is shared between the administrators and local
         access to the root account is not locked down.       •    Implement technical controls to restrict
         Additionally, FEMA has not enforced the use of            access to the “root” account through the
         the switch user command, “sudo,” which requires           use of “sudo” to ensure that explicitly
         system administrators to login with their userID          authorized individuals only have access to
         and switch over to the root account to ensure who         the account.
         is accessing the account is logged and authorized.   •    Ensure that system logs and records of
         Additionally, we determined that system logs and          administrator activity, including “sudo”
         reports of administrator activity, including the          activity related to the “root” account, are
         “sudo” log, which monitors actions performed by           retained and reviewed by IT security
         administrators while acting as the “root” account,        management independent of the system
         were not reviewed by FEMA management                      administration team.
         personnel independent of the system
         administration staff.
FEMA-    FEMA's systems inventory does not include all        Update the FEMA system inventory to                 X                     3
IT-09-   financial systems. Specifically, G&T FMIS and        include the G&T instance of IFMIS, as well
  74     PARS were not included in the inventory              as PARS. FEMA should comply with DHS
         provided to us during the audit by FEMA and          policy and consistently follow procedures for
         neither system is being tracked via the Trusted      updating and monitoring their FISMA system
         Agent Federal Information Security Management        inventory to ensure that all new and current
         Act.                                                 systems are accounted for with complete and
                                                              accurate information, in accordance with
                                                              NIST and DHS policy.



                                                                  82
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                       Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                               New     Repeat        Risk
NFR #                        Condition                                      Recommendation
                                                                                                               Issue    Issue       Rating
FEMA-    During the audit, we determined that review of        Document defined and repeatable procedures        X                    1
IT-09-   access to the NFIP data center is performed on an     for the review of physical access to the NFIP
  75     ad-hoc basis. However, there are no policies or       data center in accordance with DHS and NIST
         procedures that require periodic and documented       guidance. These procedures should, at a
         re-certification of data center access at a defined   minimum, define the frequency of this review
         frequency.                                            and what documentation should be
                                                               maintained as evidence of that review.
FEMA-    Based on testwork performed and inquiries             Establish a formal process for granting          X                     3
IT-09-   conducted with FSS and Core IFMIS database            emergency and temporary Core IFMIS
  76     personnel, we determined that emergency and           database access that includes segregation of
         temporary access to the database, including           duties considerations and appropriate
         access for contractor development personnel, is       approval from FEMA management in
         approved by the FSS Chief and/or their staff,         accordance with DHS policy.
         rather than by the FEMA Chief Information
         Security Officer (CISO)/Information System
         Security Manager (ISSM) or a designee, as
         required by DHS policy. Additionally, we
         determined that the Core IFMIS Oracle database
         access granted to contracted development
         personnel to implement database changes to Core
         IFMIS conflicts with segregation of duties
         principles.

FEMA-    FEMA OCFO and NFIP financial systems                  We recommend that FEMA management                X                     2
IT-09-   development and acquisition projects were             define and implement formal and repeatable
  77     undertaken and progressed without (1) proper          processes to ensure that financial systems
         oversight of and direction to contractors, (2)        development and acquisition projects are
         development and approval of required project          conducted in compliance with DHS SELC
         documentation, (3) the continual involvement of       and acquisition requirements as well as
         the OCIO to ensure appropriate consideration and      Federal guidance. The processes should
         integration of IT security, and (4) the joint         include, but are not limited to, formal


                                                                 83
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                        Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                        Condition                                      Recommendation
                                                                                                                Issue    Issue       Rating
         communication and decision-making of FEMA            approval of required project documentation,
         OCFO, OCIO, and NFIP management.                     sufficient contractor oversight, definitions of
                                                              project roles and responsibilities so that
                                                              decision making includes the appropriate
                                                              involvement of all stakeholders and relevant
                                                              FEMA management, establishment of
                                                              Acquisition Decision Events at each SELC
                                                              phase, and integration of IT security
                                                              considerations throughout all project phases.

FEMA-    Based on our testwork, we concluded that             •    Document and implement a                      X                     3
IT-09-   NEMIS configuration management is not                     comprehensive configuration management
  78     adequately controlled, documented, or managed             plan for NEMIS which clearly defines the
         throughout the lifecycle of the FEMA                      roles and responsibilities for FEMA and
         configuration management process. Specifically,           contractor personnel managing the
         we identified the following weaknesses:                   development of non-emergency and
                                                                   emergency system changes, in compliance
         •   NEMIS configuration management policy
                                                                   with DHS and FEMA requirements.
             and procedures which outline FEMA’s
             responsibilities and processes for initiating,   •    Ensure that NEMIS non-emergency and
             monitoring, testing, and approving NEMIS              emergency system changes are tracked,
             non-emergency and emergency changes that              controlled, properly documented, and
             are developed under the new development               managed by FEMA personnel throughout
             contract have not been documented and                 the lifecycle of the configuration
             approved by FEMA management, in                       management process in accordance with
             accordance with DHS and FEMA policy.                  DHS and FEMA guidance and policies.
         •   Once the new systems development
             contractor delivers developed changes to
             FEMA, FEMA does not monitor and track
             NEMIS SCRs throughout the configuration
             management lifecycle, from initial approval
             through implementation into the production


                                                                  84
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                       Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                               New     Repeat        Risk
NFR #                       Condition                                      Recommendation
                                                                                                               Issue    Issue       Rating
             environment. Instead, FEMA only tracks and
             collects documentation for SCRs from
             Project Managers at the final approval stage
             when the request is received by the TRC.
FEMA-    Based on observations conducted over the FEMA       •    Configure the FEMA LAN and AD                 X                     3
IT-09-   LAN and the Microsoft Windows Active                     account policies to require strong
  79     Directory (AD) environment, we concluded that            passwords, in accordance with DHS
         the following weaknesses exist:                          policy.
         •   The FEMA LAN domain security policy does        •    Finalize and fully implement the Non-
             not enforce password requirements in                 User Specific, Shared, Other Group Type
             accordance with DHS policy.                          Accounts SOP. Specifically, FEMA
         •   Policies and procedures over the                     should ensure that policies and procedures
             authorization of FEMA LAN accounts,                  over the granting and managing of access
             independent of NACS approval process                 for group/shared/service and
             outlined in the Non-User Specific, Shared,           administrator-level user accounts not
             Other Group Type Accounts SOP, have not              authorized through NACS are
             been finalized or implemented. Additionally,         documented and implemented
             we determined that initial access                    consistently. Additionally, policies and
             authorizations for a selection of AD accounts        procedures should ensure that, in
             were not authorized.                                 accordance with DHS policy, a clear
         •   A periodic recertification of FEMA LAN               business need is established and
             access accounts is not currently performed to        documented justifying the creation and
             ensure that access is still necessary and            use of these types of accounts.
             appropriate for each individual.
                                                             •    Develop and implement a formal process
         •   We compared a listing of active FEMA                 for performing a periodic recertification
             LAN/AD accounts against a list of FEMA               of user access to the FEMA LAN which
             employee separations that had occurred since         defines requirements and addresses users
             October 1, 2008. Based on our test work, we          not accounted for during the planned
             determined that 36 accounts remained active          recertification of NEMIS application
             and unlocked after the account holder’s              access.
             separation from FEMA.


                                                                 85
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                         Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                 New     Repeat        Risk
NFR #                        Condition                                       Recommendation
                                                                                                                 Issue    Issue       Rating
                                                               •    Evaluate and, if appropriate, revise
                                                                    existing procedures over removal of
                                                                    separated user access to ensure that all
                                                                    separated users on the FEMA LAN are
                                                                    removed in a timely manner. Ensure that
                                                                    procedures and processes are
                                                                    implemented consistently to remove
                                                                    network accounts for all separated users
                                                                    immediately upon notification of
                                                                    separation, in accordance with FEMA,
                                                                    DHS, and NIST guidance.
FEMA-    NFIP has not developed and implemented formal         •    Develop and implement formal                  X                     2
IT-09-   procedures that outline the process for                    procedures that outline the internal scan
  80     conducting internal scans for the NFIP LAN and             processes and requirements. These
         for assessing, reporting, and correcting identified        procedures should include, at a minimum,
         weaknesses. We also determined that                        the process for assessing, reporting, and
         remediation of vulnerabilities identified during           correcting weaknesses identified during
         internal scans of the NFIP LAN is not formally             scans. Additionally, ensure that the scope
         tracked and monitored through the Plan of                  of vulnerability scans conducted include
         Actions and Milestones (POA&M) Process in                  all workstations on the NFIP LAN.
         accordance with DHS policy.
                                                               •    With the involvement of both FEMA
         While the NFIP contractor conducts internal                management and NFIP contractors,
         vulnerability scans of the NFIP LAN on a                   implement procedures for formally
         monthly basis, scanning of select workstations             tracking and monitoring the remediation
         are presently excluded.                                    of vulnerabilities identified during the
                                                                    internal scans of the NFIP LAN through
                                                                    FEMA’s POA&M process.
FEMA-    FEMA does not have approved and finalized             •    Establish and formalize FEMA policies         X                     2
IT-09-   procedures that establish formal requirements,             and procedures over the requirements,
  81     processes, and responsibilities for performing             processes, and responsibilities for
         regular vulnerability scans of Core and G&T                performing periodic vulnerability scans

                                                                   86
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                       Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                               New     Repeat        Risk
NFR #                       Condition                                       Recommendation
                                                                                                               Issue    Issue       Rating
         IFMIS.                                                   for Core and G&T IFMIS instances, in
                                                                  accordance with DHS guidance.
         FEMA also provided us with documented
         evidence of a G&T IFMIS internal vulnerability      •    Ensure that vulnerability assessment scans
         scan that was performed on July 17, 2009.                are performed for G&T IFMIS and that
         However, we noted that the scan was scheduled            weaknesses identified are formally
         and performed after our initial request for audit        reported and tracked for remediation
         documentation. Additionally, FEMA was unable             through the DHS POA&M process, as
         to provide us with any evidence that prior scans         required by DHS guidance.
         of G&T IFMIS had been performed or scheduled
         since the system was brought online in FY 2007.
FEMA-    Upon inspection of the FEMA SOP for installing      Document, finalize, and implement                  X                     2
IT-09-   UNIX patches to the Core and G&T IFMIS              comprehensive patch management policies
  82     instances, we noted that it does not outline the    and procedures for Core and G&T IFMIS, in
         process for defining a timeline for implementing    accordance with DHS policy. Policies and
         non-emergency and emergency patches or for          procedures should include requirements for
         authorizing, testing, and approving patches for     responding to DHS SOC and DHS Computer
         implementation, in accordance with DHS              Security Incident Response Center
         guidance.                                           notifications to ensure the timely
                                                             implementation of required patches and
         Furthermore, FEMA IT personnel informed us
                                                             retention of testing documentation.
         that documented test results of UNIX patches are
         not retained by IT personnel after testing is
         completed.
FEMA-    We were informed by FEMA IT System               •       Develop and implement a formalized a          X                     3
IT-09-   Integrations that NEMIS’ program directories for         process and procedures for restricting and
  83     the TDL environment, where all User Acceptance           monitoring access over the NEMIS
         Testing (UAT) occurs, and the NEMIS                      production directories to ensure that the
         production environment where the code changes            principles of least privilege and
         are implemented, are located on one server.              segregation of duties are enforced, in
         Upon review of the processes for restricting             accordance with DHS guidance. The
         access to these directories, we noted the                process should include requirements over


                                                                 87
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                        Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                       Condition                                        Recommendation
                                                                                                                Issue    Issue       Rating
         following weakness:                                       the monitoring of NEMIS system
                                                                   directories to ensure that no changes have
         •   Of the fifteen individuals with access to the         occurred after the approval of NEMIS
             server, three accounts belonged to                    system changes has occurred.
             development personnel who have write, read,
             execute, and modify access to all of the         •    Limit the developers’ access to the
             server’s directories, which allow unrestricted        NEMIS production directories to “read
             access to both the production and                     only” and segregate the responsibility for
             development environments for NEMIS.                   delivering application code changes into
         •   FEMA does not lock down the code in their             the NEMIS directory server from the
             server directory environment, giving all              contractor to an independent control
             accounts unrestricted access to the NEMIS             group. If business need requires that the
             TDL and production environment after the              segregation of duties cannot be
             code has been approved for implementation.            immediately implemented, FEMA should
             Additionally, while an ad-hoc review is               document policies and procedures to
             performed over the directories to monitor the         compensate for the risk associated with
             modification dates on the production code             the segregation of duties weakness noted,
             directories, this process is not performed            in accordance with DHS guidance.
             consistently or documented to mitigate the
             risk of not locking down the directories.

FEMA-    Based on testwork performed, we identified the       •    Perform documented periodic reviews of        X                     3
IT-09-   following weaknesses in PARS database security            PARS database accounts and disable
  84     controls:                                                 inactive accounts, in accordance with
                                                                   DHS policy.
         •    PARS database accounts are not reviewed to
             identify accounts that have been inactive for    •    Configure PARS database accounts to
             45 days or more, as required by DHS policy            adhere to DHS policy for passwords and
             for high impact systems.                              authenticator controls, including
         •    Strong passwords are not required and/or             expiration, reuse, and complexity.
             enforced in accordance with DHS
                                                              •    Configure the PARS databases to log
             requirements.
                                                                   events and conduct documented reviews
         •    Database audit logs are not configured to

                                                                  88
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                        Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                       Condition                                       Recommendation
                                                                                                                Issue    Issue       Rating
             capture auditable events, including failed            of audit logs, in accordance with FEMA
             login attempts and administrator-level                and DHS policy.
             actions.
                                                              •    Further define and implement a formal
         •   A periodic recertification of PARS database
                                                                   process that documents requirements for
             access accounts is not currently performed to
                                                                   configuring, retaining, and reviewing
             ensure that access is still necessary and
                                                                   audit trails for the PARS database in
             appropriate for each individual.
                                                                   accordance with FEMA and DHS policy.
         FEMA could not provide evidence that initial              Additionally, ensure that all DHS
         PARS database granted to one of four users was            requirements are met through this process,
         appropriately authorized and the individual was           including appropriate supervisory review
         inappropriately approved for emergency database           and retention.
         access by the FSS Chief, rather than the
                                                              •    Further define and establish a formal
         FEMACISO/ISSO/ISSM or designee, as required
                                                                   process for granting initial access and
         by DHS policy.
                                                                   recertifying access specifically to the
                                                                   PARS database that includes appropriate
                                                                   approval from FEMA management and
                                                                   requirements for temporary and
                                                                   emergency access, in accordance with
                                                                   DHS guidance.
FEMA-    Based on observations conducted with the NFIP        No recommendation is required for this             X                     2
IT-09-   IT contractor, we determined that while TRRP         weakness that existed for the majority of FY
  85     system passwords were configured to enforce          2009 because it was remedied prior to the end
         password complexity using alphabetic, numeric,       of the audit when the TRRP password settings
         and special characters, the configurations did not   were reconfigured to enforce complexity
         limit the use of dictionary words. Additionally,     requirements that exceed DHS requirements.
         the password configuration did not prevent the
         password from being any word, noun, or name
         spelled backwards or appended with a single digit
         or with a two-digit "year" string, in accordance
         with DHS guidance.


                                                                  89
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                       Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                               New     Repeat        Risk
NFR #                       Condition                                      Recommendation
                                                                                                               Issue    Issue       Rating




FEMA-    We noted that the NFIP IT contractors use their    •    In accordance with policy, establish a         X                     2
IT-09-   individually assigned system administrator              separate account for the third party
  86     accounts to logon and create sessions to allow a        vendor’s use to implement Traverse
         third party development vendor to install               changes and limit use of the account so
         Traverse system changes. Additionally, we               that’s its activated on an as needed basis.
         determined that NFIP does not have a formal
         process for monitoring changes that the vendor     •    Establish and implement a formal process
         makes in Traverse while logged in as an                 for monitoring and verifying
         administrator.                                          configuration changes made by the vendor
                                                                 in the Traverse environment, in
                                                                 accordance with DHS policy.
                                                                 Additionally, ensure that these procedures
                                                                 include requirements for documentation
                                                                 retention.
FEMA-    Procedures for management of FEMA IT security      •    Develop, approve, and implement an SOP         X                     2
IT-09-   incidents have not been developed, approved, and        for managing security incidents that
  87     implemented, in accordance with FEMA and                clearly outlines roles and responsibilities
         DHS requirements.                                       required to maintain a continuous incident
         Additionally, our unannounced FY 2009                   response capability, as required by DHS
         vulnerability assessment scanning activity was          and FEMA policy.
         not detected and appropriately reported by         •    Provide training to all personnel with
         FEMA IT personnel in accordance with DHS and            incident response roles and

                                                                90
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                       Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                               New     Repeat        Risk
NFR #                       Condition                                       Recommendation
                                                                                                               Issue    Issue       Rating
         FEMA policy.                                             responsibilities.




FEMA-    During our FY 2009 audit testwork, we noted         •    Revise the TRRP access control policies       X                     2
IT-09-   that NFIP had not formally established a process         and procedures to ensure that the creation
  88     for authorizing, documenting the approval and            of service accounts are appropriately
         business need for service accounts, and                  authorized and that a clear business need
         recertifying service accounts on the TRRP                is established and documented justifying
         system. As a result, authorization forms were not        the creation and use of these types of
         on file for all service accounts and                     account in accordance with DHS policy.
         recertifications of access are only conducted for
         user accounts.                                      •    Ensure that policies and procedures over
                                                                  TRRP access authorization include a
                                                                  formalized process for the recertification
                                                                  of service accounts on an annual basis in
                                                                  accordance with DHS policy.
FEMA-    FEMA did not adequately conducted suitability       •    Further define and refine processes to        X                     2
IT-09-   investigations for FEMA federal employees in             ensure that background investigations for
  89     accordance with DHS requirements and position            all types of federal employees are
         designations associated with employees with              performed in accordance with DHS
         elevated system privileges did not have                  directives.
         appropriate position sensitivity designations.
                                                             •    Reevaluate and assign the correct
         We also determined that formal procedures were           position sensitivity levels to federal
         not developed or implemented for conducting              employees with access to DHS
         suitability screenings of contractors accessing          information systems in accordance with
         DHS IT systems. Additionally, suitability                DHS policy.


                                                                 91
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                           Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                   New     Repeat        Risk
NFR #                        Condition                                        Recommendation
                                                                                                                   Issue    Issue       Rating
         investigations were not appropriately conducted      •     Implement procedures within FEMA
         for contractors with access to multiple FEMA               Acquisitions, FEMA Personnel Security,
         information systems holding sensitive IT security          and FEMA IT to ensure a more
         positions and the contractors did not have                 centralized and coordinated process for
         position sensitivity designations.                         tracking and completing background
                                                                    investigations over contracting personnel
                                                                    in accordance with DHS policy.
                                                              •     Ensure that all systems owners formally
                                                                    and correctly define the appropriate
                                                                    suitability designation for contracting
                                                                    personnel needing access to their
                                                                    information systems in accordance with
                                                                    DHS policy. Additionally, ensure that
                                                                    position sensitivity designations
                                                                    distinguish between various levels of
                                                                    access and require the contractor to have
                                                                    their suitability investigation completed
                                                                    prior to being granted access.
FEMA-    We determined that FEMA has certified the             •    Formally designate an ISSO and DAA for          X                     3
IT-09-   FEMA Switch Network (FSN)-2 switch network                 the MD NPSC.
  90     which is comprised of various FEMA LANs
         across the regions and each LAN is classified as a •       Immediately conduct an assessment of
         subsystem of the switch network. During our                key controls that help ensure
         review of the C&A package, we noted that the               confidentiality and availability of data for
         MD National Processing Service Center (NPSC)               security weaknesses and determine the
         is considered to be a sub-system to the                    operational risk related to MD NPSC
         overarching GSS FSN-2 and that the primary                 LAN supporting FEMA financial
         servers for NEMIS, Core IFMIS, and G&T                     applications. Weaknesses identified
         IFMIS financial applications reside on this                should be documented with plans for
         portion of the LAN. However, the document                  accelerated remediation efforts or related
         states that no current accreditation or certification      risks should be formally accepted by


                                                                   92
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                        Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                New     Repeat        Risk
NFR #                       Condition                                       Recommendation
                                                                                                                Issue    Issue       Rating
         letters could be found for that subsystem during          FEMA.
         the certification and accreditation of the FSN-2
         package. Specifically, there is no evidence in the   •    Review and revise the FSN-2 C&A
         package that the required C&A elements have               package to reflect the current GSS
         been completed/updated, documented, or                    environment in accordance with DHS and
         approved for MD NPSC in accordance with DHS               Federal Guidance. Additionally, ensure
         guidance.                                                 that the C&A Package has been
                                                                   completed to include the required
         We further noted that the C&A package states              artifacts, addresses the security controls
         that C&A activities are to be completed for the           for the various subsystems and assigns
         MD NPSC subsystem at a separate time and that             and updates the appropriate security roles
         no security roles were defined for the MD NPSC            for each subsystem.
         within the C&A. We inquired with FEMA
         Information Technology (IT) Security and
         management to determine the status for the MD
         NPSC C&A package and were not provided with
         any additional information as to the status of the
         C&A package.
         Additionally, upon further review of the C&A
         package, we noted that both the MD NPSC and
         the regional LANs are within scope of this
         review as NEMIS has servers at multiple
         regional sites. Furthermore, we determined that
         management had not adequately completed the
         C&A package over FSN-2 according to DHS
         policy.
FEMA-    FEMA does not have a formal process for              Document and implement procedures,                 X                     2
IT-09-   adequately tracking FEMA contractors                 according to DHS guidelines and
  91     throughout the on-boarding, termination, and         requirements, that track the on-boarding,
         transfer processes. Furthermore, we noted that       transfer and separation of contractors. Ensure
         the process established for notifying the FEMA       that the policies and procedures include:
         OCIO of changes in contractor's status, so that

                                                                  93
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                           Department of Homeland Security
                                                                                                                     Appendix B
                                        Information Technology Management Letter
                                                   September 30, 2009

                                                                                                             New     Repeat        Risk
NFR #                      Condition                                     Recommendation
                                                                                                             Issue    Issue       Rating
        accounts can be disabled/removed or account
        profiles can be appropriately modified in the
                                                           •    The assignment of roles and
                                                                responsibilities to appropriate FEMA
        required timeframe, is not effective or                 management and stakeholders.
        comprehensive. Specifically, there are no formal
        requirements for COTRs to notify the OCIO of       •    Steps for notifying the FEMA OCIO that
        separating contractors.                                 a contractor is separating or transferring
                                                                so that the contractor will have their
                                                                systems access removed or modified in a
                                                                timely manner, in accordance with DHS
                                                                policies.
                                                           •     Regularly distribute a listing of
                                                                terminated contract personnel to
                                                                information system administrators so they
                                                                can remove user access timely.




                                                               94
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                      Department of Homeland Security                      Appendix B
                   Information Technology Management Letter
                              September 30, 2009




          Department of Homeland Security 

FY2009 Information Technology - Notice of Findings and 

             Recommendations – Detail 


         Federal Law Enforcement Training Center





                                     95 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                   Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                            Department of Homeland Security

                                             FY2009 Information Technology




                                                                                    

                                 Notification of Findings and Recommendations – Detail




                                                                                                

                                      Federal Law Enforcement and Training Center




                                                                                           

                                                                                                           New      Repeat      Severity
NFR #                        Condition                                     Recommendation
                                                                                                           Issue     Issue       Rating
         We determined that SOP 4250, which has been in        We recommend that FLETC enable audit                    X           2
         effect for the entire fiscal year, was last updated   logging over all Momentum system software
         on May 12, 2009 and that FLETC has developed          and ensure that logs are maintained and
         a manual control for the installation of system       proactively reviewed by management.
         software for Momentum. Specifically, logs of
         file changes to the Momentum UNIX servers are
         reviewed monthly. Therefore, this condition of
         the prior weakness has been partially corrected.
FLETC-
IT-09- We also determined that FLETC is still in the
03     process of implementing the Security Information
       Management System (SIM) to compile audited
       events of Oracle and other system software for
       review by FLETC personnel. FLETC
       management has confirmed that logs of Oracle
       are not being reviewed to identify potential
       anomalies or incidents. Due to the lack of audit
       logging procedures around system software for
       Momentum, this NFR will be reissued.




                                                                 96
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                  Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                          New      Repeat      Severity
NFR #                        Condition                                    Recommendation
                                                                                                          Issue     Issue       Rating
       We determined that FLETC has implemented              As FLETC has effectively put into place                  X           2
       DHS’s System Engineering Lifecycle (formally          procedures over the implementation of DHS’
       called SDLC) into their business processes, and       SELC effective April 2009, no
       that it is promulgated to personnel involved in the   recommendation will be offered.
FLETC- change management process. However, we
IT-09- determined that implementation did not occur
04     until April 2009. As a result, we will be reissuing
       this NFR with no recommendation since the
       condition has existed for a majority of the fiscal
       year.

       During the internal vulnerability assessment          Implement the corrective actions for the                X            2
       efforts of FLETC’s Glynco Administrative              recommendations listed within the NFR.
       Network (GAN), Financial Accounting and
       Budgeting System (FABS), and Student
       Information System (SIS) systems we identified
       several High/ Medium Risk vulnerabilities,
       related to Configuration Management and
       Password Management. We confirmed that
       security configuration management weaknesses
FLETC-
       (i.e., default configuration settings, role and
IT-09-
       group policies, password policy, and user account
26
       management) continue to exist on hosts
       supporting FLETC. The conditions are
       exploitable as an insider without specific
       knowledge of the operation of the system or the
       applications hosted on that system. These
       conditions can be found in the table within the
       actual NFR.




                                                               97
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                    Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                            New      Repeat      Severity
NFR #                        Condition                                   Recommendation
                                                                                                            Issue     Issue       Rating
       We determined that in January 2009, FLETC            We recommend that FLETC, enforce their                      X           2
       implemented a Standard Operating Procedure           own policies and procedures for the
       (SOP) #60 titled, Monthly Review of Security         maintenance and periodic review of audit logs
       and Approval logs, which requires management         for Momentum.
       review and sign off. However, FLETC was
FLETC-
       unable to provide documentation supporting the
IT-09-
       management review of approval logs for April,
31
       May, June, and July. In addition, FLETC was
       unable to provide evidence of management
       review of the security violation logs for June and
       July.

       We determined that logs of auditable events in       We recommend that FLETC establishes and          X                      2
       the LAN are not being reviewed to identify           implements procedures to document and
       potential anomalies or incidents. FLETC is in the    review logs of auditable events in the LAN.
       process of implementing SIM with the
FLETC-
       capabilities to manage logged auditable events
IT-09-
       for review by personnel. We determined that,
33
       while the SIM is being implemented, FLETC
       does not have an alternative procedure for the
       review of these logs.

       We determined that access control weaknesses         We recommend that FLETC activate the logs        X                      2
       existed over the Momentum access authorizations      for tracking the addition of new users and
FLETC-
       for user profiles created or modified during the     profile changes to Momentum.
IT-09-
       fiscal year. Specifically, we learned that profile
34
       creation and modification is not tracked and a
       listing of events could not be provided.




                                                              98
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                       Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                               New      Repeat      Severity
NFR #                        Condition                                     Recommendation
                                                                                                               Issue     Issue       Rating
          We noted several weaknesses with logical access     We recommend that FLETC Management:                X                     2
          controls related to GAN:
                                                                • Establish a process to ensure the GAN is
            • The GAN is configured to prohibit password          configured to meet minimum DHS
              resuse for 6 generations, which does not meet       password configuration requirements.
              the DHS standard of eight password
              generations.                                      • Remove all generic/shared accounts and
                                                                  conduct period reviews of the user access
            • The GAN is configured to reset the account          lists to ensure compliance.
              failed logon counter after 60 minutes, which
              does not meet the DHS standard of 24 hours.       • Establish and enforce procedures for the
FLETC-                                                            completion and maintenance of user
IT-09-
            • Several user IDs were identified having             access forms for the GAN.
35
              excessive access.
                                                                • Enforce procedures for the removal of
            • Supporting documentation for new user               transferred/terminated users within the
              authorizations to the GAN could only be             GAN upon their separation from FLETC.
              provided for ten users out of 25 sampled.
                                                                • Establish and implement policies and
            • Fourteen separated employees still had an           procedures for recertification of GAN
              active user account to the GAN.                     user privileges.

         • Formalized procedures are not in place for
           periodic reviews over GAN users.
       During our after hours physical testing, we            We recommend that FLETC management                X                      2
       identified 84 passwords, four For Official Use         implement processes to:
FLETC- Only Violations , seven unsecured ID                     • Ensure that users are trained and aware
IT-09- badges/keys, 83 Personally Identifiable                    of safeguarding login credentials, locking
36     Information violations, six unsecured laptops,             network sessions to DHS systems, and
       two unsecured external drives, 12 unsecured                locking any sensitive information, media
       credit cards, and four users logged into a system          containing sensitive information, or data


                                                                99
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security
                                                                                                                     Appendix B
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                             New      Repeat      Severity
NFR #                         Condition                                  Recommendation
                                                                                                             Issue     Issue       Rating
          without an active screen saver set.                    not suitable for public dissemination in
                                                                 secure locations when not in use.
                                                               • Effectively limit access to DHS
                                                                 buildings, rooms, work areas, spaces, and
                                                                 structures housing IT systems,
                                                                 equipment, and data to authorized
                                                                 personnel.

       During the FY 2009 financial statement audit, we We recommend that FLETC management:                   X                      2
       noted several weaknesses with the logical access   • Establish a process to ensure the SIS is
       controls for the SIS. Specifically, we determined    configured to meet minimum DHS
       the following:                                       password configuration requirements.
         • SIS is configured to have a password history   • Adjust system configuration settings to
            of two passwords stored that does not meet      lock out users after three invalid logon
            the DHS 4300A requirement of eight              attempts as designated by DHS policies.
            remembered passwords.                         • Remove all generic/shared accounts and
         • SIS is configured to have a minimum              conduct periodic reviews of the user
            password age of five days that does not meet    access lists to ensure compliance.
FLETC-      DHS 4300A requirements of seven days.         • Retain audit trail records in accordance
IT-09-   • SIS is not configured to reset the account       with DHS policies in order to support
37          failed logon counter, which does not meet the   potential incidents within the system, and
            DHS 4300A requirement of a reset every 24       for review of user privileges.
            hours.                                        • Activate tracking for the addition of new
         • Users were not locked out until after 6          users to SIS.
            invalid attempts to access the application.
         • SIS system administrators share the ‘root’
            username and password to perform
            administrative responsibilities.
         • A sample of audit logs that track changes to
            system data could not be provided.
         • Invalid user access attempts were not tracked


                                                              100
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security
                                                                                                                  Appendix B
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                          New      Repeat      Severity
NFR #                        Condition                                     Recommendation
                                                                                                          Issue     Issue       Rating
              and monitored until March 2009. Since this
              weakness was corrected during the fiscal
              year, no recommendation will be offered.
            • User profile creation is not tracked and a
              listing of profile creation dates could not be
              provided.
            • Evidence of periodic review of user accounts
              could not be provided.

       We determined that weak access controls exist           We recommend that management establish a    X                      2
       over Momentum’s system software. Specifically,          process to ensure FLETC systems are
FLETC- we noted that the password configuration settings       configured to meet minimum DHS logical
IT-09- for Linux, which supports Momentum, is set to           access configuration requirements.
38     allow a user to attempt to logon six times before
       the account is locked out.




                                                                101
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                       Department of Homeland Security                     Appendix B
                   Information Technology Management Letter
                              September 30, 2009




          Department of Homeland Security 

FY2009 Information Technology - Notice of Findings and 

             Recommendations – Detail 


           Immigration and Customs Enforcement





                                     102 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security
                                            Information Technology Management Letter                                   Appendix B
                                                       September 30, 2009

                                             Department of Homeland Security

                                              FY2009 Information Technology




                                                                                       

                                  Notification of Findings and Recommendations – Detail




                                                                                                    

                                           Immigration and Customs Enforcement




                                                                                           

                                                                                                               New      Repeat      Severity
NFR #                        Condition                                       Recommendation
                                                                                                               Issue     Issue       Rating
ICE-IT-   We accessed ICE facilities located at the Tech       We recommend that ICE train physical              X                     2
 09-11    World Building on 800 K Street and the PCN           security personnel to recognize DHS issued
          Tower on 500 and 12th Street without the use of      identification or credentials and detect non-
          DHS issued credentials. Moreover, we overtly         conforming credentials.
          presented non-government issued identification
          to building security and was then granted
          physical access to the facilities.

ICE-IT-   Ineffective/non-compliant account lockout            The Enterprise Operations Division of the        X                      2
 09-12    counter settings During the FY09 audit, KPMG         OCIO adjusted the lockout settings after they
          inquired of ICE OCIO personnel about ADEX            were informed by us of the discrepancy. No
          account settings, reviewed the account lockout       recommendation given.
          settings, and inspected ICE’s logical access
          polices and found that the account lockout
          settings for ADEX was not compliant with DHS
          policy. DHS policy requires that the system is to
          lock user accounts after three consecutive invalid
          login attempts within a 24 hour period. However,
          within ADEX, the number of invalid attempts to
          access the system resets to zero after 30 minutes
          if up to two invalid access attempts are made.
          Therefore, several attempts can initiated as long
          as the user waits 30 minutes before attempting
          again.



                                                                103
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security
                                            Information Technology Management Letter                                    Appendix B
                                                       September 30, 2009

                                                                                                                New      Repeat      Severity
NFR #                         Condition                                      Recommendation
                                                                                                                Issue     Issue       Rating
ICE-IT-   We determined that the FFMS password settings         We recommend that ICE update the FFMS             X                     2
 09-13    require the use of an underscore and does not         password configuration settings to be in
          allow the use of any other special characters such    compliance with DHS 4300A policies.
          as !, @, #, $, %, or *, which is not compliant with
          DHS policy. The DHS policy requires that
          passwords contain a combination of alphabetic,
          numeric, and special characters.

ICE-IT-   We identified that the ADEX user recertification      We recommend that ICE management                 X                      2
 09-14    process is not designed appropriately.                establish and implement policies and
          Specifically, we noted a lack of formal policy and    procedures for recertification of ADEX user
          procedure for managing the periodic review of         privileges. This process should include a
          ADEX general user access. In addition, the            method to document user recertification and a
          informal process contingent upon personnel’s          process to maintain evidence of the reviews.
          annual completion of the Information Assurance
          Awareness Training (IAAT) as a mitigating
          control for ensuring a review of users’ access on
          a periodic basis is insufficient.

ICE-IT-   We inquired of ICE OCIO personnel about the           We recommend that ICE management                 X                      2
 09-15    process for recertifying FFMS user access             establish and implement policies and
          (review of access privileges) and found that this     procedures for recertification of FFMS user
          process is not formally documented.                   privileges. This process should include a
          Furthermore, we identified that the review for the    method to document user recertification and a
          access privileges for each FFMS account is not        process to maintain evidence of the reviews.
          adequately recorded and no audit trail is available
          to support that a recertification was completed.

ICE-IT-   We determined that weaknesses exist over ADEX         We recommend ICE management develop              X                      2
 09-16    access. Specifically, we found that 14 users,         processes for the removal of
          which were separated from ICE, still had active       transferred/terminated users within ADEX
          ADEX accounts that were not removed upon              upon their separation.
          their termination/transfer.
                                                                 104
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                 Department of Homeland Security
                                             Information Technology Management Letter                                  Appendix B
                                                        September 30, 2009

                                                                                                               New      Repeat      Severity
NFR #                         Condition                                      Recommendation
                                                                                                               Issue     Issue       Rating




ICE-IT-   We performed an inspection of a listing of FFMS       We recommend that ICE enforce policies and      X                      2
 09-17    users and their assigned roles/responsibilities and   procedures to ensure that assigned roles and
          determined that six users had Originator, Funds       responsibilities are commensurate with
          Certification Official, and Approving Official        personnel job functions.
          profiles that were in violation of FFMS
          segregation of duties policies.

ICE-IT-   We identified that background reinvestigations        We recommend ICE management periodically        X                      2
 09-18    are not conducted in a timely manner. We              review personnel files to confirm background
          performed an inspection of a sample of ICE            reinvestigations have been completed in
          personnel requiring reinvestigations during the       accordance with DHS standards.
          fiscal year and of the 25 ICE employees sampled,
          evidence of background reinvestigations during
          FY 2009 could not be provided for 16
          contractors.

ICE-IT-   We performed an inspection of a sample of             We recommend ICE management adhere to           X                      2
 09-19    personnel that had terminated/transferred from        exit clearance procedures and require
          their employment with ICE during the fiscal year.     personnel to follow them in the event of
          We requested evidence that exit clearance forms       transfer/termination.
          were completed for each employee to determine
          ICE management’s compliance with exit
          clearance procedures. Of the 25
          terminated/transferred ICE personnel sampled,
          evidence of compliance with exit clearance
          procedures could not be provided for 12
          employees.

                                                                 105
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security
                                            Information Technology Management Letter                                      Appendix B
                                                       September 30, 2009

                                                                                                                  New      Repeat      Severity
NFR #                        Condition                                      Recommendation
                                                                                                                  Issue     Issue       Rating
ICE-IT-   We determined that ICE lacks policies and           We recommend that ICE management                      X                     2
 09-20    procedures requiring completion of a training       implement mandatory requirements for IT
          program by personnel in IT security positions.      security personnel to complete training
                                                              consistent with their job function duties.

ICE-IT-   During the internal vulnerability assessment        In addition to addressing the specific               X                      2
 09-21    efforts of ICE’s network servers and systems we     vulnerabilities identified in the condition, ICE
          identified several High/ Medium Risk                should:
          vulnerabilities, related to configuration            • Redistribute procedures and train
          management. We determined that security                  employees on continuously monitoring
          configuration management weaknesses (i.e.,               and mitigating vulnerabilities. In
          missing security patches and incorrect                   addition, we recommend that ICE
          configuration settings) exist on hosts supporting        periodically monitor the existence of
          the ICE.                                                 unnecessary services and protocols
                                                                   running on their servers and network
                                                                   devices, in addition to deploying patches.
                                                               • Perform vulnerability assessments and
                                                                   penetration tests on all offices of the ICE,
                                                                   from a centrally managed location with a
                                                                   standardized reporting mechanism that
                                                                   allows for trending, on a regularly
                                                                   scheduled basis in accordance with NIST
                                                                   guidance.
                                                               • Develop a more thorough approach to
                                                                   track and mitigate configuration
                                                                   management vulnerabilities identified
                                                                   during monthly scans. ICE should
                                                                   monitor the vulnerability reports for
                                                                   necessary or required configuration
                                                                   changes to their environment.
                                                               • Develop a process to verify that systems
                                                                   identified with “HIGH/MEDUIM Risk”
                                                                   configuration vulnerabilities do not
                                                               106
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security
                                           Information Technology Management Letter                                     Appendix B
                                                      September 30, 2009

                                                                                                                New      Repeat      Severity
NFR #                        Condition                                     Recommendation
                                                                                                                Issue     Issue       Rating
                                                                  appear on subsequent monthly
                                                                  vulnerability scan reports, unless they are
                                                                  verified and documented as a false-
                                                                  positive. All risks identified during the
                                                                  monthly scans should be mitigated
                                                                  immediately, and not be allowed to
                                                                  remain dormant.

ICE-IT-   During our after hours physical testing, we         KPMG recommends that ICE management                X                      2
 09-22    identified 26 passwords, four For Official Use      implement processes to:
          Only Violations , two unsecured ID badges/keys,         • Ensure that users are trained and
          15 Personally Identifiable Information violations,         aware of safeguarding login
          two server names/IP addresses, three unsecured             credentials, locking network sessions
          laptops, six unsecured external drives, one                to DHS systems, and locking any
          unsecured credit card, and two users logged into a         sensitive information, media
          system without an active screen saver set.                 containing sensitive information, or
                                                                     data not suitable for public
                                                                     dissemination in secure locations
                                                                     when not in use.
                                                                  • Effectively limit access to DHS
                                                                     buildings, rooms, work areas, spaces,
                                                                     and structures housing IT systems,
                                                                     equipment, and data to authorized
                                                                     personnel.
ICE-IT-   We identified that the IT security awareness        We recommend ICE management to:                    X                      2
 09-23    training requirements are not enforced. Of the        •      Remove system access for personnel
          population of staff that had not taken the training          that are not in compliance with
          by the ICE deadline of 6/1/09, we determined that            training requirements.
          three employees still maintained system access.     • Document procedures regarding the
          Additionally, procedures are not in place to           disabling of user accounts and access
          disable user accounts and access privileges if         privileges in accordance with DHS
          annual training is not completed.                      policies for employees not in compliance.

                                                               107
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                      Department of Homeland Security                      Appendix B
                   Information Technology Management Letter
                              September 30, 2009




          Department of Homeland Security 

FY2009 Information Technology - Notice of Findings and 

             Recommendations – Detail 


        Office of Chief Information Security Officer





                                     108 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security                                    Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                           Department of Homeland Security

                                            FY2009 Information Technology




                                                                                

                                Notification of Findings and Recommendations – Detail




                                                                                           

                                        Office of Chief Information Security Officer




                                                                                       

                                                                                                        New       Repeat     Severity
NFR #                       Condition                                  Recommendation
                                                                                                        Issue      Issue      Rating
OCIO-    DHS is in the process of becoming fully           We recommend that the DHS OCIO:                X                     1
IT-09-   compliant with the Federal Desktop Core           • Finalize the DHS Hardening Guides for
  03     Configuration (FDCC) security configurations.       Windows desktop operating systems and
         Each DHS component agency has begun testing         distribute them to all DHS component
         or implementing the FDCC security                   agencies.
         configurations; however, full compliance with     • Continue with the full implementation of
         FDCC security configurations for all DHS            FDCC security configurations across all
         components is not planned to be completed until     DHS component agencies.
         the end of FY 2011.




                                                            109
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                     Department of Homeland Security                       Appendix B
                   Information Technology Management Letter
                              September 30, 2009



          Department of Homeland Security 

FY2009 Information Technology - Notice of Findings and 

             Recommendations – Detail 


                Office of Financial Management





                                     110 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                       Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                            Department of Homeland Security

                                             FY2009 Information Technology




                                                                                      

                                 Notification of Findings and Recommendations – Detail




                                                                                                   

                                               Office of Financial Management




                                                                                     

                                                                                                               New      Repeat      Severity
NFR #                        Condition                                       Recommendation
                                                                                                               Issue     Issue       Rating
CONS-    We identified that while weekly DHSTIER               We recommend that the RMTO Audit Log              X                     1
IT-09-   Oracle activity audit reports (including the          Review Policy/Procedures be revised to
  13     OBJECT, USER, and PRIVILEGE listings) are             require that DHSTIER Oracle activity audit
         generated and retained, evidence of RMTO              reports are retained with evidence that they
         security management reviews of reports is not         have been reviewed by management in
         retained.                                             accordance with DHS 4300A requirements.

CONS-    We noted that the following password                  We recommended that DHSNET domain                X                      1
IT-09-   configurations for the DHSNET domain, which           password settings be configured to be aligned
  14     controls access to the CFO Vision application,        with DHS 4300A requirements concerning
         are not in compliance with DHS 4300A                  automatic session termination.
         requirements:

         •   Password History is configured to remember
             the previous six (6) passwords rather than
             eight (8) as required by policy; and
         •   Automatic Session Termination is configured
             to lock workstations after fifteen (15) minutes
             of inactivity rather than five (5) as required
             by policy.

         Upon informing OFM management of this issue,
         DHS took corrective action and partially
         remedied the condition by modifying the
         DHSNET domain policy to remember the

                                                                111
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                              Department of Homeland Security
                                                                                                                    Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                            New      Repeat      Severity
NFR #                        Condition                                      Recommendation
                                                                                                            Issue     Issue       Rating
         previous twenty-four (24) passwords. However,
         the account lockout duration remains at 15
         minutes.


CONS-    DHS IT personnel informed us that prior to                                                          X                      1
                                                               We recommend that DHS continue to obtain
IT-09-   August 2009 a formal process was not
                                                               and document approvals and test results in
  15     documented or implemented for authorizing,
                                                               accordance with DHS policies and
         testing, and deploying Windows operating system
                                                               requirements for non-emergency and
         patches and emergency operating system patches
                                                               emergency operating system patches for
         on the servers which support the DHSTIER and
                                                               DHSTIER and CFO Vision.
         CFO Vision applications. However, we were
         informed that since August 2009, DHS has
         implemented the Infrastructure Change Control
         Board (ICCB) Change Management Handbook as
         the formal requirement followed to document an
         initial change request form, maintain test results,
         and obtain Infrastructure Change Control Board
         (ICCB) approval prior to deploying operating
         system patches. Therefore, we concluded that a
         formal change management process for operating
         system patches was not present for the majority
         of the fiscal year.

CONS-    We noted that policies and procedures requiring a     We recommend that DHS develop and             X                      1
IT-09-   periodic review of physical access privileges to      implement policies and procedures for
  16     the NCCIPS Stennis Data Center (SDC), which           performing a periodic review of physical
         houses the physical infrastructure for DHSTIER        access privileges to the DHS Stennis Data
         and CFO Vision, have not been documented nor          Center facility, to include retention of
         implemented since DHS operations at NCCIPS            evidence that reviews were performed and
         began on October 1, 2008.                             approved by appropriate management.



                                                                112
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                      Department of Homeland Security
                                                                                Appendix B
                   Information Technology Management Letter
                              September 30, 2009




                                     113
Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                      Department of Homeland Security                      Appendix B
                   Information Technology Management Letter
                              September 30, 2009




          Department of Homeland Security 

FY2009 Information Technology - Notice of Findings and 

             Recommendations – Detail 


           Transportation Security Administration 





                                     114 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                            Department of Homeland Security
                                                                                                                           Appendix B
                                          Information Technology Management Letter
                                                     September 30, 2009

                                           Department of Homeland Security

                                            FY2009 Information Technology




                                                                                    

                                Notification of Findings and Recommendations – Detail




                                                                                                 

                                         Transportation Security Administration




                                                                                        

                                                                                                                   New       Repeat      Risk
NFR #                        Condition                                       Recommendation
                                                                                                                   Issue      Issue     Rating
TSA-IT-   We were unable to obtain six of the eight         •   Complete workgroup efforts to establish clear                   X         1
 09-20    Employee Exit Clearance Forms and one of the          ownership and corrective action plans for the
          three Separating Non-Screener Employee and            conditions noted.
          Contractor IT Certificates sampled.               • Complete and maintain all forms during the
                                                                exit process, as required by the Employee Exit
                                                                Clearance procedures for employees and
                                                                contractors.
                                                            • Verify that a computer access agreement is
                                                                acknowledged by all TSA employees and
                                                                contractors, as required by the IT Security
                                                                Policy Handbook, and that evidence of this
                                                                acknowledgement is maintained.
TSA-IT-   Deficiencies continued to exist over the script   Continue making improvements to implement and                      X          3
 09-23    configuration management process.                 better document an integrated script configuration
          Specifically, Deficiencies were noted in the      management process that includes enforced
          areas of approvals, testing, monitoring,          responsibilities of all participants in the process,
          maintaining documentation, and audit logging.     and the continued development of documentation
                                                            requirements. We recommend that the Coast
              •   Coast Guard lacks a formal process to     Guard should:
                  distinguish between the module lead
                  approvers for script approval requests.
                                                            •    Continue to design, document, implement, and
              •   Coast Guard Finance Center (FINCEN)            enforce the effectiveness of internal controls
                  analysts may run scripts without               associated with the active (current and future)
                  seeking further approval from the              scripts.


                                                                115
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                               Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                       New       Repeat      Risk
NFR #                      Condition                                           Recommendation
                                                                                                                       Issue      Issue     Rating
                Functional Supervisors for approved
                recurring scripts.                            With respect to procedures already in place, Coast
                                                              Guard should:
            •   Testing requirements are inconsistently
                followed for the testing of the Recurring
                Approval scripts and retaining evidence       •    Update / Develop procedures and implement
                of testing.                                        technical controls in the Core Accounting
                                                                   System (CAS) and Financial Procurement
            •   No reconciliation between the scripts              Desktop (FPD) databases to ensure that the
                run and the changes made to the                    appropriate monitoring and review of script
                database tables is being performed to              activities is performed and documented.
                monitor the script activities using this
                report as it is too difficult to accurately   •    Continue to update script policies and
                and effectively reconcile the scripts to           procedures to include clear requirements and
                the audit log table changes.                       more detailed guidance over requesting
                                                                   recurring scripts, testing and documentation
            •   The Script Tracking System does not
                                                                   requirements, monitoring/audit log reviews,
                consistently include all testing,
                                                                   and blanket approval requirements.
                approval, and implementation
                                                                   Additionally, ensure that the policies and
                documentation for all scripts.
                                                                   procedures include detailed guidance over the
            •   Variations in the way the Production               requirements for the testing of scripts and
                Review Process (PRP) Approval Forms                associated test plans to ensure that the
                are populated and completed exist for              appropriate financial impact of the script is
                fields such as financial impact, test              evaluated, reviewed by the appropriate
                strategy and baseline determinations.              personnel, tested in an appropriate test
                                                                   environment prior to being put into
            •   Proper approval is not consistently                production, and documented prior to
                obtained and documented prior to the               execution.
                running of each script.
        In addition, we noted the following deficiencies      •    Further develop and implement policies and
        related to TSA monitoring controls over the                procedures governing the script change
        Coast Guard IT script process:                             control process to ensure that all script records


                                                                  116
                  Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                      Department of Homeland Security
                                                                                                             Appendix B
                                    Information Technology Management Letter
                                               September 30, 2009

                                                                                                     New       Repeat      Risk
NFR #                 Condition                                   Recommendation
                                                                                                     Issue      Issue     Rating
        •   TSA management receives a weekly            within the Change Management Script System
            script report as well as a Validation of    are accurate and complete.
            Monthly Recurring Scripts from
            FINCEN. However, we were informed
            that TSA was still requesting
            modifications to the script reports and
            had asked FINCEN to go back into
            Change Management Script System
            (CMSS) to populate missing
            information so that further analysis
            could be conducted. Additionally,
            during test work, we noted that for
            eight PRP forms, the financial impact
            determination did not match the CMSS
            script record field.
        •   TSA management is still in the process
            of identifying the appropriate subject
            matter experts in each area and have
            not formalized the roles and
            responsibilities surrounding this
            process.
        •   TSA policies and procedures
            developed by require that the TSA
            subject matter experts utilize the
            financial impact guidance set forth by
            FINCEN management in the PRP Staff
            Instruction. However, upon inspection
            of the PRP Instruction we determined
            that this guidance does not adequately
            include detailed criteria to determine
            financial impact.
        •    Once the financial impact is assessed

                                                       117
             Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                             Department of Homeland Security
                                                                                                                           Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                   New       Repeat      Risk
NFR #                        Condition                                        Recommendation
                                                                                                                   Issue      Issue     Rating
                   and approved by FINCEN for the
                   parent blanket approved recurring
                   script, the testing of the script is not
                   subsequently reviewed by an
                   individual with financial reporting
                   knowledge for child scripts that are run
                   in production to ensure that financial
                   impact is correct before the script is
                   placed in production.
            •      TSA is not asked to review and
                   approve all scripts with a financial
                   impact – thus a Coast Guard approver
                   may approve a script that TSA is not in
                   agreement with, or even aware of.
TSA-IT-   During our after-hours physical security testing,   Review security awareness programs designed to        X                     1
 09-28    we identified four passwords located on             protect financial data to help ensure that
          employee workstations.                              individuals are adequately instructed and
                                                              reminded of their roles in the protection of both
                                                              electronic and physical TSA financial data and
                                                              hardware that supports financial data.
TSA-IT-   Controls over the TSA quarterly access reviews      Develop and effectively implement quarterly           X                     1
 09-29    for CAS and FPD user accounts have not been         review policies and procedures that include
          effectively implemented to ensure that TSA          follow-up measures that will be enforced to
          users who no longer require system access are       ensure that users identified through these reviews
          removed in a timely manner.                         are maintaining unnecessary access have their
                                                              accounts end dated in a timely manner.




                                                               118
                    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                     Department of Homeland Security                       Appendix B
                   Information Technology Management Letter
                              September 30, 2009




            Department of Homeland Security 

             FY2009 Information Technology 

 Notification of Findings and Recommendations – Detail 



           United States Citizen and Immigration Services




                                     119 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                      Appendix B
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                             New      Repeat      Severity
NFR #                        Condition                                      Recommendation
                                                                                                             Issue     Issue       Rating
CIS-IT-   We inspected the National Benefits Center            Continue to define and document the various               X           2
 09-01    (NBC) CLAIMS 3 LAN user role/responsibilities        CLAIMS 3 LAN roles and their associated
          documentation and determined that the system         responsibilities for the remaining service
          settings and assigned user roles within the system   centers.
          do not accurately reflect documented user
          responsibilities.

CIS-IT-   NBC does not perform periodic CLAIMS 3 LAN           Establish and implement policies and                     X            2
 09-02    user access reviews to ensure that users' level of   procedures for handling, reviewing, and
          access remains appropriate and there are no          retention of Claims 3 LAN user account
          procedures established for performing periodic       request forms.
          reviews.


CIS-IT-   Management at the USCIS Headquarters (HQ)            Establish and enforce procedures for the                 X            2
 09-03    and the Service Center, Vermont has not              completion and maintenance of user access
          completed or inadequately documented access          forms for CLAIMS 3LAN and CLAIMS 4 for
          forms for CLAIMS 3 LAN and CLAIMS 4,                 all the service centers.
          system users.

CIS-IT-   The USCIS HQ has not maintained or                   Conduct and document annual reviews of all               X            2
 09-04    documented a selection of system administrator’s     users with Active Directory system
          access authorization forms.                          administrator access.




                                                                120
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                         Appendix B
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                New      Repeat      Severity
NFR #                        Condition                                      Recommendation
                                                                                                                Issue     Issue       Rating
CIS-IT-   The biometric facial recognition scanner allowed     •   Establish and implement backup media                     X           2
 09-06    unauthorized personnel access to USCIS server            retention and rotation policies.
          room, and procedures regarding removal,              • Establish and implement emergency exit
          authorization, and logging of USCIS backup               and re-entry procedures.
          media are not in place for the Technology            • Develop a process that assures all
          Engineering Consolidation Center (TECC).                 resources with access to the USCIS
                                                                   resources adhere to the policy and
                                                                   procedure.
                                                               • Implement stronger physical access
                                                                   controls over the server cage door to
                                                                   prevent further unauthorized access
CIS-IT-   USCIS has not finalized a policy that outlines the   Update and finalized their policies and                     X            2
 09-07    process for developing forms for labeling and        procedures to reflect their current media
          tracking the disposition process or provided clear   sanitization operation.
          instructions for conducting media wipes or
          purges of data.
CIS-IT-   USCIS does not recertify its system administrator    Management should establish a more timely                   X            2
 09-08    accounts on an annual basis.                         process to perform a periodic review of user
                                                               accounts ensuring proper authorization and
                                                               training.
CIS-IT-   CLAIMS 3 LAN password re-use and length              • Establish a process to ensure that USCIS        X                      2
 09-09    configurations does not meet DHS standards.             systems are configured to meet minimum
          CLAIMS 3 LAN generic user accounts was not              DHS password configurations and
          timely removed because of a lack of user account        requirements.
          recertification.                                     • Remove all generic accounts to CLAIMS 3
                                                                  LAN production systems and perform
                                                                  periodic reviews of the user access list to
                                                                  ensure compliance.
CIS-IT-   CLAIMS 4 LAN password configuration settings         We recommend that USCIS establish a               X                      2
 09-10    does not meet DHS4300A password standards.           process to ensure CLAIMS 4 LAN is
                                                               configured to meet DHS4300A password
                                                               configuration standards.

                                                                   121
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                               Department of Homeland Security                                         Appendix B
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                               New      Repeat      Severity
NFR #                        Condition                                     Recommendation
                                                                                                               Issue     Issue       Rating
CIS-IT-   We identified that an inadequate background         We recommend that USCIS management                 X                     2
 09-11    investigation was performed and documented for      periodically review personnel files to confirm
          one new hire personnel from a sample of 25.         background investigations have been
                                                              completed in accordance with DHS standards.
CIS-IT-   We inspected a sample of personnel that had         We recommend that USCIS management                X                      2
 09-12    terminated/transferred from their employment        adhere to exit clearance procedures and
          with USCIS. Of the 28 terminated/transferred        require personnel to follow them in an event
          USCIS personnel sampled, evidence of                of transfer/termination.
          compliance with exit clearance procedures could
          not be provided for 19 employees.
CIS-IT-   Vermont Service Center (VSC) has ineffective        • Establish and implement procedures for          X                      2
 09-13    safeguards exist over the computer room in the         maintaining and authorizing the OIT’s
          Office of Information Technology (OIT). VSC            computer room access list.
          procedures regarding the removal, authorization     • Establish and implement backup media
          and logging of backup media are not in place.          retention and rotation policies.
          VSC procedures for ensuring accuracy and            • Enforce completeness and accuracy over
          completeness over visitor logs are not enforced.       visitor information in logs.
CIS-IT-   During our testing of access controls for FFMS,     We recommend that USCIS establish and             X                      2
 09-14    in our sample of 25 active users, we noted one      enforce policies and procedures that ensure
          user’s access was excessive, based on the access    that roles and responsibilities are
          approved by their present supervisor. We learned    commensurate with their job function.
          that this user’s profile was changed as the user
          relocated to a different service center. However,
          when the profile change was requested, the
          FFMS administrator did not remove all previous
          access nor assure that the access rights were
          current and authorized. As a result, the user had
          excessive privileges for her role and
          responsibilities. We also noted that the USCIS
          SOP did not reflect this procedure though we
          learned through inquiry that the FFMS
          administrators are required to remove all prior

                                                               122
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                Department of Homeland Security                                         Appendix B
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                New      Repeat      Severity
NFR #                         Condition                                    Recommendation
                                                                                                                Issue     Issue       Rating
          access when performing a profile change.
          As a result of our test work, USCIS responded by
          removing the excessive access to reflect the
          user’s role and responsibilities. In addition,
          USCIS updated their SOP to require all previous
          access to be confirmed and removed prior to
          granting new access roles.

CIS-IT-   We identified a lack of audit logging policies     We recommend that USCIS establish and               X                      2
 09-15    over the application and server logs for the       enforce policies and procedures for
          CLAIMS 3 and CLAIMS 4 LAN system.                  maintenance and review of audit logging.

CIS-IT-   We identified weaknesses within physical access    • Establish and implement policies and              X                      2
 09-16    controls for CLAIMS 4 LAN over lack of                procedures for the handling, periodically
          procedures for recertifying user access, lack of      reviewing, and retaining CLAIMS 4 LAN
          evidence of least privilege and segregation of        user account request forms.
          duties controls, and untimely removal of           • Define and document policies and
          terminated personnel accounts.                        procedures for identifying and approving
                                                                CLAIMS 4 user roles/profiles to include
                                                                the user’s responsibilities. In addition, the
                                                                policies and procedures should address and
                                                                implement segregation of duties
                                                                procedures.
                                                             • Develop policies and procedures for the
                                                                removal of transferred/terminated users
                                                                within CLAIMS 4 upon their separation
                                                                from USCIS.
CIS-IT-   We identified weaknesses within monthly            We recommend that USCIS management                  X                      2
 09-17    trainings of USCIS’ ISSOs.                         implement mandatory training requirements
                                                             for IT security personnel to complete training
                                                             consistent with their job function duties.


                                                              123
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                                 Department of Homeland Security                                          Appendix B
                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                  New      Repeat      Severity
NFR #                         Condition                                       Recommendation
                                                                                                                  Issue     Issue       Rating
CIS-IT-   We determined that weaknesses exist related to        We recommend that USCIS management                  X                     2
 09-18    CLAIMS3 LAN access. Specifically, we                  develop and implement policies and
          identified 21 users which were separated from         procedures for the removal of separated users
          USCIS and still retained access to the CLAIM3         within CLAIMS 3 LAN upon their separation.
          LAN.

CIS-IT-   We tested a sample of personnel that were             •    Establish and implement requirements for      X                      2
 09-19    required to complete annual Computer Security              personnel to complete Computer Security
          Awareness Training during the fiscal year. Of              Awareness Training annually.
          the thirty (30) personnel sampled, evidence of        •    Develop a process to disable user accounts
          compliance could not be provided for two                   and access privileges in accordance with
          employees. Additionally, procedures are not in             DHS policies for employees not in
          place to disable user accounts and access                  compliance.
          privileges if annual training is not completed on a
          timely basis.




                                                                    124
                     Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                          Department of Homeland Security                    Appendix C
                       Information Technology Management Letter
                                  September 30, 2009




                                  Appendix C 


Status of Prior Year Notices of Findings and Recommendations and 

                          Comparison To 

 Current Year Notices of Findings and Recommendations at DHS 





                                         125
    Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                   Department of Homeland Security                                Appendix C
                                Information Technology Management Letter
                                           September 30, 2009



     Status of Prior Year Notices of Findings and Recommendations and Comparison To
                   Current Year Notices of Findings and Recommendations
                                                                                             Disposition
NFR No.          Description                                                           Closed         Repeat

  CBP-IT-08-02         Interconnection Security Agreements (ISAs)                        X
  CBP-IT-08-03                                                                                         09-03
  CBP-IT-08-08                 Audit Logs                                                X
  CBP-IT-08-09    Disabling of Inactive Accounts on                                      X
  CBP-IT-08-12                     Installations                                                       09-12
  CBP-IT-08-13    Complete List of CBP Workstations                                                    09-13
  CBP-IT-08-16    Excessive        Emergency Access                                      X
  CBP-IT-08-18    Recertification of             Accounts                                X
  CBP-IT-08-21    Review of Changes to Security Profiles in                                            09-21
  CBP-IT-08-26    Review of               Security Violation Logs                        X
  CBP-IT-08-27                 Administrator Access Authorization Weaknesses                           09-27
  CBP-IT-08-28                 Access Policies and Procedures                            X
  CBP-IT-08-29    Completion of CF-241 Forms for Terminated Employees                                  09-29
  CBP-IT-08-34    Installation of Virus Protection                                                     09-34
  CBP-IT-08-35    Configuration Management                                               X
  CBP-IT-08-36    Patch Management                                                       X
  CBP-IT-08-37    Security Violation Review Process                                      X
  CBP-IT-08-38    Process for Reviewing               Audit and                 Logs     X
  CBP-IT-08-39    Password Configuration Weakness in                                     X
                  ISSM Approval of          Emergency and Temporary Access
  CBP-IT-08-40                                                                           X
                  Authorizations
  CBP-IT-08-41    Weaknesses in the Process of Separating CBP Contractors                              09-41
                  Formal Agreement Not in Place for CBP’s Use of             as
  CBP-IT-08-42                                                                           X
                  Business Continuity Facility
  CBP-IT-08-43    Inadequate Resources at           for Business Continuity Testing      X
  CBP-IT-08-44    Completion of Non Disclosure Agreements for CBP Contractors                          09-44
  CBP-IT-08-45    Log Configuration Weakness for                      System                           09-45
  CBP-IT-08-46    Review of                                        Logs                  X
  CBP-IT-08-47    Rules of Behavior are Not Signed Before Gaining Systems Access         X
  CBP-IT-08-48    Lack of Effective        Access Change Log Review Procedures                         09-48
  CBP-IT-08-49    Weak Initial Passwords Granted for New Accounts in                     X
  CBP-IT-08-50    Inadequate Tracking of Security Awareness Training Completion          X
  CBP-IT-08-51    No         Hardware Maintenance Procedures                             X
  CBP-IT-08-52    Screensavers are Not Appropriately Configured on the                   X
                  Out of Date and Inaccurate        Security Administrator
  CBP-IT-08-53                                                                           X
                  Procedures
  CBP-IT-08-54          Access Control Weaknesses                                        X
  CBP-IT-08-55                 Accounts Created by Unauthorized Parties                  X

  CG-IT-08-01     FINCEN Service Continuity Weakness                                     X
                  Security Configuration Management Policy and Procedures
  CG-IT-08-06                                                                            X
                  Weakness
  CG-IT-08-07     RACF/JUMPS Password Configuration Needs Strengthening                  X

                                                      126
          Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                  Department of Homeland Security                              Appendix C
                               Information Technology Management Letter
                                          September 30, 2009



                                                                                          Disposition
NFR No.          Description                                                        Closed         Repeat

  CG-IT-08-10     Contractor Background Investigation Weakness                                      09-10
                  Weaknesses in Specialized Role-based Training for Individuals
  CG-IT-08-14                                                                                       09-14
                  with Significant Security Responsibilities
  CG-IT-08-17     Checkfree Password Configuration Needs Strengthening                X
  CG-IT-08-23     SAM Audit Log Review Weakness                                                     09-23
  CG-IT-08-25     WINS Access Controls Need Strengthening                                           09-25
  CG-IT-08-27     SAM Account Management Weakness                                     X
  CG-IT-08-31     Weaknesses in Controls Over the Scripting Process                                 09-31
  CG-IT-08-32     Lack of a Documented Contractor Tracking Mechanism                                09-32
                  Lack of a Consistent Contractor, Civilian, and Military Account
  CG-IT-08-33                                                                                       09-33
                  Termination Process for Coast Guard Systems
  CG-IT-08-34     WINS Change Control Weakness                                                      09-34
  CG-IT-08-35     CAS and FPD Change Control Weakness                                 X
  CG-IT-08-36     Vulnerability Assessment Weakness – Configuration Management        X
  CG-IT-08-37     Vulnerability Assessment Weakness – Patch Management                X
  CG-IT-08-40     Civilian Background Investigation Weakness                                        09-40
  CG-IT-08-41     Weakness in the CAS C&A Package                                     X
  CG-IT-08-42     Non-Compliance with FFMIA – Information Technology                                09-42
                  Access Authorization and Recertification Weaknesses within the
  CG-IT-08-43                                                                                       09-43
                  User Management System (UMS)

                  Lack of Definition and Documentation of Access Roles at the
  CIS-IT-08-01                                                                                      09-01
                  National Benefits Center for CLAIMS 3 LAN
                  Periodic CLAIMS 3 LAN User Access Reviews are not Performed
  CIS-IT-08-02    at the NBC                                                                        09-02

                  Incomplete or Inadequate Access Request Forms for CLAIMS 3
  CIS-IT-08-03    LAN, CLAIMS 4, and CISCOR System Users at Headquarters                            09-03
                  and the Service Centers
  CIS-IT-08-04    Ineffective Controls for Restricting Security Software Exist                      09-04
  CIS-IT-08-06    Weak Data Center Access Controls                                                  09-06
  CIS-IT-08-07    Equipment and Media Policies and Procedures are not Current                       09-07
  CIS-IT-08-08    Weak Access Controls for Security Software Exist                                  09-08

 CONS-IT-08-07    Lack of Individual Accountability for DBA Accounts                  X
 CONS-IT-08-11    Lack of Sufficient Evidence of TIER Change Control Testing          X
                  Evidence of Approvals and Testing for the CFO Vision 4.3
 CONS-IT-08-12                                                                        X
                  Upgrade Not Documented

                  Configuration Management Weaknesses on IFMIS, NEMIS, and
 FEMA-IT-08-02                                                                                      09-02
                  Key Support Servers
 FEMA-IT-08-03    Weaknesses Exist over Recertification of Access to the IFMIS                      09-03
                  Documentation Supporting the IFMIS User Functions Does Not
 FEMA-IT-08-06                                                                                      09-06
                  Exist
 FEMA-IT-08-12    NEMIS Access Controls Need Improvement                                            09-12
 FEMA-IT-08-13    Employee Termination Process for Removing System Access                           09-13


                                                    127
          Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                   Department of Homeland Security                             Appendix C
                                Information Technology Management Letter
                                           September 30, 2009



                                                                                          Disposition
NFR No.          Description                                                        Closed         Repeat

                  Should be More Proactive
                  System Programmers Have the Ability to Migrate Code into the
 FEMA-IT-08-17                                                                                      09-17
                  IFMIS Production Environment
 FEMA-IT-08-19    Monitoring of FEMIS System Software Needs Improvement                             09-19
 FEMA-IT-08-22    Alternate Processing Site for NEMIS Has Not Been Established                      09-22
                  IFMIS Backup Tapes are not Tested in Accordance with DHS
 FEMA-IT-08-23                                                                        X
                  Requirements
 FEMA IT-08-24    NEMIS Backups are not Tested in Accordance with Policy                            09-24
 FEMA-IT-08-25    NEMIS Contingency Plan is not Tested                                              09-25
                  NEMIS Configuration Management Process for Non-Emergency
 FEMA-IT-08-28                                                                                      09-28
                  Changes Needs Improvement
 FEMA-IT-08-29    NEMIS Emergency Change Process Needs Improvement                                  09-29
 FEMA-IT-08-38    Segregation of Duties Not Enforced for Traverse                                   09-38
                  Traverse Contingency Plan Not Tested and NFIP Disaster
 FEMA-IT-08-39                                                                                      09-39
                  Recovery and CCOP Needs Improvement
                  IFMIS User Access is not Managed in Accordance with Account
 FEMA-IT-08-45                                                                                      09-45
                  Management Procedures
                  IFMIS System Interconnections Agreements have not been
 FEMA-IT-08-46                                                                                      09-46
                  Reauthorized
                  NEMIS System Interconnections Agreements have not been
 FEMA-IT-08-47                                                                        X
                  Reauthorized
                  Corrective Action over NEMIS Vulnerabilities is Not Formally
 FEMA-IT-08-48                                                                                      09-48
                  Documented
                  Anti-Virus Settings on User’s Workstation were not Configured
 FEMA-IT-08-49                                                                        X
                  Properly
                  Weaknesses Exist over IFMIS Application and Database Audit
 FEMA-IT-08-50                                                                                      09-50
                  Logging
 FEMA-IT-08-51    NEMIS Oracle Audit Logging is not Sufficient                                      09-51
                  Existing NEMIS Patch Management Guidance Needs to be
 FEMA-IT-08-52                                                                                      09-52
                  Implemented
                  The NEMIS System Security Plan has not been Fully Updated in
 FEMA-IT-08-53                                                                                      09-53
                  Accordance with DHS Policy
 FEMA-IT-08-54    Traverse Application Management Needs Improvement                                 09-54
 FEMA-IT-08-55    TRRP Change Management Needs Improvement                            X

FLETC-IT-08-01    Momentum Configuration Management Needs Improvement                 X
                  Procurement Desktop Configuration Management Needs
FLETC-IT-08-02                                                                        X
                  Improvement
                  Installation of Momentum System Software is not Logged or
FLETC-IT-08-03                                                                                      09-03
                  Reviewed
FLETC-IT-08-04    The SDLC for Momentum is not Finalized                                            09-04
FLETC-IT-08-05    Momentum Backups are not Tested                                     X
FLETC-IT-08-06    The Momentum Contingency Plan is not Complete                       X
                  Incidents are not Tracked in an Incident Response Management
FLETC-IT-08-07                                                                        X
                  System
FLETC-IT-08-08    Lack of Policies and Procedures over Incompatible Duties within     X


                                                     128
          Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                   Department of Homeland Security                              Appendix C
                                Information Technology Management Letter
                                           September 30, 2009



                                                                                           Disposition
NFR No.          Description                                                         Closed         Repeat

                  Procurement Desktop
FLETC-IT-08-09    Telecom Room Access Controls Needs Improvement                       X
                  Momentum and Procurement Desktop Access Controls Need
FLETC-IT-08-10                                                                         X
                  Improvement
FLETC-IT-08-11    IT Security Awareness Training is in Draft Form                      X
                  Policies and Procedures over Mobile Code Technologies are not
FLETC-IT-08-12                                                                         X
                  Developed
                  Policies and Procedures for Review of Momentum Audit Logs are
FLETC-IT-08-13                                                                         X
                  not Developed
                  Policies and Procedures for Restricting Access to Momentum
FLETC-IT-08-14                                                                         X
                  System Software are not Developed
                  Policies and Procedures for Segregating Incompatible Duties in
FLETC-IT-08-15                                                                         X
                  Momentum are not Developed
                  Policies and Procedures over VoIP Technologies are not
FLETC-IT-08-16                                                                         X
                  Developed
                  Background Investigations for Contractors are not Consistently
FLETC-IT-08-17                                                                         X
                  Performed
FLETC-IT-08-18    Procurement Desktop Audit Logs Need Improvement                      X
FLETC-IT-08-20    Access to FLETC LAN is not Effectively Controlled                    X
                  FLETC Manual 4300: IT System Security Program and Policy is
FLETC-IT-08-21                                                                         X
                  not Finalized
FLETC-IT-08-22    Access Controls over Procurement Desktop are not Effective           X
FLETC-IT-08-23    Lack of Procedures for Recertifying Procurement Desktop Users        X
                  Momentum/Procurement Desktop Contingency Plan is not
FLETC-IT-08-24                                                                         X
                  Maintained at the Alternate Processing Site
                  Policies and Procedures over Anti-Virus Software for Servers and
FLETC-IT-08-25                                                                         X
                  System Maintenance are not Finalized
                  Configuration Management Weaknesses on the Procurement
FLETC-IT-08-26                                                                                       09-26
                  Desktop, Momentum, and GSS
FLETC-IT-08-27    Patch Management Weaknesses on Procurement Desktop and GSS           X
FLETC-IT-08-29    Procurement Desktop Backups are not Tested                           X
FLETC-IT-08-30    Momentum Users are Granted Inappropriate Super User Access           X
FLETC-IT-08-31    Momentum Security Violation Events are not Reviewed                                09-31
FLETC-IT-08-32    Momentum Segregation of Duties Controls are not Effective            X

  ICE-IT-08-04    Weak ICE Network/ADEX Access Controls Exist                          X
                  ICENet\ADEX Contingency Plan is not Stored at Offsite
  ICE-IT-08-09                                                                         X
                  Locations
                  ICENet\ADEX Backup Facility Access is not Appropriately
  ICE-IT-08-10                                                                         X
                  Secured from Unauthorized Access

                  Formal Agreement Not in Place for CBP Use of the Stennis Data
 OCIO-IT-08-01                                                                         X
                  Center as a Business Continuity Facility
 OCIO-IT-08-02    DHS SDLC has not been Finalized                                      X

  TSA-IT-08-01    FINCEN Service Continuity Weakness                                   X


                                                     129
          Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                                  Department of Homeland Security                             Appendix C
                               Information Technology Management Letter
                                          September 30, 2009



                                                                                         Disposition
NFR No.          Description                                                       Closed         Repeat

                  Security Configuration Management Policy and Procedures
  TSA-IT-08-03                                                                       X
                  Weakness
  TSA-IT-08-05    Contractor Background Investigation Weakness                       X
                  Weaknesses in Specialized Role-based Training for Individuals
  TSA-IT-08-06                                                                       X
                  with Significant Security Responsibilities
  TSA-IT-08-13    Weakness in the CAS C&A Package                                    X
  TSA-IT-08-15    TSA IS Security Awareness Training Weakness                        X
  TSA-IT-08-18    Vulnerability Assessment Weakness – Configuration Management       X
  TSA-IT-08-19    Vulnerability Assessment Weakness – Patch Management               X
                  Weaknesses over the TSA Computer Access Agreement and
  TSA-IT-08-20                                                                                     09-20
                  Termination Clearance Processes
                  CAS, FPD, and Sunflower Change Control Policy and Procedures
  TSA-IT-08-21                                                                       X
                  Weakness
  TSA-IT-08-22    CAS and FPD Change Control Weakness                                X
  TSA-IT-08-23    Weaknesses in Controls Over the Scripting Process                                09-23
  TSA-IT-08-24    Civilian Background Investigation Weakness                         X
                  Access Authorization and Recertification Weaknesses within the
  TSA-IT-08-26                                                                       X
                  User Management System (UMS)
  TSA-IT-08-27    CAS and FPD Access Recertification Weakness                        X




                                                    130
          Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                              Department of Homeland Security                                     Appendix D
                         Information Technology Management Letter
                                      September 30, 2009



                                                                  u.s. Dojlo..m..' 0 1 _... S<ArItr
                                                                  w............ OC2<W1


                                                                 Homeland
                                                                 Security
                                      API! - 2100
         MEMORANDUM FOR;             Richard Skinner
                                     1nIpe<:tor General

      FROM:                                  .r.1 ~
                                     Richard SPi-   A




                                     Chief1nfo~eer
                                    t~
                                    ~~aIOfficer
                                    Robert West
                                    ChidInfomlatlon Security Officer

     SUBJECT:                       010 DntftAuditReport - bifon"Olil)rr Technology
                                    Monage1/U1li Lettufor FY 20(J9 DHS InJegraled.Alldir­
                                    For OffiCilll Un OI'lly

     We have reviewed the Office of the Inspector General's (010) draft alKlit report,
     Irrformat/Olt T,cnnologyManagcfMnl uttu (rTML)for FY ]009 DHS IntegraltdAwffl,
     dated December 9, 2009. We ooneur with me Financial Systems Security fuuiinas
     contained within your audit report

     The DHS Chid Information Offie« (CIO) aod ChiefFio.ancial Officer (CFO) have
     aligned the Federal Infonn8tion Security Mu.oBgetnellt Act (FlSMA) framework with the
     internal oolitrolllSlJCSSnlelit process, governed by omee of Management aDd Budget
     (OMB), Circular A-I23, Manag,ment's R.sporr.slbilltyfor IntuMI Control across the
     Departroent 10 improve financial systems security a1 the Department. Major activities
     under this integrated approach include:

     •    l$SIJcd. final tmernal Control Playbook MQ~me'" Auvronc. Procu$ Gtdtk
          Fiscal r,ar 2()(}9 Addendum 10 the Information Teelmology General Controls (ITGC)
          lmplemenwion Guide which provides guidance 011 DHS's approach to docum.enUna
          and tesdngthe design effectiveness offinancialay.tenl n'oc•.
     •    Updated tile CFO Desiaoated Systems List for FY09 as a result ofITOC Systems
          Mapping performed in FY08. The list specific! the financ:ial systems that require
          additional management acx:ountability to ensure effective controls exist over financial
          reporting.
     •    Performed FY09 A·i23 ITOC Assessments.t the following Componellt$- U.S.
          CitizeJuh.ip and Immigration Services, Jromigration and Custom~ E'JIf~ent,
          Customs and Border ProtectiOD, Fedeta.l Law Enfoteement Training Center, aud U.S,
          SctTet Service. T~ following detail! me A·123 ITGC AsSC!SDlCllts for FYQ9:




                                                131 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                              Department of Homeland Security                                         Appendix D
                         Information Technology Management Letter
                                        September 30, 2009




                    o Pe:fvt.utrl wa1kthroughI witb points of contact 10 di!lC\lSll the process and
                      procechzrq SlID'Ounding the CFO Designated Systems key controls.
                    o Updated Tes~ofDesign. including le'Iiew and statwI forconective
                        actions identified In FYOS.
                    o Pedormcd Tcsl3 ofOperatlng Ef1'eetiverlCSS for controls thal are properly
                        dcsigoed.
                    o Issued the FY09 DRS Sccn:tary's Annua.l ~ Sta!emelIt baed on
                       FY09 test results.
            Issued the FY 2010 DHS Infonnation Security Performanoo P1an which includes the
            rcquiremcat to eIlSlIr8 key finaneial ~!lllClIrity oontrols ~ ~cd lInDually.
            Updated DHS 4300" Sensitive Systems Haodbook, AftaChmeot H: POA.&:M Procut
            Grdtk, to includttbe CFO's rolt and leSpOllSibilities re1ated to the POA&M proccs;
            aDd iDooIpomtd risle levels lIIld risk ratings for fioancia1systems to assist
            CompoDllllts aDd DHS in better ~ the oYef&11 risk 10 iDfortnation ~

        •   ""-
            Implemented traelcing of A·I23 rroc _Jrnes.: under the Wtaknoss Rc:mcdiation




            _.
            metric 011 the FISMA Sco~.
        •   Provided root ca\IIC analysis training to DHS Components and assistance with
            llddressingA·l23 ITGC deficiencies in POAa:Ms; provided POAotM bining for
            215 finaDciall)'SlemlllOCUrity p1'Ofessiollal~ at eleven. Componcnu and DHS

        •   Improved tracking of all IT audit reeommeodations to ensure traceability to
            POAa:M~InTAF.
        •   Developed • POA&M Issues Me:ttiCll List: to track financial sy$tem$ ddicieneies
            identified by tbeCompoDClltS, DHS Headquarters, 010 Rqlorts, and financia1
            llS3CSSlIlClIts to resolution.
        •   Updated Departmcutallnfunnation Assurance tools, t.g., Risk Management S)'SlieIn
            (RMS) and Trusted AgentFISMA (TAF)to monito.r 8lId traelr: compliance with
            roquirmnents for ero Designated Sy~.

        Additiooally, DHS plMs to modify the IltO(le of A-123 asxssroenb for FY 2010 to
        perbrm verifieatioo. and VlIlidation procedures to r.nsure POA&.Ms addfess root causes of
        ttn.lcilll. ~ IJllCUrity corrtroI deficiencies ideotifitd from the financilll. .stelt$eDt
        audits and FISMA aDIluai ust:SSUiiIUU.

        The DHS CIO end CFO rem~ fully ~tted to working to~ to sewre DRS
                                                                  rrocs
        finanei.lII. systems and continue to raise the stIIndar4I ftll" for 1OCWina: lII.l DHS
        financilll. syst;ems informatioa.

        If you haVfl any questions or would like additional infODDltion, please c:ontlIct Emery
        Crulat.1SO, Compliance Director at (202) 357-6113 or Michael Wetldow, OCFO,
        Director Intemal Control Program Management Office et (202) 447-5196.




                                                 132
Information Technology Management Letter for the FY 2009 DHS Integrated Audit
                        Department of Homeland Security                Appendix E
                   Information Technology Management Letter
                             September 30, 2009


               Report Distribution

               Department of Homeland Security

               Secretary
               Deputy Secretary
               General Counsel
               Chief of Staff
               Deputy Chief of Staff
               Executive Secretariat
               Under Secretary, Management
               Chief Information Officer
               Chief Financial Officer
               Chief Information Security Officer
               Assistant Secretary, Policy
               DHS GAO OIG Audit Liaison
               Chief Information Officer, Audit Liaison

               Office of Management and Budget

               Chief, Homeland Security Branch
               DHS OIG Budget Examiner

               Congress

               Congressional Oversight and Appropriations Committees as
               Appropriate




                                     133 

Information Technology Management Letter for the FY 2009 DHS Integrated Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
